<html>
<title> - A NATIONAL WATER INITIATIVE: COORDINATING AND IMPROVING FEDERAL RESEARCH ON WATER</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                      A NATIONAL WATER INITIATIVE:
                       COORDINATING AND IMPROVING
                       FEDERAL RESEARCH ON WATER

=======================================================================


                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                              ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 23, 2008

                               __________

                           Serial No. 110-116

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______



                   U.S. GOVERNMENT PRINTING OFFICE
43-528 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001



                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           TOM FEENEY, Florida
LAURA RICHARDSON, California         RANDY NEUGEBAUER, Texas
DONNA F. EDWARDS, Maryland           BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona           VACANCY
CHARLES A. WILSON, Ohio
ANDRE CARSON, Indiana
                                 ------                                

                 Subcommittee on Energy and Environment

                   HON. NICK LAMPSON, Texas, Chairman
JERRY F. COSTELLO, Illinois          BOB INGLIS, South Carolina
LYNN C. WOOLSEY, California          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           RANDY NEUGEBAUER, Texas
MARK UDALL, Colorado                 MICHAEL T. MCCAUL, Texas
BRIAN BAIRD, Washington              MARIO DIAZ-BALART, Florida
PAUL KANJORSKI, Pennsylvania             
BART GORDON, Tennessee               RALPH M. HALL, Texas
                  JEAN FRUCI Democratic Staff Director
            CHRIS KING Democratic Professional Staff Member
        MICHELLE DALLAFIOR Democratic Professional Staff Member
         SHIMERE WILLIAMS Democratic Professional Staff Member
      ELAINE PAULIONIS PHELEN Democratic Professional Staff Member
          ADAM ROSENBERG Democratic Professional Staff Member
          ELIZABETH STACK Republican Professional Staff Member
          TARA ROTHSCHILD Republican Professional Staff Member
                    STACEY STEEP Research Assistant


                            C O N T E N T S

                             July 23, 2008

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Prepared Statement by Representative Bart Gordon, Chairman, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................     9

Statement by Representative Nick Lampson, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science and Technology, 
  U.S. House of Representatives..................................     7
    Written Statement............................................     7

Statement by Representative Bob Inglis, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................     8
    Written Statement............................................     8

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................     9

                               Witnesses:

Dr. Mark A. Shannon, Director, Center of Advanced Materials for 
  the Purification of Water With Systems, University of Illinois, 
  Urbana-Champaign
    Oral Statement...............................................    10
    Written Statement............................................    11
    Biography....................................................    19

Mr. Tod D. Christenson, Chairperson, Beverage Industry 
  Environmental Roundtable (BIER)
    Oral Statement...............................................    19
    Written Statement............................................    21
    Biography....................................................    24

Dr. Timothy T. Loftus, Project Director, Northeastern Illinois 
  Regional Water Supply Planning, Chicago Metropolitan Agency for 
  Planning
    Oral Statement...............................................    26
    Written Statement............................................    28

Mr. Jerry N. Johnson, General Manager, District of Columbia Water 
  and Sewer Authority
    Oral Statement...............................................    29
    Written Statement............................................    31
    Biography....................................................    35

Mr. Bradley H. Spooner, Principal Engineer, Environmental 
  Services of the Municipal Electric Authority of Georgia (MEAG 
  Power)
    Oral Statement...............................................    36
    Written Statement............................................    37
    Biography....................................................    50

Dr. Upton Hatch, President-Elect, National Institutes for Water 
  Resources; Associate Director, Water Resources Research 
  Institute, University of North Carolina; Research Professor, 
  Department of Agricultural and Resource Economics, North 
  Carolina State University
    Oral Statement...............................................    51
    Written Statement............................................    53
    Biography....................................................    57

Discussion
  The National Science and Technology Council's Subcommittee on 
    Water Availability and Quality (SWAQ) Outreach...............    57
  The Federal Government's Role in Ensuring Water Availability 
    and Quality..................................................    59
  Carbon Sequestration's Impact on Water Supply..................    60
  Avoiding Burdensome Bureaucracy................................    60
  Benefits of Research...........................................    61
  Water Conservation.............................................    62
  Conservation and Agriculture...................................    66
  The Federal Government's Role..................................    68
  Groundwater Research...........................................    70
  Public Education...............................................    71
  Municipal Water Utilities: DCWASA..............................    72
  The Draft Legislation's Potential..............................    74
  Retention Ponds................................................    75

              Appendix: Additional Material for the Record

Discussion Draft, To implement a National Water Research and 
  Development Initiative, and for other purposes.................    78


    A NATIONAL WATER INITIATIVE: COORDINATING AND IMPROVING FEDERAL 
                           RESEARCH ON WATER

                              ----------                              


                        WEDNESDAY, JULY 23, 2008

                  House of Representatives,
            Subcommittee on Energy and Environment,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:06 a.m., in 
Room 2318, Rayburn House Office Building, Hon. Nick Lampson 
[Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                      A National Water Initiative:

                       Coordinating and Improving

                       Federal Research on Water

                        wednesday, july 23, 2008
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

PURPOSE

    On Wednesday, July 23rd the Subcommittee on Energy and Environment 
will hold a hearing to receive testimony on the opportunities for the 
Federal Government to support and better coordinate research and 
technological innovation to enhance water supplies and water quality 
and to support improved water management. The Committee will also 
receive testimony on a discussion draft of legislation to be introduced 
by Chairman Bart Gordon entitled the National Water Research and 
Development Initiative Act.

WITNESSES

        <bullet>  Dr. Mark A. Shannon: Director of the United States 
        Strategic Water Initiative, a public-private effort to enhance 
        American competitiveness in water purification science and 
        technology by advancing the basic science of water purification 
        and accelerating the implementation of innovative U.S. 
        technologies to deliver, increase, and protect fresh water 
        supplies around the world.

        <bullet>  Mr. Tod Christenson: Director of the Beverage 
        Industry Environmental Roundtable (BIER), an organization 
        created by Coca Cola and representing eleven beverage companies 
        including Anheuser Busch, Beam, Pepsi, etc.

        <bullet>  Dr. Timothy T. Loftus: Water Resource Planner for the 
        Chicago Metropolitan Agency for Planning (CMAP) and coordinator 
        of the Illinois 2050 Water Demand Scenario report commission by 
        the Governor Rod Blagojevich.

        <bullet>  Mr. Jerry Johnson: General Manager at the DC Water 
        and Sewer Authority, a multi-jurisdictional regional utility 
        that provides drinking water, wastewater collection and 
        treatment to more than 500,000 residential, commercial and 
        governmental customers in the District of Columbia.

        <bullet>  Mr. Bradley H. Spooner: Principal Engineer for 
        Environmental Services at Municipal Electric Authority of 
        Georgia, a public corporation providing power to 49 Georgia 
        communities that in turn bring energy to approximately 600,000 
        citizens.

        <bullet>  Dr. Upton Hatch: Associate Director at the Water 
        Resources Research Institute of the University of North 
        Carolina, one of the fifty-four state and territorial Water 
        Research Institutes and Centers which perform research related 
        to regional and interstate water resources problems.

BACKGROUND

    Water resource problems are growing in both number and intensity, 
in regions across the country. As demand for water continues to rise 
and as supplies dwindle, it has become increasingly apparent that there 
is an important role for the Federal Government to establish a 
comprehensive strategy for research and development of new technologies 
to ensure a sustainable water supply.
    In 2004, the National Academies of Science published a study 
entitled, Confronting the Nation's Water Problems: The Role of Federal 
Research, which declared, ``The United States needs to make a new 
commitment to water resources research in order to confront the 
increasingly severe water problems faced by all parts of the country.''
    Over twenty federal agencies carry out research and development on 
some aspect of water supply, water quality or water management. The 
National Academies of Science surveyed these agencies for their 2004 
study and based upon the responses, estimated federal expenditures on 
water research to be approximately $700 million.\1\ Five of these 
agencies account for 87 percent of this funding: the National Science 
Foundation (22 percent), the U.S. Geological Survey (18 percent), the 
Department of Agriculture (17 percent), the Environmental Protection 
Agency (15 percent), and the Department of Defense (15 percent).
---------------------------------------------------------------------------
    \1\ National Academies of Science. 2004. Confronting the Nation's 
Water Problems: The Role of Research. Executive Summary. Water Science 
and Technology Board. Committee on Assessment of Water Resources 
Research. National Research Council. Washington, DC. p. 7.

    Figure 1:  Agency contributions as a percentage of the total 
federal funding for water resources research in 2000.\2\
---------------------------------------------------------------------------
    \2\ Confronting the Nation's Water Problems: The Role of Research 
(Report in Brief). Water Science and Technology Board. Committee on 
Assessment of Water Resources Research. National Research Council. 
Washington, DC. p. 2.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Despite a research budget of approximately $700 million, the 
increased number of water shortages and emerging conflicts over water 
supplies suggest we are inadequately prepared to address the Nation's 
water management issues. This same report advocates for a clear 
national water strategy to coordinate the 20 plus federal agencies 
responsible for conducting and funding research in order to avoid 
duplication and to tackle the looming challenges of maintaining 
adequate water supplies. At the May 14 hearing before the Committee on 
Science and Technology on challenges related to water supply and water 
quality several of the witnesses also recommended better coordination 
of federal efforts on water.
    The NAS report discussed three options for better coordinating 
research and development programs on water: Using an existing National 
Science and Technology Council Subcommittee; authorization of a 
neutral, third party or Water Research Board; or creating an Office of 
Management and Budget (OMB) led interagency committee of senior agency 
officials formally tied to the budget process.\3\
---------------------------------------------------------------------------
    \3\ Chapter 6: Coordination of Water Resources Research. Pp. 199-
214.

The Subcommittee on Water Availability and Quality (SWAQ)
    The Bush Administration had created the Subcommittee on Water 
Availability and Quality (SWAQ) of the National Science and Technology 
Council's Committee on Environment and Natural Resources in 2003 to: 
identify science and technology needs to address the growing issues 
related to freshwater supplies, develop a coordinated a multi-year plan 
to improve research on water supply and water quality, and to enhance 
the collection and availability of data needed to ensure an adequate 
water supply for the Nation.\4\
---------------------------------------------------------------------------
    \4\ National Science and Technology Council, Committee on 
Environment and Natural Resources, Subcommittee on Water Availability 
and Quality. 2007. A Strategy for Federal Science and Technology to 
Support Water Availability and Quality in the United States. 
Washington, DC. 35 pp.
---------------------------------------------------------------------------
    The Academy report indicated that SWAQ is an effective forum for 
agencies to share information about their programs. SWAQ is already in 
place and the participating agencies' roles are well-defined. However, 
the Academy report identified several issues that needed to be 
addressed if SWAQ is to become an effective coordinating body. The 
budget function for SWAQ should be strengthened through participation 
of OMB on the Committee and SWAQ should engage in outreach activities 
to develop connections to State and local governments, to wider 
community of stakeholders, and to the public.
    In their 2007 report, SWAQ made recommendations laying out the 
federal research priorities and recommendations for a federal science 
strategy to address water supply. Those recommendations included:

        <bullet>  Implementation of a National Water Census;

        <bullet>  Development of a new generation of water monitoring 
        techniques;

        <bullet>  Development and expansion of technologies for 
        enhancing reliable water supply;

        <bullet>  Development of innovative water-use technologies and 
        tools to enhance public acceptance of them;

        <bullet>  Development of collaborative tools and processes for 
        U.S. water solutions;

        <bullet>  Improvement in the understanding of water-related 
        ecosystem services and ecosystem needs for water; and

        <bullet>  Improvement in hydrologic prediction models and their 
        applications.

    Unfortunately, these strategic goals are not reflected in the 
President's FY 2009 Budget request to Congress. While some of these 
priorities were given small allocations of funding (i.e., $9 million 
requested for the United States Geologic Survey to complete a new 
National Water Census), agencies were not allocated funding to support 
work on most of the priorities identified in the report.

DRAFT LEGISLATION

    There is a need for a national initiative to coordinate federal 
research water efforts is necessary to ensure we have the best tools 
and information to maintain adequate supplies of water for Americans in 
the coming decades. For this reason, Chairman Bart Gordon plans to 
introduce legislation to create a National Water Initiative. This Act 
seeks to improve the Federal Government's efforts in water research, 
development, demonstration, education, and technology transfer 
activities to address changes in water use, supply, and demand in the 
United States. The bill codifies the existing Interagency Committee, 
SWAQ, and strengthens the Committee by incorporating the suggestions in 
the National Academies' 2004 report. By strengthening the SWAQ and 
providing it explicit Congressional authorization, the recommendations 
of the 2007 SWAQ report will receive due consideration and form the 
start of a national strategy to ensure we have a sustainable water 
supply.

SECTION BY SECTION

Title: National Water Research and Development Initiative Act

Purpose: To improve the Federal Government's role in water research, 
development, demonstration, education, and technology transfer 
activities to address changes in water use, supply, and demand in the 
United States.

Section 1: Short Title

    The National Water Research and Development Initiative Act of 2008

Section 2: National Water Research and Development Initiative

    Section 2 directs the President to implement a National Water 
Research and Development Initiative to improve federal activities on 
water, including: research, development, demonstration, education, and 
technology transfer. As part of the Initiative, the President shall 
establish or designate an Interagency Committee with representation 
from all federal agencies dealing with water and the Office of 
Management and Budget. The Office of Science and Technology Policy will 
chair the Committee.
    The Committee is charged with developing a National Water 
Availability Research and Assessment Plan, coordinating all federal 
activities on water, and promoting cooperation among agencies with 
respect to water research.
    The Plan establishes priorities for federal water research and 
assessment and shall utilize the recommendation from a 2007 Report 
issued by SWAQ (Subcommittee on Water Availability and Quality of the 
National Science and Technology Council). This section also identifies 
required elements of the Plan. The Plan is also lists a number of 
outcomes and directs the Committee to direct agencies to achieve the 
outcomes in the Plan.
    The Plan will be subject to a 90 day public comment period and must 
be submitted to Congress within one year of enactment.
    The President is also directed to create an Outreach Office to 
provide technical and administrative support to the Committee. The 
Office will disseminate information to the public and serve as a point 
of contact for the Initiative.

Section 3: Budget Coordination

    Section 3 directs the President to provide guidance to each federal 
agency in the Initiative with respect to the President's annual 
request. The President is requires to describe and list the items in 
the request that are elements of the Plan of help to achieve the 
outcomes of the plan.

Section 4: Annual Report

    Section 4 directs the President submit an annual report to Congress 
describing the activities and results of the initiative.
    Chairman Lampson. The hearing will come to order. I want to 
welcome the Members of the Subcommittee and our distinguished 
panelists to today's hearing on the creation of a National 
Water Initiative to improve and coordinate federal research on 
water.
    Chairman Gordon plans to introduce legislation to establish 
a National Water Initiative to improve and coordinate federal 
research and development efforts on water. I would like to 
thank him for his leadership and foresight in this area, and I 
look forward to the opportunity to consider his legislation.
    In order to meet the water needs or water demands of the 
future, it is essential that we have the information that we 
need to balance the water needs for municipalities, industry, 
agriculture, recreation, and power. The population of the 
United States has increased by over 25 percent since 1973, 
while federal dollars for water research have remained 
stagnant. A new commitment is needed to ensure that we can meet 
the water challenges over the next 20 years and onward.
    Without the right data, it is impossible to know if we are 
going in the right direction, and the discussion draft before 
us today will provide decision-makers at all levels of 
government with the tools they need to make the tough decisions 
of the future.
    The 2004 National Academies Report on Federal Water 
Research suggests that the United States is not getting its 
money's worth on water resources research, because of a lack of 
coordination. The Chairman's discussion draft seeks to address 
this particular issue. The bill codifies an existing 
interagency committee on water availability and quality led by 
the Office of Science and Technology Policy, and strengthens 
the committee by incorporating the suggestions of a 2004 
National Academies Report entitled: ``Confronting the Nation's 
Water Problems: The Role of Research.''
    We have a distinguished panel of witnesses before us to 
offer their recommendations on how federal water research 
programs could be better shaped, and their thoughts on the 
draft legislation. Our panel represents a wide range of 
interests, and I look forward to hearing each perspective.
    At this point, I will turn to our friend, the Ranking 
Member, Mr. Inglis, for his opening remarks.
    [The prepared statement of Chairman Lampson follows:]
              Prepared Statement of Chairman Nick Lampson
    I want to welcome Members of the Subcommittee and our distinguished 
panelists to today's hearing on the creation of a National Water 
Initiative to improve and coordinate federal research on water.
    Chairman Gordon plans to introduce legislation to establish a 
National Water Initiative to improve and coordinate federal research 
and development efforts on water. I would like to thank him for his 
leadership and foresight in this area, and I look forward to the 
opportunity to consider his legislation.
    In order to meet the water demands of the future, it is essential 
that we have the information we need to balance the water needs for 
municipalities, industry, agriculture, recreation, and power. The 
population in the United States has increased by over 25 percent since 
1973 while federal dollars for water research have remained stagnant.
    A new commitment is needed to ensure that we can meet the water 
challenges over the next twenty years and onward. Without the right 
data, it is impossible to know if we are going in the right direction. 
The discussion draft before us today will provide decision-makers at 
all levels of government with the tools they need to make the tough 
decisions of the future.
    The 2004 National Academies Report on Federal Water Research 
suggests that the U.S. is not getting its money worth on water 
resources research because of a lack of coordination. The Chairman's 
discussion draft seeks to address this issue.
    The bill codifies an existing interagency committee on water 
availability and quality led by the Office of Science and Technology 
Policy and strengthens the committee by incorporating the suggestions 
of a 2004 National Academies report entitled, ``Confronting the 
Nation's Water Problems: The Role of Research.''
    We have a distinguished panel of witnesses before us to offer their 
recommendations on how federal water research programs could be better 
shaped and their thoughts on the draft legislation. Our panel 
represents a wide range of interests, and I look forward to hearing 
each perspective.
    At this point I will turn to the distinguished Ranking Member of 
this Subcommittee, Mr. Inglis for his opening statement.

    Mr. Inglis. Thank you, Mr. Chairman. Thank you for this 
hearing. Water, as we know, is one of the essential ingredients 
of life, and an issue this committee takes seriously. This is 
the second hearing we have held in the Subcommittee on water 
resources research. We have also held a Full Committee hearing 
on the water-energy nexus.
    I don't think there is a Member of this committee whose 
district hasn't been affected by water, either too much of it 
or not enough. Not enough right now, in the 4th District of 
South Carolina.
    I commend the Chairman for his draft legislation, which we 
will be discussing today. I believe it is the first of many 
steps that have been recommended to us by leading scientists, 
industry, academia, and State and local governments. 
Coordinating research is a necessary part to responding to our 
nation's water problems.
    However, I would caution we not take, that we take care not 
to repeat the mistakes of the executive branch, approaching 
water legislation in the same ad hoc manner that agencies have 
approached water research. Last week, at our Full Committee 
markup, we passed two water research related bills out of the 
Committee. I would hope that the Chairman's legislation doesn't 
undermine what we have done in those two bills, but instead, 
enhances their effect.
    I look forward to hearing from our distinguished witnesses, 
and I yield back the remainder of my time.
    [The prepared statement of Mr. Inglis follows:]
            Prepared Statement of Representative Bob Inglis
    Thank you for holding this hearing, Mr. Chairman.
    Water is one of the ingredients of life and an issue this committee 
takes seriously. This is the second hearing we have held in the 
Subcommittee on water resources research. We have also held a Full 
Committee hearing on the energy-water nexus. I don't think there is a 
Member on this committee whose district has not been affected by water, 
either too much of it, or not enough.
    I commend the Chairman for his draft legislation we will be 
discussing today. I believe it is the first of many steps that have 
been recommended to us by leading scientists, industry, academia and 
State and local governments. Coordinated research is a necessary part 
to responding to our nation's water problems.
    However, I would caution that we take care not to repeat the 
mistakes of the Executive Branch by approaching water legislation in 
the same ad hoc manner that agencies have approached water research. 
Last week at our Full Committee markup, we passed two water research 
related bills out of Committee. I would hope that the Chairman's 
legislation does not undermine what we have done in those two bills, 
but instead enhances their effect.
    I look forward hearing from our distinguished witnesses, and I 
yield back the remainder of my time.

    Chairman Lampson. Thank you, Mr. Inglis. If there are 
additional opening statements, they will be placed in the 
record at this point.
    [The prepared statement of Chairman Gordon follows:]
               Prepared Statement of Chairman Bart Gordon
    Good morning and welcome to the Energy and Environment 
Subcommittee's hearing on my draft legislation intended to improve the 
Federal Government's efforts to address changes in water use, supply, 
and demand in the United States.
    I thank our panel of witnesses for testifying. I believe your 
perspectives are critical to developing an effective bill. I look 
forward to receiving your recommendations.
    The draft legislation before us today builds on the 
Administration's effort to coordinate federal research on water 
resources by establishing an interagency committee--the Subcommittee on 
Water Availability and Quality (SWAQ) of the National Science and 
Technology Council. The draft bill codifies this subcommittee and 
provides it explicit Congressional authorization.
    The bill also incorporates recommendations from the 2004 report by 
the National Academies of Science entitled Confronting the Nation's 
Water Problems: The Role of Federal Research to strengthen the 
Committee's role in setting priorities and developing an integrated 
budget to support research on water resources. The Academy's report 
indicated that SWAQ is an effective forum for agencies to share 
information about their efforts on water. However, the report 
identified several issues that needed to be addressed to make SWAQ an 
effective coordinating body.
    The draft bill strengthens the budget function for SWAQ through 
participation of OMB on the subcommittee. In addition, SWAQ is directed 
to engage in outreach activities to develop connections to State and 
local governments, to wider community of stakeholders, and to the 
public. These recommendations, and others, helped to form the basis of 
this draft legislation.
    Water is essential to everything we do and there is no substitute 
for it. Many of our districts are experiencing problems with water 
supply. If we are to resolve these problems, we need an effective 
research and development effort that provides tools and information to 
manage our water resources effectively. Coordination of the programs 
managed across 20 federal agencies is a logical place to start.
    Again, I thank the witnesses for participating in the hearing this 
morning, and I look forward to working with you as we go forward to 
ensure the Federal Government is doing all it can to promote effective 
water management.

    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Thank you, Mr. Chairman, for holding this hearing today, as this is 
an important opportunity to plan for the future and conserve our 
recourses appropriately. It's a matter of common sense that we must 
better coordinate research and technological innovation to enhance 
water supplies and water quality on a national level.
    As we all know from last summer's droughts and rising concern 
surrounding global warming that water resource problems are growing 
both in number and in intensity. Over twenty federal agencies carry-out 
research and development on some aspect of water supply, and as recent 
reports have indicated, we must do more to better coordinate these 
efforts and together work towards solutions.
    I am pleased to see that the beverage industry is represented on 
our panel of witnesses today, as they have taken important steps to 
address water usage policy-an issue central to the vitality of their 
business. Fourtune Brands, an Illinois-based company, has taken a 
leading role to promote smart technology and conservation practices, 
and with companies like Anheuser-Busch have formed a coalition to come 
together to share industry-wide best practices to reduce the use of 
water and conserve a valued natural resource.
    I look forward to our testimony today, and I believe the proposed 
legislation is an important step in planning for our nation's future. 
Thank you Mr. Chairman for your leadership of this subcommittee; and I 
look forward to hearing from our witnesses.

    Chairman Lampson. At this time, I am pleased to introduce 
our panel of witnesses.
    Dr. Mark Shannon is the Director of the United States 
Strategic Water Initiative. Mr. Tod Christenson is the Director 
of the Beverage Industry Environmental Roundtable. Dr. Timothy 
T. Loftus is a Water Resource Planner for Chicago Metropolitan 
Agency for Planning. I enjoyed visiting your city for one hour 
last night while our plane was diverted around the United 
States. Mr. Jerry Johnson is the General Manager, D.C. Water 
and Sewer Authority. Mr. Bradley Spooner is the Principal 
Engineer for Environmental Services at Municipal Electric 
Authority of Georgia, and Dr. Upton Hatch is the President-
Elect of the National Institutes for Water Resources.
    You will each have five minutes for your spoken testimony. 
Your written testimony will be included in the record for the 
hearing, and when all of you complete your testimony, we will 
then begin with questions, and each Member will have five 
minutes to question the panel. Dr. Shannon, you may begin.

STATEMENT OF DR. MARK A. SHANNON, DIRECTOR, CENTER OF ADVANCED 
     MATERIALS FOR THE PURIFICATION OF WATER WITH SYSTEMS, 
            UNIVERSITY OF ILLINOIS, URBANA-CHAMPAIGN

    Dr. Shannon. Thank you very much. I am really happy to be 
here. Thank you, Chairman Lampson and Ranking Member Inglis, 
and others distinguished Members of the panel.
    I am really excited to be here, because I think this bill 
is vitally needed for this country, and it is the right thing 
at the right time, and I really think it is actually visionary 
in its approach. So, I am going to talk about a number of 
different things as quickly as I can, because there are so many 
points to be made, but I really appreciate the fact that there 
is a real idea to focus in on trying to increase water 
supplies, and if I can have the next slide.
    This is just a snapshot when I go around the world talking 
about water issues, my record tends to focus on the arid 
Southwest. They say we have real problems there, but this map 
shows issues related to water, and depletions that are 
occurring over the country. And the Southeast has serious 
issues, and the Midwest, near one of the greatest bodies of 
freshwater in the world, has also major issues in Illinois, as 
well as along the Ogallala Aquifer.
    In order to increase supplies, we are seeing a real 
depletion of groundwaters, and we need to look at new ways of 
doing this. While the water sector invests about approximately 
$700 million in research foundations, such as the American 
Water Works, and the Water Environment Research Foundation, 
WateReuse, collectively invests another $24 million, their 
efforts are really at applied research. I think a really 
important thing to do is to improve and advance the basic 
science and technologies, such that we can get new technologies 
to fuse into the sector.
    And so, as a representative of the U.S. Strategic Water 
Initiative, one of the co-founders, what we are really wanting 
to do is take the basic science that the United States is so 
good at developing. We are really fantastic at that. But we 
really have a disconnect with getting this diffused into 
practice, and so that we can have solutions. When the water 
supplies begin to drop, and we see a tremendous drop in the 
level of aquifers, that we can do something about it. And I 
have a lot of hope that we can do this, and from a science 
point of view there is lots of room to move. We are a water 
planet. We have lots of water around it. It is just how we use 
it, and how we incorporate it.
    We are really looking at developing new technologies that 
can then get diffused into practice, so that water managers 
around the country can utilize this. One of these issues is 
sourcewater protection, and there is lots of critical issues 
there. There is a lot of water in both saline and fresh 
aquifers, and that is where it is really down. What we are 
seeing is that the water is getting saltier and saltier and 
needing more and more treatment. So, we need to be able to 
figure out how to do this effectively and affordably.
    We need to understand what the withdrawal rates are for 
both the freshwater aquifers and the saltwater aquifers that 
underlie them. In addition, we need to understand what we can 
do about the 800 billion gallons of water that we get from 
produced water. That could be a fantastic source of water that 
currently is not. There are a lot of sources of water that are 
available that we just don't use today. And with some more 
science and technology, we can very effectively use these, and 
alleviate a lot of the problems with source protection.
    We have got to be able to prevent cross contamination 
because as we start to pump down, cross contamination begins to 
require more treatment. Can I have the next slide?
    This is a projection of possible increases that are going 
to occur by 2030, due to population growth. We are using more 
and more water because of our economics. If you look at this, 
we are seeing significant factors all over this country, and we 
are going to need to see major investments by local areas. If 
you are looking over at California, it doesn't look like a 
large increase but they already use so much that that is 
actually a huge value. We need to be able to figure out, there 
is a lot of critical issues, I think, for the U.S., and you 
know, I would like to go to the next slide.
    To do sourcewater protection we need to be able to couple 
the contamination in the sources. Finally, population growth is 
really driving everything, and this one basically shows that if 
we are going to increase our water supplies for this country by 
62 percent we need to start conservation. Then we would only 
need to increase it by 30 percent.
    That sort of gives you an overview of why I think we need 
science and technology here. Thank you.
    [The prepared statement of Dr. Shannon follows:]
                 Prepared Statement of Mark A. Shannon
    Good morning Chairman Lampson, Ranking Member Inglis, and 
distinguished Members of the Subcommittee on Energy and Environment. I 
want to thank you for the opportunity to testify before the 
Subcommittee today. I especially want to thank Chairman Gordon for his 
leadership on this issue and for producing the legislation that we are 
providing testimony on today. I am Mark Shannon, Director of the Center 
of Advanced Materials for the Purification of Water with Systems, a 
National Science Foundation Science and Technology Center headquartered 
at the University of Illinois at Urbana-Champaign. This Center focuses 
on finding solutions to the coming water crisis through revolutionary 
advances in science and technology. We also have partnerships with 
major stakeholders in the water sector with an active Industrial 
Affiliates program of companies across the U.S. with interests in 
solutions to water problems.\1\ I am also the Co-Founder of the United 
States Strategic Water Initiative, which is a consortium of companies, 
academic researchers, and water associations acting together to advance 
the science of water purification and to accelerate delivery of new 
U.S. technologies necessary to increase and protect fresh water 
supply.\2\ The premise of these activities and partnerships is that 
significant and technological advances are a critical component to 
meeting the future water needs of our country and world. Our objectives 
are to develop new water purification technologies that can reduce the 
amount of energy and chemicals currently used to treat water, and to 
create new methods to desalinate, reuse, decontaminate, and disinfect 
waters so that we can gain new waters for human use from different 
types of sourcewaters, including those that are not now considered 
usable. By doing so, we will be able to expand the U.S. water supplies, 
without needing to transport fresh waters over long distances at huge 
costs in capital and energy usage.
---------------------------------------------------------------------------
    \1\ Industrial Affiliates and Partners: Archer Daniels Midland 
(ADM), Applied Membrane Technologies (AMT), Biolabs/Chemtura, Clorox-
Brita, Cargill, Culligan, Damon S. Williams Associates (DSWA), ITT, 
Metropolitan Water Reclamation District of Greater Chicago, Pentair, 
Porex Porous Products, PPG, Praxair, Siemens, UOP/Honeywell, Water and 
Wastewater Equipment Manufactures Association (WWEMA).
    \2\ List of signers: Ken Kirk--National Association of Clean Water 
Agencies; Mark Shannon, Jian-Ku Shang, Michael Plewa, Eberhard 
Morgenroth, Timm Strathmann, Richard Sustich--WaterCAMPWS/University of 
Illinois at Urbana-Champaign; Kofi Bota, Eric Mintz--WaterCAMPWS/Clark 
Atlanta University; Rishi Shukla--Archer Daniels Midland; Greg 
Pepping--University of Wisconsin; David Henderson--XPV Capital 
Corporation; Richard White--Lawrence Livermore National Laboratory; 
Shaurya Prakash--Rutgers University; Lutgarde Raskin--University of 
Michigan; Slav Hermanowicz--University of California at Berkeley; Tanna 
Borrell--University of Michigan; Scott Husson--Clemson University; Eva 
Steinle-Darling--Stanford University; Wen-Tso Liu--National University 
of Singapore; Daniel Brunelle--GE Global Research; Mark Rigali--Sandia 
National Laboratories; Darren Sun--Nanyang Technical University; Franz 
Hoffman--Procorp Enterprises, Milwaukee.
---------------------------------------------------------------------------
    The different water using sectors (agriculture/livestock, energy, 
industry and mining, and domestic use) have different needs and 
requirements, for withdrawal, consumption, and discharge of waters. 
Importantly, what will work for one water use sector may not work for 
another. However, as supplies become more constrained, the impact of 
one sector on another becomes more important, and they are coupled to 
each other. Moreover, due to the extent of river systems and aquifers, 
along with the interdependencies of use, the effect on water supplies 
is no longer just a local issue. For the Federal Government to 
adequately address all these issues across sectors, it is imperative 
that coordination and cooperation occur across the different agencies 
working to find solutions to the water supply and availability issues.
    I appreciate this opportunity to provide input to the Committee on 
the National Water Research and Development Initiative. In my view, 
this visionary initiative is the right effort at the right time to 
ensure that we stimulate water-related research and development (R&D) 
that simultaneously lead to new opportunities for U.S. companies, not 
those of foreign countries, while solving current and future problems 
in water supply and quality. This can be accomplished by improving and 
enhancing federal research, development, demonstration, education, and 
technology transfer in water use, supply, and demand, as well as 
conservation and management.
    As the Committee is aware, water R&D in the United States is well 
more than a century old, and is carried out by a wide range of research 
organizations at all levels of government (Federal, State, and 
municipalities), by technology developers and vendors, water 
associations, and the academic community. While the water technology 
sector invests approximately $7 million and research foundations such 
as the American Water Works Association Research Foundation, Water 
Environment Research Foundation, and the WateReuse Foundation 
collectively invest another $24 million annually, their efforts are 
directed at applied research focused on specific issues of interest to 
their subscribers. A great deal of additional research is done at U.S. 
universities, water associations and State and local units of 
government. Beyond their work, there are a number of key areas in which 
direct and sponsored research at the federal level is essential. I 
would like to speak to what I believe those key areas in Science and 
Technology are that the proposed Bill can address.

Water Availability and Sourcewater Protection

    The United States lacks sufficient knowledge regarding the actual 
amount of water stored and recharged in currently utilized fresh water 
aquifers. Current data indicate that levels in some monitored aquifers 
are dropping rapidly. For instance, regions of the High Plains Aquifer 
south of the Canadian River in New Mexico and Texas experienced water 
level declines of more than 60 feet between 1980 and 1999. While there 
are regional efforts to look at these issues, a nationwide effort to 
inventory and quantify the existing fixed and recharging supplies of 
fresh, brackish and saline water is critical not only for projecting 
water availability and sustainable withdrawal capacities, but also for 
helping scientists, engineers, and planners choose water supply and 
community development solutions that will be viable. The effects of 
withdrawal and consequent salting on lands and lakes, as well as 
contamination rates of aquifers also need to be quantified. Critical 
issues for federal R&D include assessment of (i) the waters contained 
in both freshwater and saline/brackish aquifers, (ii) the withdrawal 
and recharge rates of both, (iii) the amount of communication between 
surface and both types of groundwaters and adjacent watersheds, and 
(iv) the degree of cross-contamination occurring between sourcewaters.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Research Needs for Development of New Water Supplies

    Local water demands from population and economic growth will vary 
throughout the United States, with many areas likely to experience very 
high growth rates over the next 30 years. Conventional sources of water 
may not be available or too expensive to develop, and conservation and 
efficiency may not be enough to ease demand. New water supplies will be 
needed for these areas.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Meaningful increases in potable water supplies can only be achieved 
through reuse of existing wastewater and development of brackish and 
saline sources--to gain new supplies everywhere from the ``sea to sink 
to the sea again.'' This effort will need to focus on augmenting water 
supplies via desalination of seawater and brackish aquifers, as well as 
through direct reuse of municipal, agricultural, and produced 
wastewaters from energy and industrial operations. From a purification 
standpoint, brackish aquifers and wastewaters present even greater 
challenges than seawater desalination. Crucial issues to utilizing 
inland brackish lakes and aquifers include developing methods and 
materials that can separate hard water dissolved solids with minimal 
fouling, and minimizing residuals created during desalination and 
reclamation of contaminated and brackish sourcewaters. Critical issues 
for federal R&D include (i) establishment of standards for potable and 
non-potable waters derived from these sources, (ii) education of the 
public of the need and safety of potable waters derived from sources 
that meet the standards to gain widespread acceptance, and (iii) 
development of resource recovery methodologies for concentrate 
residuals and brine from brackish and saline sources, and energy and 
chemicals from wastewater.

Contaminant Detection, Decontamination and Removal

    An emerging trend impacting water supplies is that contamination of 
sourcewaters, in particular groundwater aquifers that were previously 
clean, is either reducing supplies or is requiring costly cleanup or 
extensive treatment of the waters to be used by humans. To maintain the 
viability of these and new sourcewaters, efficient removal of 
contaminants from all types of water sources is needed, to get the 
``drop of poison out of an ocean of water.''
    Current treatment technologies are typically not contaminant-
specific, resulting in excessive use of energy and chemicals during 
treatment, as well as necessitating the removal of benign constituents 
and excessive generation of residuals requiring further processing and 
disposal. Efforts to develop more marginal water sources, due to 
increasing demand and depletion of existing sources, will likely become 
prohibitively expensive using conventional approaches. A major cost 
factor in removing trace amounts of critical contaminants from 
sourcewaters is that large quantities of benign, potable constituents 
are also removed. Using treated low-cost materials such as naturally 
derived Chitosan from crustaceans, or new and reusable swellable glass 
sorbents that can selectively and affordably remove contaminants such 
as heavy metals and petroleum distillates, freeing up waters for human 
use. Additionally, real-time, in situ detection, adsorption, and/or 
catalytic destruction of potential warfare/terrorism agents are major 
challenges for the water industry. If we can know in near real time 
what contaminants are present in sourcewaters, and mitigate potential 
dangers from contaminants, we can prevent major losses in water 
supplies to large number of our people in times of crisis. Critical 
issues for federal research include (i) establishment of what classes 
of contaminants need to be removed together, (ii) determination of 
necessary contaminant detection levels and reliability of in-situ 
monitoring, and (iii) standards for disposal of contaminants recovered 
from reused and reclaimed waters.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Pathogen Detection and Removal

    Similar to chemical contamination, waterborne pathogens can sicken 
significant numbers of people, and if introduced to water systems 
naturally or deliberately, or via cross-contamination with waste 
systems, can render even major water supplies unusable. Moreover, 
treatment for pathogens can also inadvertently introduce toxic 
compounds to water supplies. Disinfection technologies that effectively 
deactivate known and emerging pathogens without producing toxic 
substances are needed to ``beat chlorination.'' New and affordable 
materials, methods, and systems are necessary to provide drinking water 
free of harmful viral, bacterial and protozoan pathogens, while 
avoiding the formation of toxic by-products or impairing the treatment 
of other contaminants. Low cost materials such as proteins from 
harvested Moringa seeds can remove pathogens such as viruses from 
water, and new sunlight activated catalysts can potentially disinfect 
waters from a host of pathogens without using additional chemicals or 
energy. A key unsolved problem is the detection and removal of new and/
or evolving infective viruses, and resistant pathogens to standard 
chemical treatment. Critical issues for federal R&D include (i) 
development of standards and accepted modalities for determining 
infectivity of pathogens in water for near real time detection, and 
(ii) establishment of risk assessment and mitigation for disinfection 
by-products from current and new treatment methods.

Water Conservation and Reuse

    Population growth projections show that conservation alone will not 
be enough to meet future water demand in many parts of the United 
States. Projected population growth of 100 to 130 million people over 
the next 32 years in the U.S. will put further stress on water demand.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    With current growth in consumption patterns with respect to 
domestic, industrial, agricultural, and energy usage, the U.S. will 
need to increase total water supplies by up to 60 percent using current 
technologies. Moreover, combined with changing demographics, this 
population growth will cause increases of over 100 percent for many 
cities and large metropolitan areas across the U.S., likely causing 
critical water shortages. Even if we are able to maintain per capita 
consumption at 2000 levels, we will need more than a 40% increase in 
water supply capacity by 2040. Reduction in per capita water 
consumption must therefore be an essential part of our national 
strategy to extend the service capabilities of current and future water 
supplies and associated infrastructure. A key issue is that leakage of 
drinking water from the distribution network, and water main breaks is 
the same as loss in supply. Reducing leakage in the infrastructure will 
not only effectively increase water supplies, but it will reduce the 
amount of energy and chemicals used to create and transport potable 
water, and the overall operation and maintenance costs. Conservation 
via improved efficiencies and reduction in waste can dramatically 
reduce overall costs of providing clean water. Research efforts that 
focus on minimizing the withdrawal of water and on the conversion of 
direct draw applications to reuse systems have the potential to 
substantially reduce projected water needs, particularly for specific 
watersheds and aquifers. Critical issues for federal R&D include (i) 
assessment of interactions between different water use sectors 
(agriculture, livestock, mining, energy, domestic, and industry) on 
water use, conservation, and reuse, and (ii) understanding the 
environmental impact of changing withdrawal, consumption, and discharge 
patterns on overall water systems.

Scalability, Ramp-Up and Technology Diffusion

    We have the scientific and engineering capabilities in our 
universities and government and national laboratories to make great 
discoveries and find sustainable solutions to our problems, but unless 
a means to move these advances from the laboratory to full production 
is possible, these innovations will, unfortunately, remain in the 
laboratory. Further, many novel approaches to problems, while 
scientifically intriguing, may not take into consideration the costs of 
mass production or implementation. Scalability focuses on capacity for 
researchers to incorporate benchmarking and manufacturing scale-up 
considerations as well as facilitating the testing and movement of new 
materials and procedures to industry. For a technology to be successful 
the total life cycle costs must be favorable and it must win in the 
marketplace. Moreover, with respect to potable water systems, a history 
of performance efficacy and costs of installation and operation must be 
available for water managers to select with confidence one technology 
over another. Because of its oversight role with respect to drinking 
water, wastewater and environmental quality, research into, and 
development of low-cost, highly-adaptable technology verification 
methods is appropriate at the federal level to encourage diffusion and 
adoption of innovative water technologies under various State and local 
programs.
    Perhaps just as importantly, developing new innovative and cost 
effective technologies in water purification can help position U.S. 
companies to compete in the rapidly expanding worldwide markets for 
water technology. Many nations around the world (China, India, 
Singapore, Switzerland, and within the EU) are pouring money and 
resources into developing new science and technologies for increasing 
water supplies and for new purification methods. While the U.S. still 
leads in basic science, we are falling behind in technology diffusion 
into the marketplace. The WaterCAMPWS Industrial Affiliates and the 
signers of the U.S. Strategic Water Initiative are anxious to develop 
new products to solve the critical problems facing the U.S. and world 
and to actively compete in this growing market for water products and 
systems.

Comments on the draft National Water Research and Development 
                    Initiative legislation

    Now I would like to shift my comments to the draft National Water 
Research and Development Initiative legislation before the Committee.
    We certainly concur with the Committee that our nation will benefit 
substantively from the establishment of a National Water Research and 
Development Initiative, and the creation and execution of a National 
Water Availability Research and Development Plan. There are many water-
related research and management activities across the federal agencies, 
from Agriculture, to Energy and the Defense Departments, to EPA, to 
NASA and to NOAA, just to name a few. Not only will lateral 
coordination across agency activities enhance the return on current 
water investments across the agencies, but it will also facilitate the 
identification and evaluation of further research opportunities for 
future investment.

Recommendation for National Water Research and Development Advisory 
                    Committee

    We have initiated a similar effort, known as the United States 
Strategic Water Initiative (USSWI), including stakeholders from 
federal, State and municipal research programs, academia, water 
technology developers, and major water users such as the agriculture 
and energy sectors. The goals of USSWI are to:

        <bullet>  Increase basic science and technology research of 
        water purification in academic and government research 
        laboratories to enhance innovation and American 
        competitiveness;

        <bullet>  Provide feedback from water associations, suppliers, 
        users, practitioners, government officials, and the public on 
        water purification needs, technologies, and product performance 
        to S&T researchers;

        <bullet>  Provide a direct path for new ideas and technologies 
        created in research laboratories to be evaluated, demonstrated, 
        verified, and certified;

        <bullet>  Foster public and private investment in water 
        purification research, and accelerate the diffusion of 
        technologies (implementation, commercialization, and adoption) 
        that emerge from such research;

        <bullet>  Establish a cooperative research agenda including a 
        prioritized list of gaps, needs, and opportunities in water 
        science and technology.

    Because a substantial water research and development effort already 
exists outside the federal agencies, we believe that input from this 
external community is essential to the successful development and 
implementation of the Plan envisioned in the Act. We therefore 
recommend that the Act include establishment of a standing National 
Water Research and Development Advisory Committee under the Federal 
Advisory Committee Act, to provide advice and counsel to the 
Interagency Committee and information on extra-mural water research and 
development activities to the National Water Initiative Outreach 
Office.
    We strongly support the creation of national interdisciplinary 
research Centers with participation from U.S. universities, water 
associations and research foundations, and the private sector including 
technology companies, innovators, and finance, to accelerate the 
diffusion of new science and technologies from federal, State, and 
local research laboratories, as well as university and foundation 
funded research, into the marketplace. The Centers should likely be 
independently managed with governing boards that include the 
participating stakeholders along with relevant agencies.

National Water Availability Research and Assessment Plan Outcomes

    We are very pleased with the desired outcomes of the Plan, and 
would like to offer several minor revisions aimed at enhancing the 
practical value of the Plan for improving water management:

        a)  implementation of a National Water Census, which shall 
        include the collection of water data to create a comprehensive 
        water database that includes information on available quantity, 
        quality, consumption, recharge capacity and threats to 
        groundwater and surface water resources;

        b)  development of a new generation of water monitoring 
        techniques in support of the other outcomes of this subsection;

        c)  development and expansion of technologies for enhancing 
        reliable water supply, management and reclamation;

        d)  development of innovative, maximally-efficient water-use 
        technologies and tools to enhance public acceptance;

        e)  development of collaborative tools and processes for U.S. 
        water solutions;

        f)  advancement of understanding of the water-related ecosystem 
        services, ecosystem needs for water, and opportunities for 
        ecosystem management through beneficial water reclamation;

        g)  improvement of hydrologic prediction models and their 
        applications;

        h)  enhancement of technology transfer to, and technology 
        adoption by the water management community;

        i)  analyses of the energy needs and identification of energy 
        conservation opportunities in providing water supplies across 
        the country;

        j)  assessment of, and mitigation strategies to address, the 
        impacts of economic, demographic, climatic, and technological 
        changes that have contributed to changes in our nation's water 
        availability and quality;

        k)  creation of national research and technology Centers for 
        accelerating the diffusion of science and technology from 
        Federal and other government funded research to practice.

Minimum Funding for Act-Related Activities--Section 2(b)(4)(B)

    We are concerned that the Act does not authorize the appropriation 
of funds to carry out the objectives of the Act, but relies on 
contributions from the agencies represented on the Interagency 
Committee. To the extent practicable, we recommend that an aggregated 
contribution sufficient to carry out the objectives of the Act be 
included in this section. To fully accomplish the research objectives 
under the Plan, we anticipate that substantial increases in 
appropriations to participating federal agencies will be necessary. To 
create new national research Centers additional funding will be needed. 
Other nations establishing such Centers, such as two in Singapore, are 
funding them at $30 million per year per Center for periods of five to 
ten years, with similar investments by the private sector. A greater 
amount is being expended in Switzerland ($100 million/year) to develop 
new technologies to reduce water usage in the domestic and particularly 
the energy sectors. It is likely that a greater level of funding will 
be needed in the U.S. to solve the larger problems the U.S. faces over 
several sectors and over disparate geographic regions. The basic 
research in water science and technology for increasing water supplies, 
efficiency, and conservation that I am aware of is funded at about $12 
million/year between the NSF, EPA, and DOE. To rapidly increase water 
R&D, we recommend that this Act authorize a federal funding level of 
$100 million per annum beginning in FY 2010 with annual increases of 
five percent through 2019.
    In closing, on behalf of the academic research community and the 
water technology sector commend the Committee for recognizing the need 
for coordination across the breadth of federal agencies conducting 
water-related research. The proposed National Water Research and 
Development Initiative is vital for the United States. The Initiative 
is visionary and will ensure the U.S. will be the leader in creating 
solutions for the pending crisis in water availability that has is 
already impacting the quality of life of many U.S. citizens, and this 
is only the beginning of the coming problems. For our part, we stand 
committed to assisting the proposed Interagency Committee in the 
development of a National Water Availability Research and Assessment 
Plan and in coordinating our own work in furtherance of such a Plan. It 
is our fervent belief that this coordination is essential to the 
Nation's success in addressing water management issues, both now and in 
the future.
    Thank you, Mr. Chairman and Members of the Committee for this 
opportunity to provide this testimony. I would be happy to answer any 
questions you may have.

                     Biography for Mark A. Shannon
    Mark A. Shannon is the Director of the National Science Foundation 
Science and Technology Center for Advanced Materials for the 
Purification of Water with Systems, the WaterCAMPWS, which is a 
multiple university and government laboratory center for advancing the 
science and engineering of materials and systems for revolutionary 
improvements in water purification for human use, with participation 
from companies across the water sector spectrum from utilities to 
vendors to consultants. He is also the Co-Founder of the United States 
Strategic Water Initiative, which is a consortium of companies, 
individuals, and water associations acting together to advance the 
science of water purification and to accelerate delivery of new U.S. 
technologies necessary to increase and protect fresh water supply. He 
is the James W. Bayne Professor of Mechanical Engineering at the 
University of Illinois at Urbana-Champaign, and received his B.S. 
(1989) M.S. (1991) and Ph.D. (1993) degrees in Mechanical Engineering 
from the University of California at Berkeley. He received the NSF 
Career Award in 1997 to advance microfabrication technologies, the 
Xerox Award for Excellence in Research (2004), the Kritzer Scholar 
(2003-2006), the Willet Faculty Scholar (2004-2007), and received the 
BP Innovation in Education Award in 2006.

    Chairman Lampson. Thank you very much. Mr. Christenson, you 
are recognized for five minutes.

  STATEMENT OF MR. TOD D. CHRISTENSON, CHAIRPERSON, BEVERAGE 
            INDUSTRY ENVIRONMENTAL ROUNDTABLE (BIER)

    Mr. Christenson. Thank you, Chairman Lampson and Ranking 
Member Inglis, distinguished Members of the Subcommittee. My 
name is Tod Christenson. I am the Director and Chair for the 
Beverage Industry Environmental Roundtable, not so 
coincidentally named BIER, B-I-E-R.
    BIER is a unique, creative, voluntary collaboration of 12 
global beverage companies from across four beverage sectors, 
beer, wine, distilled spirits, and nonalcoholic beverages. Our 
member companies operate nearly 200 production and packaging 
facilities spread across 35 states, with many, many auxiliary 
operations.
    BIER is unique in that it is an independent, proactive 
convenience of private industry working together to drive water 
conservation, resource protection, energy efficiency, and 
climate change mitigation. We do this through benchmarking and 
data collection, best practice sharing, as well as working on 
various venues like this to inform public policy.
    We are here today to applaud the Subcommittee and Chairman 
Bart Gordon for their focus and commitment to look at policy 
changes that will allow us to succeed in meeting our country's 
water challenges today and into the future. We applaud the 
opportunity of this act under consideration, to provide for the 
Federal Government to demonstrate leadership, employing its 
role in inventorying and coordinating collaboration on water 
initiatives from across the federal agencies, facilitating 
commitment to allocation of resources to support the research 
and development, creating space for stakeholders to come 
together and share and input to this process, and the ensuing 
agenda that is implied. And as well, in building awareness, 
both across industry and government, and within the public 
domain itself.
    The September 2007 Strategy Report, which we have been 
provided a copy with, produced by the National Science and 
Technology Council Committee on Environment and Natural 
Resources, which we understand is a founding work leading to 
today's policy discussion, we believe is an excellent work 
product. It is one that provides both a comprehensive look at 
water challenges we face today, and expect in the future, as 
well as outlines what we believe are some implied research and 
development activities and needs going forward. We support the 
current policy considerations, and those that will lead to 
streamlining, increased efficiency, and collaborative efforts 
across federal agencies. We believe that is a very important 
factor for us. It provides a much stronger working environment 
for our industries.
    A few of the research priorities that we would note include 
a comprehensive water resource inventory, but not only of 
today, but looking at future needs and possibly doing some 
scenario planning. We believe there is a need in research to 
assess our country's water infrastructure, which includes both 
supply, delivery, as well as treatment capabilities.
    As many of us know, we have an aging infrastructure. There 
is a lot of opportunity for conservation within that structure, 
and we believe that a thorough assessment needs and 
opportunities assessment of the system is warranted. We also 
believe in the priorities innovative technology and practice 
development. As Dr. Shannon has implied here, I believe that is 
an important piece.
    Public awareness and education is the fourth piece that we 
see that needs development. We need to improve the practices of 
our public, of our industry, and create a greater level of 
focus to water stewardship.
    We would like to leave you with a couple thoughts for 
consideration as you move forward in the policy development 
efforts. To highlight a few points of my written testimony that 
has been submitted, we would ask you to consider establishing a 
long-term vision, and empower the developing interagency 
committee with clear goals and milestones aligned with the 
developed vision. We see an opportunity, given the current 
roles, that State and tribal entities play in water management 
today, for incorporation of that role into the work of the 
interagency committee, and/or future policy development.
    We hope you consider the experience, knowledge, and 
technology that resides in American industry groups and NGOs, 
and those that they will be developing into the future. There 
is quite a bit of energy and money being put towards water 
consumption and efficiency technologies, to drive water use 
efficiency within our industry. There is a lot of valuable 
technology out there to be mined, distributed and shared. We 
see that as a role of the Federal Government to help 
facilitate.
    Lastly, Chairman Lampson, Ranking Member Inglis, water 
issues are a serious and growing concern with all Americans. We 
will need new technologies, changes in water use practices, and 
new collaborations across all industry, public, and 
governmental concerns to meet our future challenges.
    To these efforts, you have our full support. On behalf of 
the BIER member companies and myself, thank you for the 
opportunity to address you today.
    [The prepared statement of Mr. Christenson follows:]
                Prepared Statement of Tod D. Christenson
    Chairman Lampson and Ranking Member Hall. My name is Tod 
Christenson; I am a senior consultant with Delta Consultants and 
Director of the Beverage Industry Environmental Roundtable (BIER). I 
have a Masters in Geology and Organic Chemistry with over 20 years of 
experience in working with private industry on strategically important 
environmental issues. My office is in St. Paul, Minnesota. On behalf of 
BIER, I would like to thank you for the opportunity to present this 
written testimony.

BIER Background

    First, I would like to introduce the organization I am representing 
with this testimony; BIER. BIER is a voluntary convenience of twelve 
global, leading beverage companies and two leading beverage industry 
suppliers. BIER is facilitated by myself and additionally supported by 
colleagues of mine from Delta Consultants (HQ in St. Paul, Minnesota).
    Founded in August 2006, BIER member companies build on the 
technical knowledge and skill, brand power and strength in aggregate to 
make meaningful impact to water conservation and resource management, 
energy efficiency and climate change mitigation through reduction in 
carbon emissions. The group strives to be industry leading and serve as 
a role model in industry sector collaboration within the space of 
environmental stewardship.
    The current members of BIER are:

        <bullet>  Anheuser-Busch.

        <bullet>  Bacardi

        <bullet>  Beam Global Spirits & Wine

        <bullet>  Brown Forman Corporation

        <bullet>  Coca-Cola Enterprises

        <bullet>  Diageo

        <bullet>  Danone

        <bullet>  Miller Coors (previously Coors Brewing Company)

        <bullet>  Nestle Waters North America

        <bullet>  PepsiCo

        <bullet>  Pepsi Bottling Group

        <bullet>  The Coca-Cola Company

        <bullet>  Ecolab

        <bullet>  JohnsonDiversey

    BIER's current agenda involves the following key initiatives:

        <bullet>  Developing common frameworks to guide our working 
        agendas in water conservation and resource management, energy 
        efficiency and climate change mitigation.

        <bullet>  Qualitative benchmarking of Water Conservation 
        Practices (2007) and Watershed Management Practices (2008)--the 
        benchmarking results are used in developing the best practice 
        sharing agenda, defining current best practices and identifying 
        individual company opportunities for improvement.

        <bullet>  Water Use and Efficiency Benchmarking (2007 & 2008)--
        a quantitative measurement of water use and efficiency across 
        the varied beverage industry sectors.

        <bullet>  Best Practice Guidance Tool Development--recent 
        topics included drought preparedness and management, rainwater 
        harvesting, clean-in-place (CIP) and water use, re-use, and 
        recycle practices.

        <bullet>  Beverage Industry Sector Guidance for Greenhouse Gas 
        (GHG) Emissions Reporting--a sector specific guidance to 
        support calculation of GHG emissions against the World Resource 
        Institute (enterprise basis) and British Standards Institute 
        (PAS-2050; Life Cycle Assessment or Product) GHG protocols.

        <bullet>  Stakeholder Engagement--taking a variety of forms, 
        BIER is actively engaging with external stakeholders to build 
        awareness, collaborate and inform public policy development as 
        it relates to water conservation and resource protection, 
        energy efficiency and climate change mitigation.

Water is Common Thread between Diverse Beverage Companies

    The beverage companies that constitute BIER membership represent 
four unique sectors of the beverage industry: beer, distilled spirits, 
wine, and non-alcoholic beverages.
    In the United States alone, member companies operate nearly 200 
production and packaging locations spread across 35 states, with many 
other auxiliary locations. Member operations also extend into 
agriculture, manufacturing, transportation, and even tourism sectors. 
BIER membership constitutes a majority of beer, carbonated soft drink, 
non-carbonated beverages, and bottled water sales in the United States.
    The congregation of these companies is rather unique, given the 
significant difference in their operations. However, all of the 
companies are tied together by a common thread: each of their products 
share water as the primary ingredient.
    Members of the beverage industry have identified that access to 
clean water is not only an essential concern to business continuity, 
but a basic human need.
    To this end, beverage companies have donated many millions of 
servings of clean drinking water in response to domestic emergency 
situations, such as hurricane relief and recent floods in the 
Mississippi River Basin. In other communities, beverage companies 
contribute to resource management by receiving municipal wastewater to 
their treatment systems and sharing technical experts with community 
planning agencies.
    However, BIER members truly stand out in the realm of resource 
management and water conservation technologies. Member companies are 
continually challenging themselves to be more efficient with their 
resources, and to ensure that operations are conducted in a manner that 
will sustain business and quality water access for generations to come. 
The simple fact that these companies have been convening for the past 
two years on a quarterly basis to discuss matters of environmental 
conservation demonstrates their awareness to these issues and 
willingness to allocate resources to pursue environmental solutions.
    Among the most notable achievements of BIER membership in water 
conservation and resource management are:

        <bullet>  Universal improvements in water efficiency from 2005 
        to 2006, through which the industry avoided the use of over 
        nine billion liters of water. This is enough water to support 
        the annual home water use of 65,000 Americans.

        <bullet>  Development of internal environmental management 
        systems and water management systems which promote and 
        communicate best practices and drive continuous improvement 
        through data measurement and goal setting.

        <bullet>  Implemented water reuse for non-product uses and 
        beneficial reuse of wastewater for energy recovery and 
        agricultural uses.

        <bullet>  Collaborative effort through benchmarking studies and 
        practice sharing sessions to advance drought management 
        planning efforts and watershed management through third-party 
        communication efforts.

        <bullet>  Community engagement efforts through educational 
        initiatives, community awareness fairs and organized habitat 
        cleanups.

General Comments

    BIER applauds the efforts embodied in the proposed ``National Water 
Research and Development Initiative Act of 2008,'' and we thank this 
subcommittee and Committee Chairman Bart Gordon for your focus and 
commitment. Combined, these efforts will provide a framework that will 
allow all of us to succeed in meeting the water conservation challenges 
of the future.
    As an industry that relies on water as a core ingredient to the 
very products we produce and given the challenges we envision going 
forward in maintaining adequate supply and water quality to meet all 
the needs of our country and society, we believe your efforts will be 
very useful and help assure availability and access of this precious 
natural resource well into the future.
    We have separated our input into three basic categories for your 
consideration and offer an end-user perspective in the interest of 
helping shape policies that will benefit all consumers and users of our 
water resources.

Role of Federal Government in Water Supply, Water Conservation, and 
                    Water Management

    We applaud the opportunity this Act provides for the Federal 
Government to demonstrate leadership on many key aspects of water 
supply, water conservation and water management in an active and well 
coordinated way.
    We view the principal role of Federal Government as it relates to 
water supply, water conservation and water management, to include the 
following functions:

        1.  Inventory, coordinate and communicate the existing work 
        being performed across all federal agencies. In doing so, 
        ensure improved coordination, interagency collaboration and 
        development of priority projects that have clear deliverables.

        2.  Commit and allocate resources to support and drive the 
        needed research and development on water-related issues.

        3.  Create the space for stakeholders to come together and 
        share technology and innovations.

        4.  Support innovative water projects and promote water 
        conservation practices across both public and private industry.

        5.  Create tools to promote and enact water efficiency 
        practices and technologies.

        6.  Build public, industry and state/local/tribal awareness on 
        water issues and solutions that our country is facing today and 
        will be facing tomorrow.

        7.  Drive responsible ``water stewardship'' behavior and 
        practice across all aspects of our society (public and private) 
        without favor (RE: in an unbiased and non-partisan fashion).

        8.  Drive efficient water consumption and use across the 
        Federal Government enterprise, instilling in our Federal 
        Government a culture of water stewardship; in essence lead by 
        example when it comes to water supply, conservation and water 
        management practices and performance improvement.

        9.  Execute its' strategic water agenda against a long-term 
        vision for achievement and in a manner that makes very clear 
        the role of the Federal Government and States.

Priority Needs for Federal Research and Development

    The work completed by the National Science and Technology Council 
Committee on Environment and Natural Resources entitled ``A Strategy 
for Federal Science and Technology To support Water Availability and 
Quality In The United States (September, 2007) was a very comprehensive 
look at the challenges facing this country and thus the implied 
research and development work that would benefit sound stewardship of 
our country's water resources. It is a thorough summary of the 
challenges in meeting our future water demands and facing the 
challenges. We recognize that much work is currently being done or has 
been initiated on meeting these challenges. We also recognize that the 
current policies under development will lead to a more streamlined, 
efficient and collaborative effort as the various federal agencies work 
to address the variety of these challenges and we applaud the efforts 
of all federal and State agencies involved. Rather than add to the list 
of challenges and needs, we instead, offer what we see as a few of the 
priorities of focus for federal research support.

        1.  Water resources inventory (mapping) and needs forecasting 
        and/or scenario planning.

        2.  U.S. water supply, delivery and treatment infrastructure 
        assessment.

        3.  Innovative technology development in how we use supply, 
        treat, re-use water and direct water to beneficial re-use.

        4.  Public awareness and education on re-use technologies and 
        advanced water treatment technology.

        5.  Water conservation behavior modification practices and 
        tools; i.e., methods to shift our attitude and culture to be 
        more sensitive to water stewardship needs and continue to drive 
        improvement and public and industry water management 
        performance.

    Regardless, of the specific projects taken forth, we feel it is 
important that priorities for research and development be established 
in alignment with the desired end-state vision and strategic plan set 
forth by the Interagency Committee. Further, any research taken on 
needs to include clear delineation of expectations or outcomes, be 
appropriately resourced and aggressively driven to completion.

Considerations Moving Forward

    As your Subcommittee moves forward from this hearing, Mr. Chairman, 
we offer some thoughts for your consideration.

        1.  The consideration of goals and/or milestones might help 
        enhance the important work you envision for the Interagency 
        Committee in increasing the efficiency and use of federal 
        funds, streamlining the efforts on the all critical issues 
        related to water management, and setting the foundation for 
        some very collaborative and creative solutions.

        2.  We see an opportunity, given the current roles that State 
        and tribal entities play in water management, for an 
        incorporation of that role in the work of the Interagency 
        Committee in managing our country's water resources.

        3.  We applaud the purpose to drive greater interagency 
        collaboration, and hope that you will consider the experience, 
        technology and knowledge of water management that likewise 
        resides in American industry groups and non-governmental 
        organizations (NGOs).

        4.  Much work has and is currently being developed to assess 
        existing water resource availability, access and quality across 
        many states and tribal lands. In addition agencies like the 
        U.S. Geological Survey have numerous on-going research projects 
        that involve inventorying/mapping/monitoring of our water 
        supplies and quality. We hope you will consider leveraging the 
        work being done in assessing water supply, quality, forecasting 
        future needs, etc. and would encourage you to provide 
        additional clarification on Water Research Outcome number one 
        (Under Section 2 (d) (1)).

        5.  Given the general age and current state of our country's 
        water delivery and treatment infrastructure(s), we suggest a 
        Water Research Outcome be considered to provide for an 
        assessment of our current water supply, delivery and treatment 
        infrastructure, with an eye toward allowing us to improve the 
        reliability, conservation and efficiency along the complete 
        water supply chain.

        6.  As it relates to long-term water resources planning and 
        needs assessment, we would suggest adding a Water Research 
        Outcome that involves future use forecasting or scenario 
        planning for future water supply, availability and quality as 
        may be impacted by evolving demographics, public and industry 
        needs and/or climate change.

Closing

    Chairman Lampson, Ranking Member Hall and Members of the 
Subcommittee, water issues are a serious issue for our country. We are 
facing increased water shortages and distribution challenges. We have 
an aging infrastructure and in general, a society that has not yet 
fully embraced the need for improved water stewardship. Technologies 
exist today that will help us meet some of the challenges, but 
additional innovation in technology, practices and new collaborations 
will be needed to meet future challenges. As one end-user and as an 
industry that relies on reliable supply and quality water, the beverage 
industry takes water conservation and resource protection very 
seriously. It is an area that will continue to receive our attention 
and represents an area we will work to provide leading effort.
    We are thankful for the opportunity to provide testimony and hope 
we have the opportunity to continue to work with this subcommittee and 
any resulting policy developments.
    As you examine the policy considerations before you today, and 
consider taking a bold new step in helping the management of our 
country's limited water resources, we hope that our input has been 
helpful. We look forward to working with all of you in the future.
    On behalf of all BIER Member Companies, thank you!.

                    Biography for Tod D. Christenson

Experience Summary

    Tod D. Christenson has more than 20 years of professional 
experience as an environmental strategic thinking partner to private 
industry. He is a management consultant with unique skills and 
expertise in the following areas.

        <bullet>  strategic thinking and planning,

        <bullet>  business meeting facilitation,

        <bullet>  benchmarking,

        <bullet>  environmental organizational diagnosis and coaching,

        <bullet>  goal setting and performance management

        <bullet>  corporate social responsibility

        <bullet>  environmental sustainability

    Tod utilizes his technical knowledge and management skills in 
leading for Delta Consultants its' delivery of Corporate Responsibility 
and Benchmarking practices. Tod is fluent in all aspects of Corporate 
Social Responsibility (CSR), helping customers develop, and implement 
affirmative CSR disciplines across their enterprises.

Education

M.S. Masters of Geology and Organic Chemistry, Idaho State University, 
        Pocatello, Idaho

B.A. Bachelor of Arts in Geology, St. Thomas University, St. Paul, 
        Minnesota

Advanced Professional Training Course Work in Contract Management, 
        Facilitation, Organizational Diagnosis.

Current/Recent Speaking Engagements

Water Stewardship in the Beverage Industry--Wal-Mart Supplier Water 
        Stewardship Forum, Bentonville, AR, March 2008.

Water Sustainability and Stewardship--Keynote Speaker, 20th Annual 
        Canadian Bottled Water Convention, Niagara Falls, Ontario, 
        April 2008.

Sustainability Metrics Development and Measurement--Grocery 
        Manufacturers Association 1st Annual Sustainability Summit, 
        Washington, DC, February 2008.

EHS and Sustainability Metrics Management Systems--Air & Waste 
        Management Association, Atlanta, GA, December 2006.

Water Conservation in the Beverage Industry--International Society of 
        Beverage Technologists, May 2006.

Representative Project Experience

Affirmative Environmental Sustainability Discipline Consultation--2007 
to current

    Senior consultant supporting the development and implementation of 
an affirmative environmental sustainability discipline for a global, 
diversified consumer products company. The consulting assignments 
involve participation in setting strategic direction, designing 
governance structures and facilitating working groups in the areas of 
product stewardship, eco-efficiency and communications and training.
    Metrics development and baseline measurement represent additional 
area of consultative support and comprises the aspect of internal 
benchmarking to drive continuous improvement and external reporting.

Beverage Industry Environmental Roundtable (BEIR)--2006 to current

    Director of BIER whose mission is to drive continuous improvement 
and inform public policy as it relates to Water Stewardship, Energy 
Efficiency and Climate Change Mitigation.
    As Director, Tod is applying his leadership skills to coalesce this 
voluntary industry collaboration to develop a common framework for 
environmental stewardship, share best practices and use the collective 
knowledge, expertise and shared learnings to affect public policy.
    Under Tod's leadership, BIER is currently:

        <bullet>  developing a GHG Protocol for the beverage sector 
        following World Resource Institute (Enterprise) and British 
        Standards Institute (Life cycle) protocols,

        <bullet>  developing industry best practice guidance tools,

        <bullet>  facilitating cross industry collaboration and 
        networking, and

        <bullet>  is helping the global, brand leading beverage 
        companies achieve new standards of performance.

    BIER participants include global environmental affairs, marketing 
communications and public affairs leaders from the following beverage 
companies: Anheuser-Busch, Bacardi, Beam Global Spirits & Wines, Brown 
Forman, Coca-Cola Enterprises, Danone, Diageo, Miller Coors, Nestle 
Waters North America, PepsiCo International, The Coca-Cola Company, and 
Pepsi Bottling Group. Additionally, Ecolab and JohnsonDiversey 
participate as key suppliers to the beverage industry.

Water Use and Efficiency Benchmarking to the Food and Beverage 
                    Industry--2005

    Project Manager and lead consultant on the benchmarking of water 
use and efficiency across a diverse group of companies in the food and 
beverage industries. Participants include world-wide organizations as 
Coca-Cola, Cadbury Schweppes, Heineken, SAB Miller, Molson Coors, and 
others. The focus of this environmental sustainability-related 
benchmarking study focused on the aspects of Total Water Use, Water Use 
Ratios, Efficiency Initiatives, and company Watershed Protection 
Programs.

Environmental Liability Management Benchmarking--1999-Present

    Lead consultant and project manager for the Annual Petroleum 
Industry Environmental Liability Management Benchmarking Study. The 
participants for these annual studies and practice exchange summits 
have included, ConocoPhillips, Chevron, BP, Sunoco, Ashland, Marathon 
Oil Company, Amerada Hess, Getty Realty, Shell Oil Products and 
ExxonMobil. Responsibilities include: participant interview (data 
collection), data analysis and presentation of findings on the ELM 
business practices and processes component of the benchmarking study. 
The annual benchmarking studies covers liability management business 
processes/practices and performance metrics for Downstream Petroleum 
operations that relate to refining, bulk storage, pipeline and retail 
distribution.
    The work is conducted annually and culminates in a Summit where 
participants engage with their peers in best practice sharing and 
common environmental issue problem-solving.

Portfolio Analysis and Organizational Design--2002

    Project Manager and lead consultant for a major oil company's 
liability management organization portfolio analysis and organizational 
design. Responsibilities included: providing coaching to the 
responsible manager, developing a process plan for developing the 
optimum organizational management scheme, and facilitation of the 
organization through the process of designing and implementation of the 
new organization.

Personal

    Tod is married (27 years) and with his wife Kim has three children; 
Jenni (21), Jack (20) and Jacy (16). Tod enjoys all forms of outdoor 
activities, is an avid reader for entertainment and enjoys the abundant 
water resources of his native and home State of Minnesota.

    Chairman Lampson. Thank you, Mr. Christenson. I will get 
that out in a minute. And Dr. Loftus, you are recognized for 
five minutes.

     STATEMENT OF DR. TIMOTHY T. LOFTUS, PROJECT DIRECTOR, 
NORTHEASTERN ILLINOIS RREGIONAL WATER SUPPLY PLANNING, CHICAGO 
                METROPOLITAN AGENCY FOR PLANNING

    Dr. Loftus. Chairman Lampson, Members of the Illinois 
delegation, and fellow Members of the Energy and Environment 
Subcommittee, thank you for the opportunity to comment this 
morning.
    I come before you to speak of implementing a new National 
Water Research and Development Initiative. On behalf of the 
Chicago Metropolitan Agency for Planning and with funding from 
the Illinois Department of Natural Resources, I have had the 
privilege for the past two years of leading a new regional 
water supply planning initiative in an 11 county Greater 
Chicago region. This regional planning effort was initiated 
following Illinois Governor Rod Blagojevich's Executive Order 
20061.
    The National Water Initiative could provide states, local 
partners, and the private sector with the guidance and 
information necessary to meet the challenges similar to what we 
have encountered during this initial phase of planning in 
Illinois. For example, earlier this month, CMAP issued a water 
demand study for our region that reveals gaps in data due to 
inadequate water use reporting. It has been said that you can't 
manage what you don't measure. Thus, the current status of 
water use reporting must be addressed if we are to fully grasp 
how future water demand will reconcile with our water supplies.
    The National Water Initiative should enable states and 
their local planning partners to address the need for 
comprehensive reporting across all water use sectors as part of 
a new National Water Census that has been recommended by the 
Subcommittee on Water Availability and Quality.
    The population in the Chicago metropolitan region is 
projected to grow by over three million people, or 38 percent 
by the near 2050. Water demand scenarios for our region 
indicate that water use could increase as much as 64 percent 
during that time, absent any policy intervention, and without 
specific strategies for actively managing both demand and 
supply. Factoring in climate change scenarios reveals that 
demand for our water in our region could grow even further.
    On the supply side, our region's water sources are 
generous, but finite. Illinois access to Lake Michigan water is 
constrained by U.S. Supreme Court consent decree. The deep 
bedrock aquifer underlying Northeastern Illinois is being de-
watered. The system of shallow aquifers shows evidence of 
increasing contamination from chlorides. Our two inland river 
sources are threatened by non-point source pollution, and 
required to maintain minimum in-stream flows. Overall, as 
elsewhere in the United States, our challenge in the Chicago 
region is not so much scarcity, but water waste, and an 
institutional structure for water management that leaves plenty 
of room for improvement.
    As part of our charge from the State, CMAP created a 35-
member Northeastern Illinois Regional Water Supply Planning 
Group composed of elected officials, private sector 
representatives, and other stakeholders. The Regional Water 
Group has already adopted several water use conservation and 
efficiency measures as the centerpiece of the nascent Regional 
Water Supply Plan that is expected next year.
    Regrettably, our regional studies funding is currently 
jeopardized by State of Illinois budget issues. While our 
planning effort in Northeastern Illinois is proactive rather 
than a response to a crisis situation, I can tell you from 
experience that it is difficult to get people to take a long-
term view. That can be one important function of the National 
Water Research and Development Initiative, to define and help 
implement a water conservation and efficiency agenda that 
encourages long-range planning by giving clear guidance to 
states and the private sector alike.
    The National Water Initiative's promise of improved 
horizontal cooperation among federal agencies should be coupled 
with improved vertical coordination with those of us at State, 
regional, and local levels who are working to increase 
stewardship of our most vital resource. Among other 
considerations, a new federal effort should also recognize the 
five following points.
    Issues of water quality are inseparable from our need for 
water availability. Improved water monitoring is prerequisite 
to informed decision-making. Achieving water conservation and 
efficiency goals will help our nation achieve energy efficiency 
goals. It is our nation's best interest to improve our 
understanding of water-related ecosystem services, and 
ecosystem needs for water, as well. Finally, federal support 
can provide key incentives for effective planning, especially 
when local pressures tend to promote short-term rather than 
long-term thinking.
    Thank you very much for your time this morning.
    [The prepared statement of Dr. Loftus follows:]
                Prepared Statement of Timothy T. Loftus
    Chairman Lampson, Members of the Illinois delegation, and fellow 
Members of the Energy and Environment Subcommittee, thank you for the 
opportunity to comment today. I come before you to speak of 
implementing a new National Water Research and Development Initiative. 
Never before has the need for a fresh and more coordinated federal role 
in addressing our nation's water use, demand, and supply been so 
urgent.
    On behalf of the Chicago Metropolitan Agency for Planning (CMAP) 
and with funding from the Illinois Department of Natural Resources 
(IDNR), I have had the privilege for the past two years of leading a 
new regional water supply planning initiative in the 11-county, greater 
Chicago region. This regional planning effort was initiated following 
Illinois Governor Rod Blagojevich's Executive Order 2006-1, which 
called on the Illinois Department of Natural Resources, in coordination 
with the State Water Survey, to define a comprehensive program for 
state and regional water supply planning and management. CMAP has been 
charged by IDNR to lead the planning process in northeastern Illinois.
    Water supply planning in the Chicago region, an iterative process 
that is expected to evolve over the years ahead, could be greatly 
strengthened by the promise of the National Water Research and 
Development Initiative. The National Initiative could provide states, 
local partners, and the private sector with the guidance and 
information necessary to meet the challenges similar to what we have 
encountered during this initial phase of planning in Illinois.
    For example, earlier this month CMAP issued a water-demand study\1\ 
for our region that reveals gaps in data due to inadequate water-use 
reporting. It has been said that you can't manage what you don't 
measure. Thus, the current status of water-use reporting must be 
addressed if we are to fully grasp how future water demand will 
reconcile with our water supplies. The National Initiative should 
enable states and their local planning partners to address the need for 
comprehensive reporting across all water-use sectors as part of a new 
National Water Census that has been recommended by the Subcommittee on 
Water Availability and Quality.\2\
---------------------------------------------------------------------------
    \1\ Regional Water Demand Scenarios for Northeastern Illinois: 
2005-2050. Project Completion Report, June 15, 2008. Prepared by 
Benedykt Dziegielewski and Farhat Jahan Chowdhury, Southern Illinois 
University Carbondale, Department of Geography and Environmental 
Resources.
    \2\ A Strategy for Federal Science and Technology to Support Water 
Availability and Quality in the United States. Report of the National 
Science and Technology Council, Committee on Environment and Natural 
Resources. Subcommittee on Water Availability and Quality. September 
2007.
---------------------------------------------------------------------------
    The population in the Chicago metropolitan region is projected to 
grow by over three million people or 38 percent by 2050. Water-demand 
scenarios for northeastern Illinois indicate that water use could 
increase as much as 64 percent during that time absent any policy 
intervention and without specific strategies for actively managing both 
demand and supply. Factoring in climate change scenarios reveals that 
demand for water in our region could grow even further.
    While our regional analysis of demand and supply is not complete, 
there is ample reason for concern. On the supply side, our region's 
water sources are generous, but finite. Illinois access to Lake 
Michigan water is constrained by U.S. Supreme Court Consent Decree. The 
deep-bedrock aquifer underlying northeastern Illinois is being de-
watered. The system of shallow aquifers shows evidence of increasing 
contamination from chlorides (i.e., road salts). Our two inland river 
sources are threatened by non-point source pollution and required to 
maintain minimum in-stream flows. Overall, as elsewhere in the United 
States, our challenge in the Chicago region is not so much water 
scarcity, but water waste.
    As part of our charge from the State, CMAP created a 35-member 
Northeastern Illinois Regional Water Supply Planning Group (RWSPG) 
composed of elected officials, private sector representatives, and 
other stakeholders. The RWSPG has already adopted several water-use 
conservation and efficiency measures as the centerpiece of the nascent 
regional water supply plan that is expected next year. In July 2009, 
this diverse group is scheduled to issue its plan with recommendations 
for managing water supply through 2050. While our regional study's 
funding is currently jeopardized by State of Illinois budget issues, 
CMAP is committed to moving forward with our partners to complete this 
important effort.
    I can tell you from experience that it is difficult to get people 
to take a long-term view. That can be one important function of the 
National Water Research and Development Initiative: To define and help 
implement a water conservation and efficiency agenda that encourages 
long-range planning by giving clear guidance to states and the private 
sector alike.
    The inherent complexity and uncertainty associated with planning 
for our nation's water resources, water availability and quality, make 
for a formidable challenge that needs to be met now. Those of us 
working on this front should benefit from the National Initiative 
achieving its purpose of improving the Federal Government's efforts 
with research, development, and outreach as it pertains to water use, 
supply, and demand.
    The National Initiative's promise of improved horizontal 
cooperation among federal agencies should be coupled with improved 
vertical coordination with those of us at State, regional, and local 
levels who are working to increase stewardship of our most vital 
resource. Among other considerations, the effort should also recognize 
that:

        1)  Water quality is a prime attribute of water availability.

        2)  Improved water monitoring is prerequisite to informed 
        decision-making.

        3)  Achieving water conservation and efficiency goals will help 
        achieve energy efficiency goals.

        4)  It is in our nation's best interest to improve our 
        understanding of water related ecosystem services and ecosystem 
        needs for water.

    At CMAP, we believe our region is at a turning point, and that 
could apply equally to other urban areas and the U.S. as a whole. 
Pressures in the economy--particularly housing and fuel costs--are 
increasing public support for compact growth patterns and other 
policies that planners have long promoted. Sensible growth will be an 
important component of our regional water strategy, to discourage 
development in locations that will strain supplies. Water-supply 
planning can benefit from the heightened public awareness of how 
quality of life can be preserved and improved through effective 
stewardship of regional resources. Again, federal support can provide 
key incentives for effective planning, especially when local pressures 
tend to promote short-term rather than long-term thinking.
    Thank you for considering my testimony, and I look forward to the 
National Water Research and Development Initiative becoming law and 
fulfilling its promise to ensure adequate water supplies for the 
Nation.

    Chairman Lampson. Thank you, Dr. Loftus. Mr. Johnson, you 
are recognized.

STATEMENT OF MR. JERRY N. JOHNSON, GENERAL MANAGER, DISTRICT OF 
               COLUMBIA WATER AND SEWER AUTHORITY

    Mr. Johnson. Thank you, Chairman Lampson, Members of the 
Committee. I am Jerry Johnson, General Manager of the District 
of Columbia Water and Sewer Authority, otherwise known as 
DCWASA. I appreciate your interest in the federal role in 
research, development, and research coordination in the areas 
of water supply, water conservation, and water management.
    I also appreciate the opportunity to testify before the 
House Committee on Science and Technology's Subcommittee on 
Energy and the Environment, and to comment on the national 
water research and development effort.
    DCWASA has a broad mission of providing reliable, cost-
effective water and wastewater services. We are an independent 
authority of the District of Columbia, and serve a multi-
jurisdictional area here in the region. We distribute drinking 
water and collect wastewater for more than 500,000 residential, 
commercial, and government customers here in the District of 
Columbia, including this U.S. Capitol complex. We treat 
wastewater for another 1.6 million residents in Maryland and 
Virginia.
    Mr. Chairman, from my perspective, there are a number of 
factors that complicate efforts to better coordinate and manage 
water resources, including geography, State and local 
jurisdiction and political boundaries, the site-specific nature 
of statutory and regulatory framework, the structure of local 
and regional water and land use agencies, as well as a strong 
history that includes the evolution of development around 
waterways that serve as both sources of drinking water, support 
for industrial and other economic activities, and receiving 
waters for discharges of effluent from wastewater treatment 
plants, and overland runoff. However, all of these can be 
overcome.
    A broad framework to establish supporting water resources 
research and development is a pathway for identifying important 
national priorities, while also helping to disseminate 
information on a range of issues we confront in improving our 
management of water resources. However, the opportunity to 
establish a framework that better coordinates ongoing research 
will certainly strengthen our efforts in, with the research and 
our research agendas. Providing a stronger brand of national 
leadership that promotes a consensus and identifies priorities 
will encourage even greater initiative on the part of academic 
institutions, professional organizations and associations, 
research foundations, local agencies, and industry.
    As you know, water rarely is a localized resource. It rises 
and crosses jurisdictional boundaries, and cities, counties, 
and states, which makes the federal role extremely critical as 
we address these issues. A number of federal agencies, ranging 
from the U.S. EPA, the U.S. State Department, Agriculture, and 
others are making a number of national professional and 
industry associations work together, and have established over 
the years a very important research effort that is based on 
collaboration across these professional lines.
    Another example, a couple of examples of those are the 
American Water Works Association, which has sponsored over 635 
completed research projects, with another 300 that are 
underway, with in excess of 500 researchers that have been 
involved.
    Another example is the Water Environment Research 
Federation, a leading independent scientific research 
organization, and I am proud to be a member of the board of 
that organization, and we have, in fact, done over 400 research 
projects, totaling some $89 million in value. Similarly, 
academic institutions participate in important research that 
constitutes, that contributes to the understanding of our 
interactions with the environment. These efforts also enhance 
our ability to manage water resources and reduce potentially 
negative effects on human activity.
    Scientists who are employed in our wastewater plant and our 
Water Quality Division are participating in a fair amount of 
this research in areas of bio-solids management, and providing 
a good bit of information on corrosion control as it relates to 
the drinking water distribution system. We also work with a 
number of universities, to include Virginia Tech and Howard 
University, on a number of research initiatives.
    But there are a number of initiatives that really need to 
be examined, and I think a few examples of those are 
understanding when water is safe to drink, understanding the 
phenomena of pharmaceuticals and nanotechnology as it relates 
to water, bio-solids management, point source control, just to 
name a few.
    Mr. Chairman, once again, I wish to express my appreciation 
to you and the Committee for your interest in these critical 
issues. We most often come to Capitol Hill seeking support for 
massive infrastructure improvements, and to undertake, to 
ensure protection of our resources and the environment. There 
are, however, initiatives that the Federal Government can 
undertake that are at least as important as appropriation 
bills. A national initiative to build better coordination and 
stronger foundation for developing priorities, enhancing 
overall national research agenda, and providing the information 
we need to improve our management of our water resources, is 
just that initiative.
    I believe that you can be confident that the successful 
effort will result in not only a more cost-effective research 
initiative, but also a positive impact on water resource 
development and management through better planning, lower 
costs, and improved efficiency.
    In closing, Mr. Chairman, many of the issues that I have 
discussed in this testimony, and particularly, the written 
testimony, are not new to the research community. Climate 
change, however, is a substantially different kind of 
challenge. Although the debate regarding global warming 
continues in some quarters, there is no doubt that water 
resources can and are dramatically affected by local and 
regional climate change.
    Strengthening the national research agenda through better 
coordination could help to develop an important new role, and 
provide a critical advantage for the successful addressing of 
many of these new challenges that we face.
    Also, I would just point out to the Committee that a couple 
of things in the legislation, one relates to funding, that I 
think probably could be addressed and strengthened, and the 
other is consideration of the difficulty in uncoupling water 
resources from wastewater management and the whole notion of 
things related to that particular industry.
    Thank you very much. I would be pleased to answer any 
questions you have and I apologize for going over my time.
    [The prepared statement of Mr. Johnson follows:]
                 Prepared Statement of Jerry N. Johnson
    Mr. Chairman and Members of the Committee, my name is Jerry N. 
Johnson, and I am the General Manager of the District of Columbia Water 
and Sewer Authority, otherwise known as DCWASA. I appreciate your 
interest in the federal role in research, development and research 
coordination in the areas of water supply, water conservation and water 
management.
    I also appreciate this opportunity to testify before the House 
Committee on Science and Technology Subcommittee on Energy and the 
Environment, and to comment on a national water research and 
development effort.
    DCWASA's broad mission includes providing reliable and cost-
effective water and wastewater services. We are an independent 
authority of the District of Columbia that serves a multi-
jurisdictional service area.
    Specifically, we distribute drinking water and collect and treat 
wastewater for more than 500,000 residential, commercial and 
governmental customers in the District of Columbia, including this U.S. 
Capitol complex. We also treat wastewater for 1.6 million customers in 
Montgomery and Prince George's counties in Maryland and Fairfax and 
Loudoun counties in Virginia.
    In many ways we are unique:

        -  Unlike almost every other municipal water utility in the 
        country, we were established in both local and federal law.

        -  We are directly regulated by the Federal Government, through 
        the U.S. Environmental Protection Agency's (EPA) Region 3.

        -  The source of our drinking water is the Potomac River--a 
        river that is bounded by several states and the District of 
        Columbia, and although we distribute drinking water, our 
        supplier is the Baltimore District of the United States Army 
        Corps of Engineers Washington Aqueduct.

        -  Although we treat wastewater for both wholesale and retail 
        customers at a District of Columbia facility that is regulated 
        by the EPA, our wholesale customers operate under separate 
        permits and different pollution limits, and also have different 
        regulatory regimes established under state governments.

    These factors do not necessarily impact all of DCWASA's operations 
on a daily basis, but they do impact how we plan, develop and manage 
water resources. Even though we are unique we share many of the 
challenges that confront other municipal and regional water and 
wastewater agencies. For example:

        -  The fact that DCWASA is responsible under its NPDES permit 
        for addressing the District's estimated three billion gallons 
        of annual combined sewer overflows that reach the Anacostia and 
        Potomac rivers and Rock Creek, while at the same time the 
        District of Columbia Department of the Environment is 
        responsible for managing the District's stormwater flows into 
        these waterways under a separate MS4 permit issued by EPA;

        -  The fact that the Federal Government provides drinking water 
        treatment means that the periodic disagreements between 
        jurisdictions that border the Potomac River (and which are 
        mirrored in other regions of the country) have important 
        implications for many area residents, but not for customers 
        whose water is treated by the federal U.S. Army Corps of 
        Engineers;

        -  When local drought conditions require Maryland or Virginia 
        to impose voluntary or even mandatory water restrictions in 
        communities that border the District, we usually escape these 
        limits because we rely on the Potomac which has substantial 
        natural and manmade reserve capacity far upstream;

        -  Although the Blue Plains Advanced Wastewater Treatment Plant 
        was the first to meet the EPA's Chesapeake Bay Program 
        voluntary limits on nitrogen discharges, and even though we 
        will expend about $1 billion dollars to meet more stringent 
        requirements, EPA and states in the Chesapeake Bay watershed 
        have yet to establish effective means to limit the most serious 
        source of pollutants entering the Chesapeake Bay--run-off from 
        non-point sources;

        -  The District of Columbia is required to expend approximately 
        $2 billion to address the combined sewer overflows, while most 
        of the pollution in the Anacostia River is caused by legacy 
        pollutants in river bed sediments and other pollutants from 
        upstream beyond the District's borders--another example of the 
        essential need to develop more effective watershed-based 
        approaches to water, wastewater and storm water management.

    Mr. Chairman, from our perspective there are a number of factors 
that complicate efforts to better coordinate the management of water 
resources, including:

        -  Geography

        -  State and local jurisdictional and political boundaries

        -  The site-specific nature the statutory and regulatory 
        framework within which we ail work

        -  The structure of local and regional water and land use 
        agencies, and

        -  History--the evolution of development around major waterways 
        that serve as both sources of drinking water and as receiving 
        waters for the discharge of effluent from treatment plants and 
        overland run-off.

    A broad framework established for supporting water resources 
research and development is a pathway to identifying important national 
priorities while also helping to disseminate information on the range 
of issues we confront in improving our management of water resources.
    However, the opportunity to establish a framework that better 
coordinates ongoing research will certainly strengthen our research 
agenda. Providing a stronger brand of national leadership that promotes 
consensus and identifies priorities will encourage even greater 
initiative on the part of academic institutions, professional 
associations and research foundations, local agencies and industry.
    As you know, water is rarely a localized resource; it raises inter-
jurisdictional challenges across cities, counties and states. The 
federal role in coordination is crucial. A number of federal agencies 
ranging from the EPA, to the U.S. Department of Agriculture and the 
Centers for Disease Control, just to name a few, are making important 
contributions to research, and many national professional and industry 
associations have established over the years very important research 
efforts that are based on collaboration across professions, academia, 
government and water agencies.
    For example, the mission of American Water Works Association 
Research Foundation (AwwaRF) is to advance the science of water to 
improve the quality of life by focusing on drinking water research. To 
date, AwwaRF has sponsored 635 completed research projects, and more 
than 300 studies are currently underway. In excess of 500 researchers 
and 30 partner research organizations have been involved in research 
efforts, which are guided by stakeholders in the water industry and 
supported by nearly 1,000 member organizations in nine countries 
worldwide.
    Another example is the Water Environment Research Foundation 
(WERE), formed in 1989, is a leading independent scientific research 
organization dedicated to wastewater and stormwater issues. As a member 
of the WERF Board of Directors, I am proud of the fact that we have 
managed nearly 400 research projects, valued at more than $85 million.
    This nonprofit organization operates with funding from subscribers 
(wastewater treatment plants, stormwater utilities, and regulatory 
agencies and the Federal Government, industry and equipment companies, 
engineers and environmental consultants. And the approach to research 
stresses collaboration among teams of subscribers.
    Similarly, academic institutions participate in important research 
that contributes to our understanding of our interactions with the 
environment. These efforts also enhance our ability to manage water 
resources and reduce potentially negative effects of human activity. 
Less well known are the research efforts of local agencies like DCWASA.
    Scientists who are employed in our wastewater treatment and our 
drinking water quality units are participating, and some instances 
leading, important research efforts in, for example, the use of 
biosolids, a byproduct of wastewater treatment. We are also conducting 
research and providing important data to EPA and other agencies in the 
area of corrosion control in the treatment and distribution of drinking 
water.
    This work is being undertaken in many instances in collaboration 
with academic institutions like Virginia Tech, Howard University, the 
University of Washington and Cincinnati University, as well as with 
organizations like AWWARF.
    Yes, this work is important. Yes, we are establishing important and 
valuable affiliations. Yes, this applied research will improve our 
ability to operate more efficiently and at lower cost, or alternatively 
to improve our ability to comply with increasingly stringent regulatory 
standards.
    However, given the nature of our mission, our research agenda can 
sometimes be driven by relatively shorter-term objectives. I genuinely 
believe that the Nation will benefit from a stronger, better 
coordinated approach to research that supports better management of 
this increasingly scarce resource.
    We are strongly supportive of an initiative that creates a more 
centralized opportunity to review, discuss and build a consensus on how 
we should approach some of these many challenges. DCWASA has been an 
advocate for strengthening the national research effort on a range of 
issues that relate to both wastewater treatment and drinking water 
treatment and distribution. For example:

Simultaneous Compliance
    More research and coordination should be encouraged in the area of 
simultaneous compliance with all federal regulations under the federal 
Safe Drinking Water Act. Changes in one regulation may require a 
drinking water treatment change that has a negative impact on 
compliance with another regulation.
    As current research is showing, for example, the pipe scales that 
form on the interior of pipes and which protect the pipes from the 
corrosive effects of water are very sensitive to chemical changes. 
These chemical changes may cause extensive metal release (including 
lead) into the water. Drinking water distribution systems are dynamic 
and sensitive systems and treatment changes required by regulations can 
have unforeseen and far reaching consequences. Research in the area of 
simultaneous compliance requires a much more aggressive and coordinated 
response.

When is Water Safe to Drink?
    Almost every day, a water utility is faced with demonstrating that 
the water it delivers is, in fact, clean and safe to drink. A recent 
example is the water main break in Montgomery County Maryland where 
there was a potential microbial contamination after a major water main 
break. When a system loses complete water pressure in a large area, the 
distribution system becomes vulnerable to contamination. Current 
practice is to issue a boil advisory for at least 48 hours because it 
takes 24 hours to analyze bacteria samples that are collected 
immediately after the outage occurs.
    Another set of samples is analyzed 24 hours later, placing a burden 
on local businesses, hospitals, and the entire community, Improving the 
speed of bacteriological analysis from days to hours or minutes in a 
manner that meets nationally accepted standards to ensure can help 
ensure the integrity of our water systems as well as consumer 
confidence.
    I believe that this ought to be a higher priority. That is of 
course only an opinion, but this initiative may provide a better 
opportunity for all interested parties to create a consensus on this 
and many other issues.

Pharmaceuticals and Nanotechnology
    Better coordination between federal agencies like the National 
Institute of Health, USDA and EPA, on pollutants that are discharged to 
our waterways, especially in the emerging areas of pharmaceuticals and 
nanotechnology is critical.
    Water and wastewater utilities end up holding the bag because we 
are a regulated point source, but we must do a vastly better job 
assessing the environmental impact in the product development phase of 
many of these current and future potential contaminants. There have 
been concerns about pollutants such as estrogens in the Potomac, but 
there has been too little effort to evaluate source reduction 
strategies to regulate these chemicals, leaving the onus on end-of-pipe 
technologies that are very difficult and/or expensive to implement.
    The variety of pollutants are also expanding to include 
nanotechnology constituents that may potentially harm the environment 
or human health, but there is, again, too little work evaluating the 
fate of these constituents once they reach the environment.

Biosolids
    Better federal stewardship of biosolids management is another 
example of the need for greater attention in the area of wastewater and 
wastewater treatment by-product re-use. DCWASA staff members are 
involved in WERF and self-funded projects that are intended to ensure 
that the application of biosolids to land as a fertilizer is practiced 
in a safe and sustainable manner and in accordance with EPA guidelines.

        -  We are involved in WERE work to produce a protocol for rapid 
        response to biosolids safety related issues.

        -  We are also evaluating sustainability measures for biosolids 
        reuse. Our determination is that biosolids recycling can 
        significantly reduce our greenhouse gas footprint through 
        carbon sequestration and by off-setting the energy needs and 
        greenhouse gases produced from manufacturing commercial 
        fertilizer.

        -  DCWASA is also involved in a WERF project verifying reliable 
        destruction of pathogens in digested biosolids.

    Even better efforts to coordinate biosolids research could help 
address local concerns around the Nation regarding perceived risks 
associated with biosolids, while also assessing the current and 
potential future value of biosolids as a safe and sustainable resource.

Non-Point Source Controls
    Better coordination on non-point source control may be one of the 
most critical challenges in improving water quality in the nations 
receiving waters. Point sources are subject to regulation, but often 
non-point sources are major sources of pollution and the clean-up of 
water bodies will not be realized until non-point sources are 
addressed.
    An example is the mitigation of nutrient related pollution in the 
Chesapeake Bay, where the Bay clean-up will not be realized without 
participation of non-point sources. Non-point source pollution is the 
main cause of nutrient pollution in the Bay. Point sources make up less 
than a quarter of nutrient related pollution. Yet DCWASA rate payers 
are being asked to spend $1 billion to build facilities under stringent 
standards and deadlines with absolutely no guarantee to these rate 
payers that the Chesapeake Bay will be remediated, because much of the 
non-point source related nutrient pollution remains unabated. It is 
critically important that we work more diligently to develop watershed-
wide and non-point source strategies for managing and improving water 
quality in receiving waters.
    Mr. Chairman, I once again wish to express my appreciation to you 
and the Committee for your interest in these critical issues. We most 
often come to Capitol Hill seeking support for massive infrastructure 
improvements that water agencies must undertake to both ensure reliable 
service and to protect the environment.
    There are, however, initiatives that the Federal Government can 
undertake that are at least as important as appropriations bills. A 
national initiative to build a better coordinated and stronger 
foundation for developing priorities, enhancing the overall national 
research agenda and providing the information we need to improve our 
management of our water resources is just such an initiative.
    I believe that you can be confident that a successful effort will 
result in not only more cost-effective research initiatives, but also a 
positive impact on water resource development and management through 
better planning, lower costs, and improved efficiency.
    In closing, Mr. Chairman, many of the issues I've noted in my 
testimony are not new to the research community, or the industry. 
Climate change, however, is a substantially different kind of 
challenge. Although the debate regarding global warming continues in 
some quarters, there is no doubt that water resources can and are 
dramatically affected by local and regional changes in climate.
    Strengthening the national research agenda through better 
coordination could help develop important new tools that provide a 
crucial advantage in successfully addressing this new challenge.
    I would be pleased to respond to any questions.

                     Biography for Jerry N. Johnson
    Jerry Johnson currently serves as General Manager of the District 
of Columbia Water and Sewer Authority. The Authority provides retail 
and wholesale water and wastewater treatment services to the District 
of Columbia and parts of Virginia and Maryland with a customer base of 
approximately two million. The Water and Sewer Authority operates Blue 
Plains Wastewater Treatment Plant, which is the largest advanced 
Wastewater Treatment Plant in the world.
    Johnson is nationally known as a turnaround specialist. As the 
first General Manager of the newly created Authority, he guided it from 
an unrated agency with a projected $8 million deficit to one with an A+ 
credit rating and $170 million reserve in two years, (currently double 
A rating). He has developed long-term capital and financial plans, a 
comprehensive rate strategy in addition to resolving major operating 
and regulatory agency issues. Public/private partnerships, 
infrastructure planning, and organizational development are also among 
Johnson's areas of expertise.
    Prior to joining the Water and Sewer Authority, Johnson served as 
Deputy City Manager for Operations in the City of Richmond, Virginia. 
During his tenure in Richmond, he also served as Director of Public 
Utilities, responsible for four separate utility operations including 
gas, electric, water and wastewater providing service to the 
metropolitan Richmond area. He has also been the General Manager for 
the Metropolitan Richmond Convention and Visitors Bureau, responsible 
for marketing the metropolitan area for tourism and conventions. Jerry 
began his service in Richmond as the Director of Community Facilities 
for the City.
    Before moving to Richmond, he was Assistant to the City Manager for 
the City of Alexandria, Virginia and was a Senior Planner for the City 
of Charlottesville, Virginia.
    He graduated with a Business Degree from Ferrum College; a Degree 
in Urban Affairs and Economics from Virginia Tech and completed the 
Program for Senior Executives in State and Local Government at the JFK 
School of Government, Harvard University.
    He serves on a number of boards and commissions, holds leadership 
positions in several national organizations and has numerous honors and 
awards resulting from his professional accomplishments and community 
involvement. He also has a number of publications to his credit.

    Chairman Lampson. Thank you, Mr. Johnson. Mr. Spooner, you 
are recognized for five minutes.

   STATEMENT OF MR. BRADLEY H. SPOONER, PRINCIPAL ENGINEER, 
 ENVIRONMENTAL SERVICES OF THE MUNICIPAL ELECTRIC AUTHORITY OF 
                      GEORGIA (MEAG POWER)

    Mr. Spooner. Thank you, Mr. Chairman and Members of the 
Committee. I am here today on behalf of the American Public 
Power Association (APPA), which represents the interests of 
more than 2,000 publicly owned electric utility systems serving 
approximately 45 million Americans. APPA members serve some of 
the Nation's largest cities, along with many small and medium-
sized communities in 49 states.
    Water availability is crucial to many types of electricity 
generation. For hydroelectric power, it is the energy source. 
For fossil and nuclear steam generation, water is needed for 
many in plant process uses. Water is, therefore, crucial for 
APPA's members to deliver electricity to support a healthy 
environment and a vibrant economy.
    Today, APPA would like to highlight three of its 
recommendations for the Committee to consider. The first 
recommendation is that the legislation should include measures 
to ensure high quality data. Developing a research and 
assessment plan, and conducting the research called for the 
plan, will involve the production, analysis, and use of a 
significant amount of technical data. APPA recommends that the 
bill consider available resources and guidelines intended to 
ensure data of high quality. An example would be the resources 
and guidelines developed under the Federal Data Quality Act of 
2001, also known as the Information Quality Act.
    Of particular importance is that data used for implementing 
the bill be objective, transparent, peer-reviewed, unbiased, 
and reproducible. Because many departments and agencies will 
participate in developing the plan and conducting the research, 
coordination of high quality data among the parties by the 
interagency committee will be especially important.
    The second recommendation is that the legislation should 
include research related to projected significant water 
consumption increases with carbon capture and sequestration 
technology. Various global climate bills introduced in Congress 
have contemplated the future use of a technology called carbon 
capture and sequestration, or CCS. The intent of CCS is to 
capture carbon dioxide resulting from the combustion of fossil 
fuels at power plants before the carbon dioxide is emitted. 
Several studies done by the Department of Energy's National 
Energy Technology Laboratory indicate that capturing the carbon 
dioxide at a power plant would require a doubling of the 
plant's consumptive water use. This significant increase in 
water consumption appears to run contrary to the goals of the 
bill, and therefore, appears to be an issue ripe for research 
under the bill.
    The third recommendation is that the legislation should 
ensure participation by states, local communities, and 
stakeholders. Early in 2008, the State of Georgia adopted a 
Georgia Comprehensive Statewide Water Management Plan. The Plan 
came about following an extensive stakeholder process involving 
agriculture and business interests, local governments, 
nonprofit agencies, trade associations, and others. Under the 
guidance of Governor Perdue and the Georgia Environmental 
Protection Division Director Dr. Carol Couch, the Georgia Plan 
was approved by the State Water Council and the State General 
Assembly.
    Of particular note is that the Georgia Plan was 
successfully developed in a state experiencing both drought 
conditions and strong economic growth. The success of the 
Georgia Plan process suggests some similar processes that may 
be beneficial to the proposed plan called for in the draft 
bill. For example, the bill should consider extending the 
duties of the outreach office to specifically bring states and 
local communities into the federal plan development process 
earlier and more extensively. Likewise, consideration should be 
given to extending the duties of the outreach office to 
establishing a stakeholder group to provide input during 
development of the plan. These entities and groups should be 
able to provide valuable information to make the final federal 
plan more effective.
    In wrapping up, I would like to mention that in April of 
2007, APPA sent a letter to Full Committee Chairman Gordon in 
support of legislation designed to develop a methodology for, 
and a complete national assessment of geologic storage capacity 
for carbon dioxide. This legislation was ultimately included in 
the Energy Bill enacted into law in December of 2007, and APPA 
thanks the full Committee Chairman and the Committee as a whole 
for their hard work on this important matter, and we look 
forward to the results being made available.
    Thank you for the opportunity to provide input today. We 
hope that you will consider the American Public Power 
Association and MEAG Power as resources for questions that may 
arise as the process moves forward.
    Thank you.
    [The prepared statement of Mr. Spooner follows:]
                Prepared Statement of Bradley H. Spooner
    APPA represents the interests of more than 2,000 publicly owned 
electric utility systems across the country, serving approximately 45 
million Americans. APPA member utilities include State public power 
agencies and municipal electric utilities that serve some of the 
Nation's largest cities. However, the vast majority of these publicly-
owned electric utilities serve small and medium-sized communities in 49 
states, all but Hawaii. In fact, 70 percent of our members are located 
in cities with populations of 10,000 people or less. Public power 
systems own approximately 10.1 percent of the total installed electric 
utility generating capacity in the United States. Hydroelectric 
projects comprise nearly 19 percent of public power's total generating 
capacity. There are 132 municipally-owned utilities with hydroelectric 
capacity, of which 94 are APPA members. The remaining mix of public 
power's generating capacity is comprised of approximately 27 percent 
coal, 36 percent gas, eight percent nuclear and eight percent oil.
    Public power systems' primary purpose is to provide reliable, 
efficient service to their local customers at the lowest possible cost. 
Like hospitals, public schools, police and fire departments, and 
publicly owned water and waste water utilities, public power systems 
are locally created governmental institutions that address a basic 
community need: they operate to provide an essential public service, 
reliably and efficiently, at a reasonable, not-for-profit price.
    The Municipal Electric Authority of Georgia (MEAG Power) is a 
public corporation whose primary purpose is to generate and transmit 
reliable and economical electric power to 49 Georgia communities that 
are Participants of MEAG Power. MEAG Power is Georgia's third-largest 
electric power supplier. Power is provided through co-ownership of two 
nuclear and two coal-fired generating plants, sole ownership of a 
natural gas-fired combined cycle facility, and ownership of over 1,300 
miles of high voltage transmission lines and nearly 200 substations.
    APPA and MEAG appreciate the opportunity to testify at this 
important hearing on ``A National Water Initiative: Coordinating and 
Improving Federal Research on Water.'' In addition, APPA appreciates 
the opportunity to comment on the draft ``National Water Research and 
Development Initiative Act of 2008'' and to provide additional comments 
about the water/electric generation nexus. Water availability is 
crucial to many types of electricity generation. For hydroelectric 
power, water is the energy source. For fossil and nuclear steam 
generation, water is needed for many in-plant process uses including 
for condensing steam. Water is therefore crucial for APPA's members to 
be able to deliver a reliable and reasonably priced electricity supply 
to residences and businesses in our communities in order to support a 
healthy environment and a vibrant economy.
    The U.S. Department of Energy (DOE) released a report entitled: 
Energy Demands on Water Resources: Report to Congress on the 
Interdependency of Energy and Water. DOE found that: ``Water is an 
integral element of energy resource development and utilization. It is 
used in energy-resource extraction, refining and processing, and 
transportation. Water is also an integral part of electric-power 
generation. It is used directly in hydroelectric generation and is also 
used extensively for cooling and emissions scrubbing in thermoelectric 
generation. For example, in calendar year 2000, thermoelectric power 
generation accounted for 39 percent of all freshwater withdrawals in 
the U.S., roughly equivalent to water withdrawals for irrigated 
agriculture (withdrawals are water diverted or withdrawn from a 
surface-water or groundwater source) (Hutson et al., 2004). Water 
withdrawal statistics for thermoelectric power are dominated by power 
plants that return virtually all the withdrawn water to the source. 
While this water is returned at a higher temperature and with other 
changes in quality, it becomes available for further use.

Comments on Draft National Water Research and Development Initiative 
                    Act of 2008

    Today, APPA would like to offer several recommendations for the 
Committee to consider as it further develops the bill. The comments 
include: encouraging high quality data in developing the National Water 
Availability Research and Assessment Plan established in the draft 
legislation; discussing concerns with projected water usage increases 
with carbon capture and sequestration technology; and relating some 
positive experiences associated with a statewide water management plan 
adopted by Georgia earlier this year.
    For some APPA members, there is an intrinsic relationship between 
serving water utility customers and electric utility customers. Many 
APPA members anticipate significant load growth in water and 
electricity as populations increase. End-use energy efficiency, water 
use efficiency, and renewable energy, although important, will not be 
sufficient to meet these increased electricity and water demands.
    One of the common misconceptions is that surface and groundwater 
challenges are only in the arid Southwest. The challenges are not 
limited to that area of the country alone. For example, according to 
the Michigan Land Use Institute, nearly the entire western shoreline of 
Lake Michigan has water demand above available precipitation, and 
aquifers in that region have declined as much as 900 feet, and are 
declining as much as 17 feet per year in some cases. For these reasons, 
we need additional research on how to reduce water consumption from 
many industrial users (including power plants) which do not take away 
energy capacity. APPA, therefore, appreciates the draft legislation's 
national scope and acknowledgement of the challenges facing water use 
in the future.

The Legislation Should Include Measures to Insure High Quality Data.

    Developing a National Water Availability Research and Assessment 
Plan, and conducting the research called for by the Plan to achieve the 
Water Research Outcomes, as proposed in the draft bill, will involve 
the production, analysis, and use of a significant amount of technical 
data. The data would include information on water quantity, water 
quality, technologies, consumption, and other criteria. A well-
constructed Plan and the associated research will necessarily rely on 
accurate and reliable data.
    APPA recommends that the bill consider available resources and 
guidelines intended to ensure that federal activities such as 
contemplated by the bill use data of high quality. An example of 
resources and guidelines can be found in the principles for the federal 
Data Quality Act of 2001 (also known as the Information Quality Act), 
which called for the Office of Management and Budget to ``provide 
policy and procedural guidance to federal agencies for ensuring and 
maximizing the quality, objectivity, utility, and integrity of 
information.'' In the February 22, 2002 Federal Register, OMB published 
Guidelines for Ensuring and Maximizing the Quality, Objectivity, 
Utility, and Integrity of Information Disseminated by Federal Agencies. 
Since that time, many federal departments and agencies have developed 
data quality guidelines.\1\
---------------------------------------------------------------------------
    \1\ See http://www.ombwatch.org/article/archive/231?TopicID=13 for 
a list of Department and Agency guidelines and links to the guidelines.
---------------------------------------------------------------------------
    Of particular importance is that, as appropriate, data used for 
implementing the bill be objective, transparent, peer-reviewed, 
unbiased, and reproducible. These criteria will especially help to 
insure that the data are credible and therefore useful for the intended 
purpose. Because many Departments and Agencies will participate in 
developing the Plan and conducting the research, coordination of high 
quality data among the parties by the Interagency Committee will be 
especially important.

The Legislation Should Include Research Related to Projected Water 
                    Consumption Impacts with Carbon Capture and 
                    Sequestration Technology.

    Various global climate and greenhouse gas emission reduction bills 
in Congress have contemplated the future use of a technological process 
called Carbon Capture and Sequestration (CCS) or what EPA calls 
``geosequestration,'' sometimes also referred to as carbon capture and 
storage. The intent of CCS is to ``capture'' carbon dioxide 
(CO<INF>2</INF>) resulting from the combustion of fossil fuels at power 
plants before the CO<INF>2</INF> is emitted, direct the captured 
CO<INF>2</INF> into an underground pipeline system, and store the piped 
CO<INF>2</INF> safely underground such as in a saline geologic 
formation.
    According to studies done by the U.S. Department of Energy's 
National Energy Technology Laboratory (NETL) and others, ``capturing'' 
the CO<INF>2</INF> at a power plant would require significant amounts 
of additional consumptive water use at the plant. For example, data 
from two NETL reports\2\ on CCS indicate that there would be 
approximately a doubling of water consumption, when comparing new 
pulverized coal plants of similar net capacity, with and without post-
combustion CCS technology. The table below summarizes the DOE/NETL 
water data; the range for supercritical units shown represents the data 
in the two DOE/NETL reports. The same doubling of water consumption 
would likely occur with retrofitted coal generation. This significant 
increase of water consumption appears to run contrary to the goals of 
the draft ``National Water Research and Development Initiative Act of 
2008''--and therefore appears to be an issue ripe for research pursuant 
to the bill. Attached to this testimony are APPA Comments to NERC on 
Reliability Impacts of Climate Change Initiatives. Comment No. 7, 
Competition for Scarce Water Supplies, provides additional insight, 
information, and referenced materials that are relevant to this issue.
---------------------------------------------------------------------------
    \2\ See Cost and Performance Baseline for Fossil Energy Plants, 
DOE/NETL-2007/1281, May 2007, Revised Aug 2007; and Pulverized Coal 
Oxycombustion Plants, DOE/NETL-2007/1291, Aug. 2007, Revised Oct. 2007 
and associated Nov. 2007 presentation slides.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Data Are Needed on Geologic Formations Before Large Commercial Power 
                    Plants With CCS Can Be Realistic.

    While APPA has not yet performed an exhaustive study of the impact 
of carbon sequestration on current or future water supplies, we are 
concerned that neither the state of the science nor the existing 
regulations are sufficiently developed to where carbon sequestration 
can seriously be considered as a greenhouse gas mitigation technique. 
It would be very difficult to do site characterization assessment 
properly in many locations because not enough is known about the 
subsurface geology and hydrology.
    In April of 2007, APPA sent a letter to Full Committee Chairman 
Gordon in support of legislation designed to develop a methodology for, 
and complete a national assessment of, geological storage capacity for 
carbon dioxide. This legislation was ultimately included in the energy 
bill enacted into law in December of 2007 and we thank the Full 
Committee Chairman and the Committee as a whole for their hard work on 
this important matter and we look forward to the results being made 
available.

Water Use, Energy and Discharge Temperatures

    APPA encourages DOE or other agency funding of ways to reduce 
thermal impacts from power plants (and industrial facilities) through 
less expensive cooling tower technologies. Today cooling towers have 
parasitic energy impacts which are very high. Parasitic power is the 
amount of the power used to run pollution controls, cooling towers, 
chemical processes to reduce pollutants, and to run booster 
compressors. This parasitic power takes away from the net energy output 
from the power plant. Additionally, it is very difficult to retrofit 
the current fleet with cooling towers due to both parasitic power 
capacity losses and due to physical space. Localized drought conditions 
and multiple dischargers of water can threaten to exceed the 
temperature limit of a receiving stream. In 2007 a major utility in the 
U.S. had to shut down its utility operation because the receiving 
waterbody's temperature could not tolerate the incoming water from the 
power plant. The confluence of population changes, density of 
population and location of manufacturing facilities will make this 
concern even more difficult in future years. New technologies or 
operational practices to reduce the effluent temperature from thermal 
power plants without causing parasitic power losses would be very 
helpful.
    For municipal power plants associated with APPA communities that 
have both electric and water utilities, it would also be helpful to 
find additional ways to reduce the costs of desalinization plants 
(whether simple distillation or reverse osmosis) using waste heat from 
the power plant. This research could include the use of grey water, re-
usable water, and even water that could be sufficiently cleaned for 
drinking water. Research in this area could provide communities with 
additional surface water which would be enormously beneficial.

The Legislation Should Insure Participation by States, Local 
                    Communities, and Stakeholders.

    Early in 2008, the State of Georgia adopted a Georgia Comprehensive 
Statewide Water Management Plan. The Georgia plan came about following 
an extensive stakeholder process involving agricultural and business 
interests, local governments, non-profit agencies, trade associations, 
and others. Under the guidance of Governor Purdue and Georgia 
Environmental Protection Division Director Dr. Carol Couch, the Georgia 
plan was approved by the State Water Council and the State General 
Assembly.\3\ Of particular note is that the Georgia plan was 
successfully developed in a state experiencing both drought conditions 
and strong economic growth.
---------------------------------------------------------------------------
    \3\ See http://www.georgiawatercouncil.org/index.html for the 
Georgia Comprehensive Statewide Water Management Plan and associated 
documents.
---------------------------------------------------------------------------
    The success of the Georgia plan process suggests some similar 
processes that may be beneficial to the proposed National Water 
Availability Research and Assessment Plan called for in the draft bill. 
For example, the bill should consider extending the duties of the 
National Water Initiative Outreach Office to specifically bring states 
and local communities into the federal Plan development process, 
earlier and more extensively. Likewise, consideration should be given 
to extending the duties of the Outreach Office to establishing a 
stakeholder group (those who may be affected by the research or its 
results) to provide input during the development of the federal Plan. 
These entities and groups should be able to provide valuable 
information (e.g., State and local plans already in place, ongoing 
research) to make the final federal Plan more efficient and effective.

New Energy-Related Water Use Issues: Biofuels

    Due to the recent influx of investments in ethanol to provide 
alternatives to fossil fuel based gasoline (and other fuels), it is 
expected that there will be enormous water use impacts of this increase 
in the use of biofuels. While APPA does not have an official position 
on the use of ethanol, the impact that adding corn harvesting and 
ethanol processing will have on water use and the energy nexus is 
important. As referred to earlier in my testimony, the DOE Energy-Water 
Roadmap stated:

         ``The potentially massive water demand posed by ethanol 
        production is a significant concern for those in the Central 
        region. New directions in national biofuels supply and demand 
        suggest that new research into techniques that do not require 
        crops grown with fresh water are needed.''

Hydropower Challenges

    According to Energy Information Administration (EIA) data from 
2006, hydropower accounts for almost 80 percent of renewable capacity 
in the United States. Hydropower has long been a vital piece of the 
United States electric utility industry and a driving force in the 
development of the economies in certain regions. Not only is hydropower 
a clean, efficient and renewable source of electric power, the dams 
themselves are multi-purpose in nature--providing flood control, 
irrigation, industrial and municipal water, and fish and wildlife 
habitat improvements. Finally, the dams also provide transportation and 
recreational benefits.
    Over 500 of the 2010 public power systems nationwide receive all or 
a portion of their power supply from the four federal Power Marketing 
Administrations (PMAs). The PMAs market federally generated hydropower 
from federal dams, and sell this hydropower to APPA members at cost-
based rates plus interest (to be used to repay the cost of building the 
dams). The purchase price for this hydropower also factors in O&M for 
the hydropower facilities on these multi-purpose dams. However, because 
the rates paid by APPA members to the PMAs must go back to the Treasury 
and be appropriated back out by Congress annually, the funds for O&M at 
these facilities have often been used for other purposes thereby 
leaving a need for significant rehabilitation at these facilities.
    The Bureau of Reclamation and the U.S. Army Corps of Engineers 
manage the dams and are responsible for the O&M for hydropower 
facilities at the dams. While we recognize that this committee does not 
manage the appropriations process, it is important to understand that 
by rehabilitating these hydropower facilities, a significant amount of 
zero-emissions, low-cost hydropower could be added to our generation 
mix without building another dam. Therefore, we hope that the Committee 
would support increases in the federal appropriations for O&M at the 
Bureau of Reclamation and Corps of Engineers to undertake these 
rehabilitations.
    Thank you for the opportunity to provide input into the bill 
development process. We hope that you will consider us as a resource 
for questions that may arise as the process moves forward.

Attachment

    APPA Comments to NERC on Reliability Impacts of Climate Change 
                              Initiatives

                             July 16, 2008
    APPA is the national association for the 2,000 State, municipal and 
other publicly owned electric utilities in the United States. APPA's 
membership also includes numerous multi-service utilities including 
irrigation districts. Approximately one-third of all public power 
utilities own and operate electric generation, including coal, oil and 
gas-fired, nuclear, hydro-electric and a variety of renewable energy 
facilities such as wind, geothermal and municipal solid-waste.
    APPA is concerned about the convergence of the numerous public 
power issues raised by climate change that create pressures to pick 
certain technology options and discard others prematurely before their 
operational and cost consequences are fully characterized. APPA 
anticipates increased physical, economic and political supply pressures 
in the competition for (relatively) cleaner energy sources and for 
access to related infrastructures such as local water supplies, gas 
pipeline capacity and rail transportation that are needed for electric 
generation. These tensions could create increased risks to electric 
system supply adequacy and operational reliability in the following 
seven areas:

1. The Dash for Gas and International Energy Demand Pressures. The most 
immediate risk to reliability has been called the ``dash for gas.'' 
Public policy decisions and market forces will likely cause many 
companies to choose the ``quick fix'' of fuel switching. These market 
forces include pressure on company stock prices and bond prices if they 
do not mitigate carbon risk in anticipation of public policy decisions 
by ``going green'' now. The United States has adopted such coal/gas/
coal/gas fuel switching policies several times before--and each such 
switch has had unintended consequences. The dash for gas in electric 
generation could create conflict with basic manufacturing industries 
that need reliable natural gas supplies as feed stocks and with 
widespread use of gas for space heating. Further, increased domestic 
reliance on imported liquefied natural gas (LNG) implies that U.S. 
natural gas demand will increasingly be driven by international oil and 
gas markets. See discussion below.

2. Replacement of Generation Retired Due to Climate Change. The second 
risk to reliability arises from the need to rapidly replace the base 
load power supplied from generating capacity that is likely to be 
retired in the near future due to the combined effects of equipment age 
and regulatory requirements to reduce CO<INF>2</INF> emissions. 
Continued reliance on coal for power generation implies that the 
utility industry will need to install over 100 GW of new capacity to 
replace existing conventional steam-electric capacity (with no 
additional capacity to meet forecast demand growth).

3. Parasitic Losses from CO<INF>2</INF> Capture and Compression. The 
third reliability risk identified by APPA results from the enormous 
parasitic energy demands associated with CO<INF>2</INF> capture and 
compression. Research sponsored by APPA indicates that the Nation will 
need to install as much as 320 GW of additional generating capacity to 
meet the parasitic losses associated with CO<INF>2</INF> capture and 
compression systems at existing coal-fired power plants. While the loss 
factors for some new technologies may be as low as 30 percent, the 
parasitic losses associated with retrofitting existing conventional 
coal-fired plants are as much as 50 percent of total gross output. By 
way of comparison, roughly 100 GW of capacity might be needed to meet 
the parasitic losses associated with SO<INF>2</INF> scrubbers and NOX 
selective catalytic reduction systems under the Clean Air Interstate 
Rule (CAIR), which was vacated by the D.C. Circuit Court. See 
discussion of CCS issues below.

4. Generation Outages from Rapid Deployment of New CO<INF>2</INF> 
Control Technologies. The fourth risk to reliability associated with 
climate change is the move to CO<INF>2</INF> control technologies that 
have not been fully developed beyond small scale demonstration 
projects. Commercial scale projects will undoubtedly raise numerous 
logistical, technical and cost factors that are as yet not well 
understood. Until shown otherwise, it is unreasonable to assume that 
planned and forced outage frequencies and durations for new generation 
and carbon control technologies are in any way similar to the much 
lower outage rates for mature conventional generation technologies. 
Particularly for coal-fired generation in conjunction with CO<INF>2</INF> 
capture, compression and permanent storage, the critical skill sets and 
technology requirements to permit, build, own, operate and maintain 
such a facility are more similar to those required for a major chemical 
plant than a conventional steam-electric power station. See discussion 
of CCS issues below.

5. Non-Electric Infrastructure Required for Large-Scale Carbon Capture 
and Sequestration. All new technologies for controlling CO<INF>2</INF> 
for climate change purposes rely heavily upon new non-electric 
infrastructure that must be built in order to complete the process of 
safely injecting and storing CO<INF>2</INF> in geologic formations. An 
extensive network of new pipelines and rail for transportation of 
chemicals required for carbon capture, pressurization and storage will 
be required. Nearly all existing coal-fired plants and most new plants 
that intend to capture, pressurize and inject CO<INF>2</INF> into 
geologic formations will be forced to transport such pressurized 
CO<INF>2</INF> by pipeline to remote locations. See discussion of CCS 
issues below.

6. Heavy Reliance on Remote and Intermittent Renewable Energy Sources. 
Heavy increased reliance in many regions of the United States on 
renewable energy sources that are remote from load centers and/or 
intermittent or variable in their output characteristics may pose 
reliability risks. A major build-out of EHV transmission is required to 
ensure the deliverability of wind and other generation to major 
regional load centers. The alternative, which entails very, very heavy 
reliance on renewable generation in the subregions where it is 
produced, is likely to introduce new operational problems for the 
interconnected grid. System operators and renewable energy operators 
may be forced to curtail significant amounts of otherwise economic and 
environmentally beneficial generation in source regions. Particularly 
where wind output is counter to the daily and seasonal patterns in 
customer load, NERC's analyses should take into account the potential 
operational risks of high penetration levels of wind generation in 
particular subregions. APPA anticipates that the report of the NERC 
Operating Committee's task force on variable resource integration will 
fully describe many of these issues; however, the combined effects of 
all five of the risks to reliability associated with climate change 
mitigation will be very difficult to foresee.

7. Competition for Scarce Water Supplies. Population and economic 
growth in more arid regions of the United States, depletion of ground 
water supplies, and increased risk of drought due to climate change all 
increase the general scarcity of water. Further, new generation 
technologies may compound these factors, by significantly increasing 
the per MWh water requirements for power generation. These factors 
increase the difficulties encountered in siting of new plants and 
meeting operating restrictions for existing plants. See discussion 
below.
    APPA has developed a series of white papers to address some of the 
technology, legal and public policy issues associated with carbon 
capture and storage. These APPA white papers, which are offered for 
NERC's use in its assessment of the Reliability Impacts of Climate 
Change Initiatives, are publicly posted at: http://www.appanet.org/
files/HTM/ccs.html

         L.D. Carter, ``Carbon Capture and Storage From Coal-based 
        Power Plants: A White Paper on Technology for the American 
        Public Power Association (APPA),'' May 2007 [pdf]

         L.D. Carter, White Paper, ``Retrofitting Carbon Capture 
        Systems on Existing Coal-fired Power Plants,'' November 2007. 
        [pdf]

         Jonathan Gledhill, Policy Navigation Group; James Rollins, 
        Policy Navigation Group; Theresa Pugh, APPA, White Paper, 
        ``Will Water Issues/Regulatory Capacity Allow or Prevent 
        Geologic Sequestration for New Power Plants? A Review of the 
        Underground Injection Control Program and Carbon Capture and 
        Storage,'' November 2007. [pdf]

        <bullet>  Marianne Horinko, White Paper, ``Carbon Capture and 
        Sequestration: Legal and Environmental Challenges Ahead,'' 
        August 2007 [pdf]

Issue 1--The Dash for Gas and International Energy Demand Pressures

    In an April 2008 white paper entitled, ``Natural Gas and 
Electricity Costs and Impacts on Industry,'' the U.S. Department of 
Energy's National Energy Technology Laboratory (NETL) reported that 
opposition to new coal-based power plants is leading to generation 
capacity shortages in many areas of the country and endangering U.S. 
energy security. The opposition is also inducing a ``dash to gas'' and 
quickly causing a rise in natural gas prices at a time when federal 
climate change legislation could immediately lead to a doubling of 
natural gas consumption for power generation. This legislation would 
increase the country's dependence on foreign energy sources in the form 
of liquefied natural gas (LNG) causing both natural gas and electricity 
prices to increase dramatically.
    NETL also describes how coal has protected consumers from even 
higher natural gas prices. Unfortunately, the current opposition to 
continued reliance on coal will help ensure that U.S. natural gas 
prices continue to rise toward parity with the price of oil. Such 
increases in natural gas prices could cause trade-exposed sectors of 
U.S. industry to shut in production, particularly when faced with coal-
powered competitors in China or regions like the Middle East, where 
cheap natural gas reserves supply power needs. NETL estimates that by 
2016, the absence of 18 GW of currently forecasted new coal-based power 
plants would mean additional natural gas demand of 1.4 Tcf/year, 
equivalent to almost all of the Nation's presently forecasted LNG 
supply growth.
    If actual electricity growth is higher, as forecasted in U.S. 
Energy Information Administration's latest Annual Energy Outlook (AEO), 
up to an additional 2.3 Tcf of natural gas for generation will be 
needed.

Foreign Uses of Natural Gas

    The recent trend of increasing reliance of imports of LNG from 
overseas is expected to continue. Recently, there has been major 
expansion of LNG terminals in the United States, and the capacity to 
import LNG is expected to double in the near future. As can be seen by 
the figure (below) from EIA, the amount of natural gas imported from 
Canada and Mexico is decreasing, and the amount imported from overseas 
as LNG has been increasing and is predicted to continue that rise. The 
United States will be competing with other countries for this LNG on 
the open market. As the energy needs of developing countries continue 
to increase, the demand for this LNG will increase as well, potentially 
leading to less LNG imports into the U.S. and higher prices.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Issues 3, 4 and 5--The Complex Configurations of New Power Plants with 
Carbon Capture and Storage Will Pose New Risks for Infrastructure 
Reliability

    All of the new technologies discussed at major technical 
conferences for injecting CO<INF>2</INF> into geologic formations for 
climate change mitigation purposes rely heavily upon new industrial and 
transportation infrastructure that must be built in order to complete 
the process of safely injecting and storing CO<INF>2</INF> in geologic 
formations. These include product pipelines to get enormous volumes of 
ammonia, H<INF>2</INF>S, and other chemical solvents to the new power 
plants for carbon separation. These are chemicals that have either 
never been used at power plants or never at this scale. These 
additional infrastructure demands on rail lines, given current 
``captive rail'' concerns, may well create electric reliability risks 
if the entire infrastructure does not work seamlessly. Like the 
creation of a national highway system for surface transportation of 
commodities and people, the new CCS technology at power plants will 
require a very sophisticated infrastructure of chemical products 
delivered by surface shipping, barges and trains to CCS-equipped power 
plants. Some CCS plants may even require construction of chemical 
delivery pipelines that have traditionally only been constructed to 
serve refineries, natural gas production plants or other industrial 
facilities. Assuming that CCS is the technology chosen at new power 
plants, water treatment of produced waters (the byproduct of produced 
water from geologic formations) as well as salt and ammonia disposal 
must be undertaken on a scale never seen before in the U.S.
    Most power plants with CCS will operate as though they are 
refineries with extractive businesses on-site alongside product 
movement through pipelines and rail cars. The electric power industry 
will be required to address and develop new ``just in time'' 
manufacturing techniques and relationships with suppliers and 
pipelines. Any failure of ammonia transport or CO<INF>2</INF> movement 
through pipelines to geological storage facilities could easily cause 
power plant shutdowns--a new class of reliability risks not yet seen in 
the power sector.
    Power plants with carbon separation and geologic storage of 
CO<INF>2</INF> raise a host of new technology issues with as yet 
unknown reliability impacts. Future power plants with CCS will be 
dependent upon the chemical and chemical transportation industries. CCS 
reliability and economics depend on the ability to continually inject 
CO<INF>2</INF> into geologic formations throughout the lifetime of the 
power plant. This critical assumption has not yet been tested in the 
gas volumes likely to be produced by major power plants. The 
presumption that CO<INF>2</INF> can be injected in situ at a new power 
plant with two 500 MW units for the next 60 years is a huge leap of 
faith. Since none of these new power plants has yet been permitted, it 
is not clear if there will be provisions for ``start up, shut down and 
maintenance'' or for times when the CO<INF>2</INF> must be vented to 
allow for the power plant to run fully if there is a problem with the 
carbon separation technology or carbon injection technologies. New 
carbon dioxide control technologies will create highly complex power 
plants that function with chemical processes at very high temperatures 
and under intense pressures. Similar batch chemical plants often prove 
to have complex maintenance issues. The figure below illustrates some 
of the complexity associated with an IGCC plant, with carbon capture 
and storage technologies.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Although the illustration shows one ammonia delivery system, some 
power plants might require ammonia product pipelines or other ammonia 
delivery methods. The size and proximity to a chemical plant may 
dictate delivery method and cost. If all of the necessary product 
deliveries do not take place as scheduled, the plant might not be able 
to operate reliably without recurring unplanned outages.
    The map shown below illustrates how few pipelines exist today to 
transport the CO<INF>2</INF> to locations for currently permitted 
injection (oil and gas recovery locations). In contrast to the 
substantial networks for rail delivery for coal and transmission of 
natural gas and electricity, most of the U.S. has no existing 
transportation system to deliver CO<INF>2</INF> to locations suitable 
for geological injection. This infrastructure must be built and provide 
a highly reliable and predictable delivery system.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Scheduled and Unscheduled Outages:

    Reliability across the U.S. grid is inextricably linked to the 
frequency and duration of generating unit outages--whether planned or 
unplanned. Current IGCC technology has evidenced considerably longer 
planned outages than conventional power plants, which in retrospect 
seems unsurprising since IGCC coal gasification plants look and 
function much more like refineries than power stations. Anecdotal 
conversations about maintenance issues for IGCC technology for 
manufacturing and power production currently indicates an annual 
planned outage rate of up to 60 days per year. While future coal 
gasification plants (IGCC) may well improve on this scheduled down 
time, these scheduled outages remain a concern for APPA if gasification 
technology becomes the dominant form of coal based generation.
    Since no commercially demonstrated carbon separation and 
geosequestration company exists anywhere in the world, it is impossible 
to predict outage rates for these new technologies or whether the 
planned and unplanned maintenance of CCS systems within the power plant 
would lead to a significantly greater number of scheduled and 
unscheduled outages and a reduction in total plant availability and 
capacity factors. But since few new technologies are as reliable during 
their early years of operation as proven existing technologies for 
which we have extensive operation and maintenance experience, caution 
and conservatism is advised.

Issue 7--Energy and Water Interdependencies

    In December, 2006, the U.S. Department of Energy released a report 
titled: Energy Demands on Water Resources: Report to Congress on the 
Interdependency of Energy and Water. DOE found that: ``Water is an 
integral element of energy resource development and utilization. It is 
used in energy-resource extraction, refining and processing, and 
transportation. Water is also an integral part of electric-power 
generation. It is used directly in hydroelectric generation and is also 
used extensively for cooling and emissions scrubbing in thermoelectric 
generation. For example, in calendar year 2000, thermoelectric power 
generation accounted for 39 percent of all freshwater withdrawals in 
the U.S., roughly equivalent to water withdrawals for irrigated 
agriculture (withdrawals are water diverted or withdrawn from a 
surface-water or groundwater source) (Hutson et al., 2004). Water 
withdrawal statistics for thermoelectric power are dominated by power 
plants that return virtually all the withdrawn water to the source. 
While this water is returned at a higher temperature and with other 
changes in quality, it becomes available for further use. Many power 
plants, including most of those built since 1980, withdraw much less 
water but consume most of what they withdraw by evaporative cooling. In 
1995, agriculture accounted for 84 percent of total freshwater 
consumption. Thermoelectric power accounted for 3.3 percent of total 
freshwater consumption (3.3 billion gallons per day) and represented 
over 20 percent of non-agricultural water consumption'' (Solley et al., 
1998).
    As the figure below suggests, there are many counties in the U.S. 
(shown in red in the figure below) where the annual groundwater 
withdrawals exceed the amount of precipitation, implying that local and 
regional aquifers will not be able to be recharged. Population growth, 
agriculture and electric power generation will likely be viewed by the 
public as competing users of scarce water supplies, particularly during 
the permitting process for new generation.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As shown in the map shown above, the U.S. Census Bureau predicts 
dramatic increases in population over the next 20 years, particularly 
in parts of the mountain west, the west coast, Texas, and the 
southeast. These increases in population will likely mean considerable 
increases in electricity usage and summer peak demands. Many of these 
areas also face severe pressures on water supplies.
    Further complicating the limited availability of water is the fact 
that that new fossil electric generation technologies require a minimum 
of twice the water that existing plants use, as shown in the figure 
shown below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


How is Water Availability Connected to Reliability?

    If we have a lack of water, that will create a reliability concern 
as it will be difficult to build new plants, and existing plants may be 
required to reduce their operations/shed load if there is insufficient 
water in the river for thermal cooling. For example, a large baseload 
plant in the Southeast U.S. had to cease operations for five days due 
to the high temperature of the receiving water body. Power plant water 
releases would have violated their discharge permit requirements. 
Similarly, several years ago, a severe drought in the upper great 
plains (coupled with directives to maintain water flows to support 
barge traffic) forced numerous fossil-fired plants located on the 
Missouri River to shut down or operate at reduced output levels.

                    Biography for Bradley H. Spooner
    Brad serves as Principal Engineer, Environmental Services for MEAG 
Power in Georgia. He manages environmental permitting and compliance 
for MEAG's fossil fuel units, develops strategies for MEAG to meet 
future environmental requirements, and works with regulatory and 
legislative bodies to insure that future requirements reflect sound 
science and public policy.
    Brad chairs the American Public Power Association's Energy and Air 
Quality Task Force and Air Regulatory Committee and represents MEAG on 
the Large Public Power Council's Environmental Task Force.
    Brad is a registered professional engineer and a member of the bar. 
He has a B.S. in Electrical Engineering with high honors from the 
University of Rhode Island, an M.S. in Engineering Management from 
Northeastern University, and J.D. cum laude from Suffolk University Law 
School.

    Chairman Lampson. I think we will. Thank you very much. And 
recognizing, via teleconference, we have Dr. Hatch. You are 
recognized for five minutes.

    STATEMENT OF DR. UPTON HATCH, PRESIDENT-ELECT, NATIONAL 
   INSTITUTES FOR WATER RESOURCES; ASSOCIATE DIRECTOR, WATER 
  RESOURCES RESEARCH INSTITUTE, UNIVERSITY OF NORTH CAROLINA; 
  RESEARCH PROFESSOR, DEPARTMENT OF AGRICULTURAL AND RESOURCE 
           ECONOMICS, NORTH CAROLINA STATE UNIVERSITY

    Dr. Hatch. Chairman Lampson, Representative Inglis, I hope 
the AV is working sufficiently. I am Upton Hatch, the Interim 
Director of the North Carolina Water Resources Research 
Institute, located in North Carolina State. I am also 
President-Elect of the National Institute of Water Resources, 
or NIWR. I appreciate this opportunity, and I apologize. We are 
hosting an annual conference of the University Council Water 
Resources here in Durham.
    As an academic, my degrees are from Dartmouth, Georgia, and 
Minnesota, all in economics, particularly water resource 
economics, and my research currently is focusing on the 
effectiveness of water conservation measures and efficiency.
    I am testifying on the part of NIWR, which is an 
organization of 54 institutes, 50 states, and four territories. 
It was created by the Water Resources Act of 1964. It has been 
continuously funded since then, but inflation adjusted dollars 
have actually declined quite dramatically. In authorizing these 
institutes, Congress' intent was to increase the amount of 
research conducted in the water area, aiding the entry of new 
scientists, also to train new scientists, and distribute the 
results of the sponsored research to the water managers and the 
general public. It was recently, in 2006, reauthorized.
    The Water Resources Institute received core funding from 
the U.S. Geological Survey, and this core funding is a 
dependable source of funding that is leveraged on the order of 
five or ten to one, with other federal agencies, State, and 
also some local groups. And we strongly support this idea of 
better coordination.
    As has been suggested by others, there have been three well 
known reports that we support strongly, the so-called SWAQ 
Report, and the 2001 and 2004 NRC studies. Just without going 
through all the results there, of course, several major points 
jump out. The condition of the water resources in many parts of 
the United States and the world are deteriorating. Our 
institutions that can balance the ecological, environmental 
types of needs for water, and also, human needs are not 
sufficient. Obviously, population growth and competing uses for 
the water are a major problem.
    In the Southeast, where I grew up, most of the 
infrastructure was built in the '60s, and obviously, the 
population has increased dramatically in that area. And also, 
there is the climate issue. So, I guess you might say the major 
issues in my mind would be the competing uses, the population 
growth, the age of the infrastructure, and the lack of 
coordination, and stagnant financial support at the federal 
level.
    It is interesting that the NRC report did say that we need 
to make a new commitment to research on water resources, and we 
need a new mechanism is needed to coordinate water research, 
currently fragmented among approximately 20 federal agencies. 
In the NRC report, there were several research areas that were 
focused, although there were 43 in total. Just a couple of 
those would be water supply enhancing technologies, 
understanding land use change, doing a better job of 
measurement and monitoring, understanding the frequency and 
cause of severe weather and climate, global climate change, 
economic returns to these competing uses, our legal regimes, 
adaptive management, the role of the private sector, and also, 
doing a better job of getting stakeholder input.
    Federal involvement in water resources is particularly 
important, because watersheds, or water drainage areas, if you 
will, don't conform to State boundaries, and so, we inevitably 
end up with contentious situations among the various states 
that share a watershed. Also, research from one state is 
obviously applicable to research or to solutions in another 
state. So, we have a classic public goods situation.
    In North Carolina, our recent droughts have made it clear 
that it is rainfall, to some extent, that causes our problems, 
but it is not just rainfall. Our technologies and our 
management of these competing uses is crucial, and the 
coordination among federal and State groups that represent 
these competing uses is a very important area that I believe 
this legislation targets.
    It is also, I think, interesting to pull forth from the NRC 
report, and actually, read a quote here: ``The World Resource 
Research Institute system,'' which is NIWR, ``provides an 
existing, well organized mechanism for articulating State-based 
research needs, and for bringing together water managers, 
stakeholders across a wide cross section of the public, and 
academic researchers and academic institutions throughout each 
state. . .the institute system can provide an effective means 
for communication between, for example, a national level 
research coordination body,'' which is similar to what we are 
proposing, or is being proposed today, ``and State and regional 
water resource agencies.''
    I would like to conclude by saying that WRRI or NIWR is 
uniquely positioned to address this initiative, or to assist 
because, as mentioned by several of our earlier speakers, high 
quality, unbiased research results are crucial. And also, long-
term and multidisciplinary work is also useful. And the 
flexibility and adaptability to local conditions is another 
aspect that WRRI can help provide.
    It can also go from institutional to technical solutions, 
and the full spectrum there. It has an established network that 
has been working over 40 years now, and is good at addressing 
regional issues. The education, the students who have graduated 
and developed their expertise through this program. I don't 
have an exact number, but we have about 50 right now in North 
Carolina that are currently being supported in some fashion by 
the Institute, and we can then multiply by the 50 states, and 
get some kind of notion as to the level of support that this is 
providing to students.
    Also, I think the Institutes have experience in assessing 
priorities, assisting in increasing the efficiency of water 
resource investments. And as mentioned earlier, high quality 
data is very much the hallmark of the Water Resources 
Institutes.
    So, I would like to, first, I would like to express my 
appreciation for being involved in this, and I apologize for 
this AV situation we have here, but we strongly support this 
initiative, and we agree that something over than an ad hoc 
process that has been mostly done in the past is needed.
    Thank you very much.
    [The prepared statement of Dr. Hatch follows:]
                   Prepared Statement of Upton Hatch
Mr. Chairman and Representative Inglis,

    My name is Upton Hatch. I am the Interim Director of the North 
Carolina Water Resources Research Institute (NC WRRI), located at North 
Carolina State University. In addition, I am President-Elect of the 
National Institutes for Water Resources (NIWR).
    I appreciate this opportunity to participate in this hearing on 
proposed legislation, ``National Water Research and Development Act,'' 
today by video conference. I am unable to provide this testimony in 
person because we are co-sponsors of the annual meeting of the 
Universities Council on Water Resources (UCOWR) today here in Durham, 
NC.
    My academic degrees are from Dartmouth College (B.A.), University 
of Georgia (M.S.), and University of Minnesota (Ph.D.), all in 
economics, particularly resource economics with a specialty in water 
resource economics. I am currently involved in research on the 
effectiveness of water conservation measures, particularly drinking 
water, and have established water conservation as a major focus of NC 
WRRI's program.
    I am testifying today on behalf of the National Institutes for 
Water Resources (NIWR), an organization composed of the fifty-four 
State water resources research institutes established under legislation 
enacted by Congress. The Water Resources Research Act of 1964 (42 USC 
Sec. 10301 et seq.) authorized the establishment of water resources 
research and technology institutes at land-grant universities 
throughout the Nation. There are institutes or centers in each of the 
50 states, plus four territories.
    In authorizing the water institutes, Congress intended that they:

        <bullet>  arrange for competent research that addresses water 
        problems or expands understanding of water and water-related 
        phenomena;

        <bullet>  aid the entry of new research scientists into water 
        resource fields;

        <bullet>  train future water scientists and engineers; and

        <bullet>  distribute the results of sponsored research to water 
        managers and the public.

    Congress reauthorized the Act in 2006 in Public Law 109-471.
    While the State WRRIs receive core funding through and partner with 
the U.S. Geological Survey (USGS), they also collaborate and undertake 
research with a diverse set of federal agencies, e.g., Environmental 
Protection Agency, Agriculture Department, Forest Service, Army Corps 
of Engineers, NASA, and the Energy Department.
    Copies of the 2008 Executive Summary of the activities institutes 
established under provisions of the Water Resources Research Act has 
been provided to the Subcommittee with my prepared statement.
    I understand this hearing is to develop legislation to better 
coordinate the Federal Government's role in ``designing and 
implementing federal water research, development, demonstration, 
education, and technology transfer activities to address changes in 
water use, supply, and demand in the United States.''
    As you know, the National Science and Technology Council issued a 
report in September 2007 entitled ``A Strategy for Federal Science and 
Technology to Support Water Availability and Quality in the United 
States.'' The interagency report was prepared by the Subcommittee on 
Water Availability and Quality (SWAQ). We strongly support the findings 
of this report.
    In 2001 and 2004, two seminal National Research Council (NRC) 
reports (``Envisioning the Agenda for Water Resources Research in the 
Twenty-First Century'' and ``Confronting the Nation's Water Problems: 
The Role of Research'') thoroughly examined the urgency and complexity 
of water resources issues facing the U.S. Among others, the following 
water resources challenges were cited as motivation for these studies:

        <bullet>  There is abundant evidence that the condition of 
        water resources in many parts of the U.S. and the world is 
        deteriorating;

        <bullet>  Our institutions appear to have limited capacity to 
        manage water-based habitats to maintain and improve species 
        diversity and provide ecosystem services while concurrently 
        supplying human needs;

        <bullet>  In some regions of the country, the availability of 
        sufficient water to service growing domestic uses is in doubt, 
        as is the future sufficiency of water to support agriculture in 
        an increasingly competitive and globalizing agricultural 
        economy;

        <bullet>  Demands for water resources to support population and 
        economic growth continue to increase, although water supplies 
        to support this growth are fixed and already fully allocated in 
        most areas;

        <bullet>  Renewal and repair of the aging water supply 
        infrastructure will require time and hundreds of billions of 
        dollars;

        <bullet>  Frequency and magnitude of damages attributable to 
        droughts and floods are increasing, providing evidence of 
        increasing vulnerability to extreme climate and weather events;

        <bullet>  Threat of water-borne disease is constantly present, 
        as exemplified by recent outbreaks of cryptosporidium.

    This NRC report highlighted the Nation's need ``to make a new 
commitment to research on water resources in order to confront the 
increasingly severe water problems faced by all parts of the country'' 
and that ``a new mechanism is needed to coordinate water research 
currently fragmented among nearly 20 federal agencies.''
    There are many critical areas where knowledge and information need 
improvement for better water resources management. The cited NRC 
reports developed a comprehensive list of 43 areas needing further 
scientific inquiry. Selected (unranked) examples are:

        <bullet>  Improve existing supply enhancing technologies such 
        as wastewater treatment, desalinization, and groundwater 
        banking;

        <bullet>  Understand the impact of land use changes and best 
        management practices on pollutant loading to waters, ecosystem 
        services, and biodiversity;

        <bullet>  Understand regional and national hydrologic 
        measurement needs and develop a program that will provide these 
        measurements;

        <bullet>  Understand and predict the frequency and cause of 
        severe weather (floods and droughts);

        <bullet>  Understand global change and the associated 
        hydrologic impacts;

        <bullet>  In all sectors develop more efficient water use 
        strategies and optimize the economic return for the water used;

        <bullet>  Develop legal regimes that promote groundwater 
        management and conjunctive use of surface water and 
        groundwater;

        <bullet>  Develop adaptive management as a better approach to 
        water resources management;

        <bullet>  Understand the role of the private sector in 
        achieving efficient water and wastewater services; and

        <bullet>  Develop different processes for obtaining stakeholder 
        input in forming water policies and plans.

    These areas are examples of the need to improve our current 
understanding on the interdependence of water quantity and quality; the 
balance between human and ecological water uses; and the legal, 
institutional, and social factors that contribute to sustainable water 
resources management.
    Why should the Federal Government lay the funding cornerstone for 
water research? In the first place, water resources are defined by 
physical geography and not by State boundaries. The vast majority of 
water problems are of regional or national character. Even those of 
limited scope are usually very similar between states. Hence, research 
funding at the federal level, with results transferred nationwide, is 
the only truly comprehensive and efficient approach. In the second 
place, water research epitomizes the economic concept of a public good. 
As such, State and local governments and private entities will not 
produce as much of it as is justified by the overall value of the 
results.
    My own State of North Carolina, Mr. Chairman, is presently in the 
second year of an unprecedented drought, rapidly depleting our water 
supplies, halting our economy, threatening the sustainability of 
aquatic ecosystems, and increasing tensions among water users in our 
state and across the borders with South Carolina and Virginia. While 
droughts are the result of a natural climate cycle, drought stresses 
and impacts reach a new height with every new drought as urban, 
industrial, and agricultural water demands rise steadily. North 
Carolina, as well as most U.S. regions, is not well prepared to 
effectively manage these unprecedented water stresses. The main reasons 
for the lack of preparedness are symptomatic across the U.S. and 
include:

        <bullet>  Lack of comprehensive knowledge and information on 
        the interdependencies of natural processes and water uses;

        <bullet>  Narrow perspective on the part of water user groups 
        acting to protect their short-term interests with total 
        disregard of long-term risks; Lack of a shared and system-wide 
        management vision and strategy;

        <bullet>  Lack of federal and State agency coordination and 
        cooperation; Inflexible legal and institutional bureaucracies;

        <bullet>  Insufficient federal and State research investments 
        for the development and implementation of innovative, adaptive, 
        and integrated management technologies, systems, and processes; 
        and

        <bullet>  Weakening of water resources research and education 
        programs which are naturally suited to integrate knowledge 
        across disciplines and create human resources qualified to 
        develop sustainable solutions for our complex water resources 
        challenges.

    I would like to briefly comment on each of these areas.
    Knowledge and information: There are many critical areas where 
knowledge and information need improvement for better water resources 
management. The above cited NRC reports developed a comprehensive list 
of 43 areas (listed above) needing further scientific inquiry. These 
areas exemplify the need to improve our current understanding on the 
interdependence of water quantity and quality; the balance between 
human and ecological water uses; and the legal, institutional, and 
social factors that contribute to sustainable water resources 
management.
    While there is a lot to learn, a lot is already known and can 
significantly benefit water resources planning and management. However, 
making this knowledge and information meaningful for and accessible to 
those involved in decision-making processes has proved to be another 
very serious challenge. Paradoxically, in spite of our information age, 
water resources policy-makers, managers, and stakeholder groups are 
becoming ever more removed from current scientific and technological 
advances. There is thus a compelling need to establish and invest in 
effective information and technology transfer mechanisms.
    Local vs. system-wide perspectives: Water stresses are often 
compounded by the efforts of individual stakeholders acting to 
safeguard their own local interests without regard for the long-term 
risks of such actions. A local and short-term perspective by each water 
user group sharing the resource cannot be sustainable and only serves 
to hasten the depletion of water reserves and the onset of disastrous 
impacts for all. The same ``tragedy of the commons'' scenario is likely 
to occur when water uses and impacts are planned and managed 
individually, without regard for their multiple temporal and spatial 
linkages. It is thus imperative that the proposed Initiative take a 
holistic perspective in the development of a comprehensive national 
water strategy.
    Federal and State agency coordination and cooperation: Water 
resources management falls within the mandates of several federal 
agencies including EPA, NASA, and NSF and various Departments such as 
Agriculture, Commerce, Defense, Energy, Health and Human Services, 
Homeland Security, and Interior. Further complicating water management, 
monitoring and oversight responsibilities are found within different 
groups of these departments, for example, ARS, NOAA, CORPS, USGS, 
ATSDR, NIEHS, and USBR. In reviewing the existing federal coordination 
mechanisms, the 2004 NRC report concluded that ``coordination among 
agencies has occurred only sporadically over the last several decades, 
despite repeated calls for more coordination.'' As a result, the 
national water resources agenda among the federal agencies is 
fragmented and has a disciplinary rather than a broad and holistic 
scope. Furthermore, although the states adjudicate, administer, and 
regulate water rights and uses, federal and State agencies must work 
together to ensure harmonization of and compliance with federal and 
State laws in the management of transboundary water resources. However, 
the existing coordination and cooperation mechanisms, if any, have been 
ineffective, and more often than not turn water conflicts and disputes 
into costly litigious battles.
    Lack of investments in integrated and adaptive management: A 
striking finding of the 2004 NRC report was that over the last 30 years 
total funding in the areas of (1) water supply augmentation and 
conservation, (2) water quality management and protection, (3) water 
resources planning and institutional issues, and (4) water resources 
data collection have severely declined. As a result, long-term basic 
research and technology transfer in integrated and adaptive water 
resources planning and management have been neglected, and the majority 
of our water resources are managed by reactive, disciplinary, and 
inefficient methods and procedures. The main impediments in the use of 
modern management methods are: (1) inflexible bureaucracies that have 
evolved around the use of old management procedures and (2) inadequate 
training of agency personnel. Thus, a promising and largely unexplored 
strategy to address water scarcity is the modernization of the current 
management procedures through recent but proven scientific advances, 
transferred to professional practice through education and training.
    Water resources research and educational programs: The other 
casualty of declining funding has been the weakening of our water 
resources research and educational programs. At a time when 
universities increasingly depend on ``soft'' funding, faculty positions 
and student support have migrated to other higher priority areas. In 
sharp contrast to the 60's, 70's, and early 80's, very few academic 
programs can now claim significant expertise in water resources. This 
is not to imply that academic programs are shrinking. On the contrary, 
they are expanding, as they should, to cover much finer and very 
exciting frontiers of geophysical, environmental, and life sciences. In 
doing so, however, universities have lost their commitment to 
interdisciplinary education and are becoming over-specialized. An 
important role that water resources programs can play is to provide a 
scientific and policy framework for interdisciplinary research, 
education, and technology transfer. Such a framework is necessary to 
create broadly educated scientists, engineers and policy-makers able to 
invent technological and institutional solutions for the Nation's water 
resources and environmental challenges.
    In this regard, the WRRI provides a unique network to address the 
challenges of interdisciplinary research, education, and technology 
transfer. However, the institutes cannot fully realize their potential 
at the current low rate of federal and State investment. I hope that 
the Initiative proposed here will also address the need for sustainable 
and sufficient funding needed to reverse the continued weakening of our 
water resources programs.
    The NRC report also notes the need for a systems approach to water 
resources research, to avoid the ``myopia'' of limited jurisdictions or 
agency missions. Universities have a unique ability and range of 
disciplinary expertise necessary to take the broad view of water issues 
and to probe their resolutions. Universities, and WRRI in particular, 
are uniquely situated to facilitate information exchange between State 
and local government agencies, non-governmental organizations and the 
private sector, and whatever federal body might be designated to 
coordinate federally-sponsored research.
    As the NRC report notes, ``The Water Resources Research Institute 
system . . . provides an existing, well-organized mechanism for 
articulating State-based research needs and for bringing together water 
managers, stakeholders across a wide cross section of the public, and 
academic researchers and academic institutions throughout each state.'' 
As such, ``. . . the institute system can provide an effective means of 
communication between, for example, a national-level research 
coordinating body and the State and regional water resources 
agencies.'' In addition to State and local agencies and non-
governmental organizations, the institutes already have close ties to 
State-based offices of Federal Government agencies.
    WRRI welcomes the opportunity to work with this committee and with 
this subcommittee to address water resource issues. WRRI is uniquely 
positioned to assist in the proposed Initiative because:

        <bullet>  WRRI program is not limited by a policy-driven or 
        regulatory mission and thus can address the entire spectrum of 
        water resources issues, including gaps between government 
        agencies. By focusing on science, the program serves as an 
        objective broker of information among a wide range of 
        constituencies.

        <bullet>  University-based institutes are conducive to 
        examining long-term consequences of policies and recognizing 
        long-term problems, with access to expertise in all water-
        related disciplines.

        <bullet>  The WRRI program can be more flexible in addressing 
        emerging problems and more adaptable to local cultures, 
        institutions of governance, and regional socioeconomic and 
        physical conditions.

        <bullet>  Institutes and academic researchers are more likely 
        than mission-driven agencies to consider institutional, in 
        addition to technical, solutions.

        <bullet>  NIWR is an established network of immense and 
        geographically diverse capabilities on the cutting edge of 
        virtually every facet of water resources. The network 
        facilitates regional as well as State and local cooperation.

        <bullet>  The Institutes provide hands-on educational 
        opportunities to develop the highly trained workforce necessary 
        to build our national capacity for sustainable water resource 
        management.

        <bullet>  Technology transfer programs at each Institute 
        provide scientifically credible communication of research needs 
        and results upward from the states and localities to federal 
        agencies and downward from these agencies to users of research 
        results.

        <bullet>  Institutes are experienced in assessing priorities 
        for research, having established Technical Advisory Committees 
        with representatives from virtually all interested agencies and 
        non-governmental organizations.

        <bullet>  WRRI Program provides information to increase the 
        efficiency of federal water resources research investment by 
        identifying research gaps and avoiding redundancies.

        <bullet>  WRRI Program provides funding to fill research gaps 
        to improve the effectiveness of water resources management.

        <bullet>  WRRI Program includes a quality-review process 
        (similar to GPRA requirements) with mandated reviews every 
        three years. Institutes are held accountable for expenditures 
        as well as for the quality and relevance of scientific results 
        and the vigor of outreach programs.

    Mr. Chairman, thank you for this opportunity to participate in 
today's hearing. I applaud and encourage efforts by our federal and 
State-elected leadership to develop new policies and programs to meet 
the water challenges we face in the Twenty-first Century. I know I 
speak for my fellow directors of the State water resources research 
institutes when I say we are anxious to work with you and other 
stakeholders to address the water challenges we face in the future 
through research, education and training, and information transfer and 
exchange.

                       Biography for Upton Hatch
    Upton Hatch is Interim Director of the North Carolina Water 
Resources Research Institute, located at North Carolina State 
University. He is President-Elect of the National Institutes for Water 
Resources (NIWR). His academic appointment at North Carolina State 
University is in the Department of Agricultural and Resource Economics. 
His degrees are from Dartmouth College (B.A.), University of Georgia 
(M.S.), and University of Minnesota (Ph.D.), all in economics, 
particularly resource economics with a specialty in water resource 
economics. He is Professor Emeritus of Auburn University and former 
Director of the Auburn University Environmental Institute and the 
Alabama Water Resources Research Institute. His research and teaching 
have focused on resource economics.

                               Discussion

     The National Science and Technology Council's Subcommittee on 
             Water Availability and Quality (SWAQ) Outreach

    Chairman Lampson. Thank you, Dr. Hatch. We will now begin 
with our first round of questions, and the Chairman will 
recognize himself for five minutes.
    Let me ask you all a couple of questions. The Academies' 
Report indicated the outreach mandate needed to be strengthened 
and improved. What is the current experience with SWAQ, with 
respect to communication with yours or similar organizations, 
and are additional funds needed to support broader outreach 
effort, or is explicit direction to undertake these actions 
sufficient?
    And Dr. Shannon, if you would start, and the rest of you 
comment.
    Dr. Shannon. Thank you, Chairman. Just to recap. The issue, 
you are asking specifically about the communication from the 
group, SWAQ, to the----
    Chairman Lampson. And experience, yes.
    Dr. Shannon. The experiences from the industrial side of 
things, which is really what I have been representing, is that 
there has not been a lot of diffusion from the Federal 
Government to an organization that are building water 
technologies, and that would be a fantastic thing, if this 
could be improved and increased, to increase the diffusion of 
knowledge, and coordination.
    Where there has been some with my, through the National 
Science Foundation, that I represent as well, and that is, of 
course, much more closely allied, so--with, you know, the work 
that has been done at the National Academy of Sciences, et 
cetera.
    So, perhaps these folks here would be better in addressing 
your question.
    Mr. Christenson. Thank you, Chairman. Yes, I am speaking 
for the beverage companies, I think there is, the right word 
from our participants is that there is a general need for 
greater coordination, but also, that communication is a key 
piece to that coordination, and interactive communication. So, 
it is a two way flow.
    I think the general feeling of my constituents is probably 
to have access and provide input, so there is not a clear 
pathway or vehicle to communicate into these organizations 
necessarily, and communication outwards, and synthesis of that 
communication could be improved.
    Dr. Loftus. It is my sense that there is little to no 
dialogue taking place between SWAQ or many federal agencies, 
and perhaps, the State of Illinois, which might be the most 
logical first step in communication, so I think there is room 
for improvement there.
    Mr. Johnson. It seems to me that most of the communication 
has probably been through interest groups and associations, as 
opposed to bringing the effort down to the local level, where 
individuals who may not have the resources, or may not be a 
part of some of the national organizations, would have an 
opportunity to have more direct input into the effort. So, I 
think that that would be a very critical element. And I think 
it ought to be mandated, and I think that those agencies that, 
again, are having to do the outreach, would probably be better 
positioned to understand what the resource requirements would 
be in order to reach down to the actual local governments, as 
opposed to just assuming that they cast a broad enough net by 
dealing with the interest groups.
    Mr. Spooner. No additional comments, thank you.
    Chairman Lampson. Okay. Dr. Hatch.
    Dr. Hatch. Yes. If you talk about the communication between 
SWAQ and NIWR, that has been excellent. In fact, we are quite 
familiar with many of the people on the committee. Then, when 
you go from a NIWR, or the State institutes to the local group, 
in North Carolina, actually, it is fairly good. It is, to some 
extent, it is the local initiative. We have workshops for 
continuing education for construction people, and we have PDHs, 
they call it, Professional Development Hours. We work closely 
with the State government people and Departments of Natural 
Resource. We actually have a consortium we call the Urban Water 
Consortium, that the city managers, or the water managers, for 
the 11 largest cities in the State of North Carolina. So, I 
think it is very much a mixed picture for our NIWR group.
    Some states have quite an extensive program that could be 
supported further, or could be used as an example for some 
other states. But I would have to admit that it is not 
completely that NIWR deserves all the accolades there. It is 
often the local communities, and our particular community, 
universities and research, we are the Research Triangle. We 
have Duke, we have NC State, we have University of North 
Carolina. We have Wake Forest. So, it is a very unique 
situation that probably isn't replicated in many areas of the 
country.

     The Federal Government's Role in Ensuring Water Availability 
                              and Quality

    Chairman Lampson. I am going to squeeze this in, and let 
you comment on it. If you will, make it as succinct as 
possible. What is the most significant deficiency with respect 
to the Federal Government's current role in ensuring water 
availability and quality? The most significant deficiency with 
respect to the Federal Government's current role in ensuring 
water availability and quality.
    Dr. Hatch. Are you saying deficiency or inefficiency?
    Chairman Lampson. Deficiency.
    Dr. Hatch. Deficiency.
    Chairman Lampson. The most significant deficiency.
    Dr. Hatch. I believe it is coordination. I think the 
general public looks in the newspaper, and they see something 
about the Corps has this requirement, and they look in there, 
and they see that the hydropower, FERC, has another 
requirement. Then, they look at the city municipal drinking 
water, and they see yet another, and the governor has yet 
another opinion. So, it seems to me that this coordination is 
crucial that you are suggesting. We strongly support it.
    Chairman Lampson. Anyone else want to comment? Dr. Loftus.
    Dr. Loftus. We have the Clean Water Act and the Coastal 
Zone Management Act for water quality guidance. We don't really 
have anything similar for issues of water supply. And so, in my 
view, we might benefit from a National Water Policy Act of some 
sort, that does the water quantity what the other two acts have 
done for water quality. That is the biggest deficiency, in my 
view, and then, the other matter would be to ensure that we 
have got that vertical coordination. We definitely can use 
better coordination at the horizontal federal level, but we 
need it to also move up and down through states, providing 
states with goals and guidance and incentives, so that at the 
regional, on the ground level, where I am at, we have a strong 
sense for, you know, what the big picture is, and overarching 
goals are.
    Chairman Lampson. Okay. Thank you. Anyone else want to make 
a comment?
    Mr. Christenson. Quick comment if I may, Chairman. I 
believe the representative group that, the biggest deficiency 
is in the consolidation of information and data and 
communication. This Act is intended to address--serve as a 
clearinghouse, consolidate available information on water 
quantity and quality, and distribute that information. So, some 
of the research that is here, to define our water resources, 
and provide the basis for planning and decision-making, and 
consolidation of the research at the federal level, is needed. 
That leadership piece is missing right now, in my opinion.
    Chairman Lampson. Thank you.
    Dr. Shannon. I actually agree with all of these gentlemen. 
But just the issue is, is that there really is no coordination 
right now between the research that is done by the Federal 
Government, and funded by the Federal Government, and its 
diffusion into practice. That is also a key issue. It is just, 
it is missing.
    Chairman Lampson. Yes. Mr. Spooner.

             Carbon Sequestration's Impact on Water Supply

    Mr. Spooner. I would just like to repeat my concern about 
carbon capture and sequestration, that would effectively be 
mandated or strongly encouraged with some of the global climate 
legislation, where perhaps, the water quantity impacts have not 
been adequately considered.
    Chairman Lampson. Thank you very much. My time has expired, 
and I recognize the Ranking Member, Mr. Inglis, for five 
minutes.
    Mr. Inglis. Mr. Spooner, following up on that part of it, 
does it--I am not sure I know how water is used in carbon 
sequestration. What is the process there? Do you happen to 
know, or are you just aware it uses a lot of water?
    Mr. Spooner. DOE has produced a series of reports, where 
they have looked at a number of the impacts of carbon capture 
and sequestration, on both retrofitting existing utility units 
and constructing new units. And that goes into quite a bit of 
detail, hundreds of pages, and I can't really paraphrase or 
summarize that very well, but it is a very water intensive 
process to capture the carbon dioxide.
    Mr. Inglis. Interesting. Anybody else know anything about 
that? I have to find out what the process is for the various 
technologies that we might use for carbon sequestration.

                    Avoiding Burdensome Bureaucracy

    This concept of coordination has got to be balanced against 
the experience, say, of homeland security, which some people 
think hasn't been so coordinated, and has, in fact, created 
additional layers of bureaucracy to respond to threats. Any 
ideas about how we make sure that we don't repeat those 
mistakes? To have coordination, but not a layer of additional 
bureaucracy that just is overlaid over the existing 
bureaucracy?
    Mr. Christenson. If I may make a comment, from a strategic 
thinking perspective, or a strategic planning perspective, I 
think success is always founded in having a clearer vision of 
what you define as success, and putting those controls in. The 
catch to that is milestones, and clearly defining expectations 
for outcomes. So, I think they set it in a clear direction, and 
the boundaries and scope are probably the most critical piece 
to avoiding scope creep, which is often a problem. And I think 
that is one of the things that we see is, we are having a hard 
time envisioning, in the current discussion, and we see an 
opportunity to add more clarity on what the vision is, and the 
purpose. This policy does not create another agency. This is 
not, that is how we are interpreting this policy, but it is 
actually a functional group that spans a certain scope of 
activity to the Federal Government, and helps create, set some 
focus, tighten the budgeting, and things of that nature. But 
from our perspective, I think that is one of the missing 
pieces, or truly a place to enhance the current policy 
discussion.

                          Benefits of Research

    Mr. Inglis. I suppose that each of you must have some 
hypothesis about what this research is going to show about 
water usage and availability. Anybody want to dare to state a 
hypothesis about, I think it is going to have something to do 
with conservation, that would be my guess, as a hypothesis 
here? Anybody want to venture one, as to what the main thrust 
of this research might prove? Leaving aside some of the key 
issues that Mr. Johnson had mentioned about the pharmaceuticals 
and things like that, and that is very interesting research 
that is very important. And the other, the availability issue; 
there are probably some hypotheses out there about what you are 
going to find.
    Dr. Shannon. At the risk of trying to project out with a 
crystal ball, which I don't really have--but the issue, I 
think, if we get much better information as to where the water 
is, and the state that the water is at. Particularly the issues 
with downwater. Surface water is fairly well understood. USGS 
has done a great job. There has been a real fracture of who is 
responsible for collecting groundwater information, and we have 
really gone county by county. I mean, it is very, there is not 
really a whole database which is, you keep hearing referred to.
    I think what people will find is that the replenishment 
rate is less than the withdrawal rate, and that issue will 
become really crucial. The main issue with what one can do 
about this. Can we reuse? Can we restore? Can we reclaim water, 
and recharge aquifers? That would be a critical issue, which 
nobody right now, there is no federal agency that says that is 
their charter. You can say, well, EPA has its charter for water 
quality, but what is the charter for that.
    The Bureau of Reclamation has some charter, but there is no 
one particular agency, so the issue really, through your 
earlier question, what could happen is, is really to be, as Mr. 
Christenson said, you really make sure the scope is well-
defined at each agency. I think right now, we have many 
agencies that are doing the same thing, and yet, nobody has a 
single charge, and to try to, if you can craft a way that this 
committee could actually define who does what, and who has what 
charter, I think, would be the best way of approaching it.
    Dr. Loftus. Mr. Inglis, I would hypothesize that a 
nationwide commitment to conservation and efficiency will be 
the least expensive new supply we can develop.
    Mr. Johnson. That is very profound. I agree with all of 
the, both of my colleagues here, but I think that one of the 
things that we have learned, in particular, with the looking at 
nanotechnology and pharmaceuticals, is that we have developed 
technology to identify and define many of these elements that 
are out in the environment, and that that technology has been, 
has far outstripped the research and the technology that is 
necessary to avoid having those constituents and elements that 
have the potential to be harmful to health, in getting into the 
environment.
    So, I think that those, that kind of research is going to 
need to catch up with the research for the identification of 
these things. The other thing, I think, is just methods that we 
might employ, in particular, in urban environments, to try to 
reduce pollution, and to capture that water supply as a better 
water supply, as it comes out of our urban environment, in 
particular.
    Dr. Hatch. I have a comment. I think the most important 
element right now is the competing uses of this, of the supply. 
I think that we, through the last so many decades, have always 
used increasing storage, building reservoirs, as our way to 
deal with water resource problems, and I think now, it is more 
competing demands, and management, better efficiency, 
conservation, looking at things on a more long-term basis. 
Looking at things on a watershed basis is also crucial. Because 
we are getting into so many issues of jurisdiction. So--and I 
guess water quality is the other one. You can't separate 
quality from quantity. It is quality of a certain, I mean, 
quantity of a certain quality, so--I think those are the kinds 
of issues that are coming up.
    Mr. Spooner. I would just like to mention that, with the 
Georgia Water Management Plan, one of the first implementation 
steps was water conservation, more emphasis on that could be 
started and implemented, to some degree, almost immediately. 
And I would be glad to furnish a copy of the plan for the 
record, along with some information on CCS water use, in 
response to the prior question. Thanks.
    Mr. Inglis. Thanks.
    Chairman Lampson. You are welcome. I now recognize, for 
five minutes, the gentlelady from Maryland.

                           Water Conservation

    Ms. Edwards. Thank you, Mr. Chairman. I am curious. Each of 
you did talk about conservation as an important component, 
maybe even a principal component of looking at our nation's 
water supply. I am really curious as to whether you think that 
there is a place in the legislation that we are considering, 
where we might ask specific data points, and what those might 
be, regarding conservation. Mr. Christenson, particularly, you 
and your industry, looking at aspects, for example, of bottling 
water and that industry, competing uses of agriculture, and 
then what questions we also might ask regarding conservation 
that we can do as individuals and homeowners, that might impact 
our water supply. I think begin with you, Mr. Christenson.
    Mr. Christenson. I need to ask for a clarification again, 
if you would restate or summarize your question.
    Ms. Edwards. Well, I am curious about what your industry, 
you know, how your industry would look at conservation, because 
you mentioned conservation----
    Mr. Christenson. Sure. Sure.
    Ms. Edwards.--is an important aspect of the water supply, 
and how your industry looks at conservation and the data points 
that we might ask about what we can do around conservation to 
get----
    Mr. Christenson. Certainly. We have measured, in the 
beverage industry, total water consumption amount very closely. 
They look at water use at various departments within the 
production process, and within the supply chain. So, we look 
beyond the four walls of the operating facilities, but also 
look down the supply chain, so beginning to take a life cycle 
assessment look at water consumption to develop a product.
    In addition, you use the quantitative measurement, the use 
of water, and you begin to attack your heavy user water 
departments conceptually. And so, you are looking at water use 
efficiency, against some production quantity.
    The other piece that I think people have had great 
effectiveness at is to create a culture within these businesses 
to water stewardship and conservation. So, if the employee that 
is walking around the plant sees a faucet on, turns it off, it 
is like turning the lights off when you leave the room.
    So, the two aspects that we are looking at are the 
quantitative aspect of water use and efficiency, usually 
measured against, normalized against--production level, whether 
it is kilograms or per liter of product developed, whatever. 
And the other is really trying to look at and benchmark 
practices and culture within the business, as a data point and 
an indicator of how we are doing.
    So, I hope that answers your question.
    Ms. Edwards. Dr. Loftus, do you have a comment about what 
we might look at around conservation that could have an impact 
on water supply?
    Dr. Loftus. Yes, thank you. In the Chicago region, we have 
adopted 14 specific measures, and they will aim at households, 
residential use. They will aim at commercial, industrial, 
institutional accounts, and so, there is something in there for 
everyone.
    Some of those measures will require changes of behavior, 
and some will not. Some of those measures, you can very easily 
quantify water savings that could be expected upon 
implementation. Others are a little less easy to quantify. But 
the beauty of the whole conservation movement is that we only 
have to look to other states that have been in crisis mode, 
that have been forced to really lead this edge, California, 
Arizona, for example, Texas, and more or less emulate what they 
have already tried and learned about through trial and error, 
so that is one of the messages I brought back to Chicago, is we 
don't have to really recreate new wheels, so much as we have to 
emulate a lot of the good work that has already taken place in 
various parts across the country.
    So, I called out California. The California Urban Water 
Conservation Council is a real pioneer, for example, in 
establishing a whole structure for promoting and achieving real 
conservation savings. The New Alliance for Water Efficiency, in 
some respects, is an outgrowth of the success of the California 
Council, but now, the Alliance has a North American scope 
headquartered in Chicago. They are very committed to promoting 
the whole conservation and efficiency agenda, because there are 
so many benefits, both on the water intake side, as well as on 
the wastewater treatment side.
    Ms. Edwards. And is there a national snapshot of what a 
conservation strategy might look like for the country, as 
opposed to the individual snapshots that we might get in a 
region or a locality?
    Dr. Loftus. Well, that is a good question. I want to say we 
could create one without too much work, if one didn't exist 
already. Maybe my colleagues can respond to whether or not such 
a snapshot exists.
    Ms. Edwards. I think my time is up.
    Dr. Shannon. Oh, I actually, that was one of the--sorry--I 
actually showed one where I actually tried to capture the 
Nation as a snapshot in just one graph. Conservation is 
essential, because if we don't, if we stay on our current rate 
of increasing consumption per capita, we will have to increase 
our total water supplies by 60 percent over the next 30 years, 
which is not possible. So--but if we just focus on domestic 
use, that--we would have to cut our domestic use by 60 percent. 
Everybody would have to use 60 percent less. Our industries 
would have to use 30 percent, energy would have to use 30 
percent less, and ag would have to use 20 percent less. Really, 
agriculture consumes 70 to 80 percent of the water used in the 
United States. So, in this talking about the different sectors, 
we really have to--and that is one of the essential things that 
the Federal Government can help do, is to bring all these 
different sectors together. Dealing with one sector without 
thinking of the other is--we can't----
    Chairman Lampson. Okay. Thank you. Next, we have, I will 
recognize for five minutes Mr. Bartlett.
    Mr. Bartlett. Thank you very much. It is going to be a race 
between water availability and availability of liquid fuels, 
which brings our communities to their knees first.
    You have been talking about water conservation, and we are 
not very aggressive in water conservation. I remember that I 
was proposing building houses that got all of the water from 
the water that falls on their roof. If you are in this area, 
with 40 inches of rainfall, you have an average house, enough 
water falls on the roof of your house to meet all of your water 
needs for the year, if you are at all conserving.
    And I say, people said, oh, gee, you can't drink rainwater, 
cistern water, and I said well, let me understand this. The 
rain falls on the hog lot, and the water from the hog lot goes 
into the creek, and the creek goes into the river, and you pull 
the water out of the river and treat it, and that is my 
drinking water. I said can I please have the water before it 
goes through the hog lot. That seems to me to be a reasonable 
request.
    I also suggested that in conserving water in the home, that 
you might use gray water. We are one of the few major countries 
that uses drinking water to flush its toilets and wash its 
streets. And one of the counties, they said oh, gee, you can't 
do that. Somebody might drink the water of the hose when they 
were washing their car. And my response was you don't drink 
water out of your toilet, do you? You learn where you get 
drinking water, and where you don't get drinking water.
    You mentioned the relationship between energy and water. 
Indeed, they are very closely related. We are getting, now, a 
bit more than a million barrels of oil a day from the Canadian 
oil sands. The availability of water will shortly, severely 
limit that. And I note in our country that we use drinking 
water to cool our power generation plants. In most of the rest 
of the world, they are placed in population centers, and the 
waste heat is used for district heating. We do almost none of 
that in this country. So, we have lots and lots of 
opportunities for conservation. I see little effort to conserve 
either water or energy, and we need aggressive conservation in 
both of those.
    I understand that in some parts of the West, that we are 
actually pumping glacial waters, that these aquifers are not 
being replenished. Is that true?
    Dr. Shannon. Yes, but mostly in the Midwest. It is mostly 
the upper Midwest.
    Mr. Bartlett. The upper Midwest.
    Dr. Shannon. The upper Midwest, yes.
    Mr. Bartlett. But if that is true, how can sensible people 
issue one more building permit in an area where you are getting 
your water from glacial water, and you are not replenishing the 
reservoir? Can you help me understand that?
    Dr. Shannon. I wish I could. Most of those permits, it is 
all very local. Each state has different laws on groundwater 
withdrawals, sometimes, even each county, each city has 
different regulations, and so, in my hometown, if you own land, 
you can drop a well, and start, and it is glacial water, and we 
can just pump it out as our, as we desire.
    It is a problem.
    Mr. Bartlett. Then what will we do when it is gone? What 
will those communities do?
    Dr. Shannon. This is an absolutely critical issue that we 
have to address.
    Mr. Bartlett. I am really kind of depressed, because that 
is a pretty simple kind of a thing, and if we can't have any 
rational response to that, what kind of confidence do you have 
that we are going to have a rational response to our national 
very challenges with water?
    Dr. Shannon. In the issue of groundwater recharge is the 
real issue, and can we actually start recharging? And humans 
have actually started to change this by digging basements, and 
all sorts of activities where we have now gotten a connection 
between the surface water and these glacial aquifers.
    So, there is issues of recharging, and you just want to 
make sure you recharge these aquifers cleanly. And there are 
possibilities for doing it. We are not doing it currently, but 
we can, in fact, change that if we start working on it now.
    Mr. Bartlett. Mr. Chairman, there are three things that we 
have just taken for granted, that is, breathable air and 
adequate amounts of usable water, and adequate amounts of 
liquid fuels.
    Our society, our world, our country faces real challenges 
in these areas, and I want to thank you for holding this 
hearing. Most people don't much think about water, but it is 
just about as critical as liquid fuels, which we are thinking a 
lot about now. So, thank you for your foresight in holding this 
hearing, and I yield back.
    Chairman Lampson. Thank you, Mr. Bartlett. Your thoughts 
are always impressive and causes us to think. We will see where 
we go with it all. We have, next, Mr. McNerney. You are 
recognized for five minutes.

                      Conservation and Agriculture

    Mr. McNerney. Thank you, Mr. Chairman. The areas I am most 
interested in is the impact of efficiency, water efficiency and 
conservation on farming, in terms of productivity and 
profitability. Could any of you take that question on? How is 
efficiency is going to make farming more profitability or more 
productive? Can it, or are farmers going to be taking a hit 
when we go toward conservation? It is inevitable.
    Dr. Shannon. Anybody else? I will be willing to tackle 
this.
    Mr. McNerney. Sure.
    Dr. Shannon. I actually went to India and--a couple of 
weeks ago, just to give, issue about agriculture, and they 
doubled their food production by basically doubling their water 
withdrawals out of their aquifers to reach the Green 
Revolution, and now, their aquifers are drying. So, they are 
very, very worried about to do to maintain their efficiency. 
Well, Israel has really done a tremendous job in cutting the 
amount of water and increasing their agricultural output.
    So, this is an area that, with some new technologies and 
some new investment, we can actually increase, I think, 
agricultural output in many regards, while reducing the amount 
of water use. Doing groundwater drip irrigation, where you go 
right below the soil, has benefits, by reducing the amount of 
fertilizers needed, as well as water, and you can increase 
productivity.
    So, there are a lot of places in the world that are looking 
at this. The United States is somewhat doing this in 
California, from what I understand. Of course, through the 
Midwest, we don't yet.
    Mr. McNerney. Well, I have got a lot of almond farmers in 
my district, and I mean, they tell me, when they reduce water 
usage, their almond production goes down. It is that simple. Is 
that, in your mind, is that necessarily the case?
    Dr. Shannon. Well, it is connected with the biology, which 
is the trans-evaporation rate. To get more output, you have to 
have that go up, and so, that is where the consumption comes 
in. But it is the pan-evaporation that is not, doesn't lead to 
that, that we have to minimize. And if you can minimize the 
pan-evaporation, that doesn't leave the crop, but you do have 
to have the, what is called trans-evaporation to produce crop, 
and there is just no way of getting around that.
    Mr. McNerney. You seem to be----
    Dr. Hatch. I have a comment.
    Mr. McNerney. Oh, go ahead.
    Dr. Hatch. There is the basic issue of getting the water to 
where it is needed, which is the root zone or the leaf. You 
could argue that spraying water out into the air isn't very 
efficient. You could argue that where it is possible, drip 
irrigation doesn't work with all crops, but drip irrigation not 
only delivers water, but more and more farmers find they can 
deliver various chemicals or other things, it becomes like an 
IV, if you will, for a human. It is a great delivery system.
    So, in crops and agricultural situations where you can use 
something like that, or you can figure out a way to get more of 
the water that you are taking out of a storage pond, or out of 
a river, wherever it is coming from, get more of that water 
into the affected location, then that is a great efficiency, 
and if that is done, then the productivity could actually 
increase. And I think that is what he is referring to in 
Israel.
    Mr. McNerney. And sort of a related question, you discussed 
the depletion of groundwater aquifers. It is a big issue. Are 
there geologic consequences to that, and how can we better use 
rainfall to recharge these? I mean, in California, we are close 
to the ocean. The rain comes, and we flush it out to avoid 
flooding. But is it an effective way to use that, to recharge 
our aquifers?
    Dr. Hatch. I guess I can--if somebody else wants to jump 
in. Groundwater recharge is an issue. If you don't recharge, 
the land subsides, and there is subsistence occurring 
everywhere around the world, and in the United States. 
Singapore, by the way, has subsided almost 30 centimeters in 30 
years from pumping out groundwater aquifers. Same thing with 
Mexico City, and of course, New Orleans, we know about that, 
and other places.
    But you can recharge with rainwater, but typically, the 
water needs to be really clean to get fast recharge rates. If 
it is not clean enough, it is slow. If it is muddy water, it 
doesn't recharge, and then, you have to get rid of it from 
floods. So, there are, there is work going on to be able to 
clean it up effectively, so that you can recharge aquifers more 
effectively.
    Mr. McNerney. Dr. Loftus.
    Dr. Loftus. And to go back to your previous question, I 
think there is an opportunity here to think a little more 
holistically, thinking about agriculture and their needs for 
water. You know, we have spent billions and billions of dollars 
improving our wastewater treatment plants, and we really 
produce some pretty high quality wastewater that can present no 
health problems. But yet, it is nutrient-rich, and so, you 
could apply treated wastewater to corn, for example, and 
eliminate the farmer's need to buy urea or other forms of 
nitrogen that they use at great expense, given the price of oil 
these days, and actually, boost their productivity and 
profitability, and at the same time, provide, you know, an 
outlet for effluent that might otherwise cause a problem, if it 
is being put into a sensitive stream and degrading water 
quality, for example.
    Mr. McNerney. My time is about expired, Mr. Chairman.
    Chairman Lampson. Sounds to me that that would involve 
actually planning the use of the land, as well, so that you 
could have best use of the land nearest where, there is a lot 
that has to go on.
    Mr. Christenson. And we are seeing that happening now, 
beginning to happen. In the beverage industry, certainly, we 
are seeing beneficial reuse of their waste streams directly for 
land application, things of that nature. So, those practices 
are evolving. If I may make a quick comment.
    Chairman Lampson. Please.
    Mr. Christenson. Just to the, again, the agricultural 
discussion. You know, I think the whole discussion really 
speaks to the need for the various sectors to come together and 
be looking for solutions in total. You know, we have got Pepsi 
and Coca-Cola, and we all know the rivalry between those two 
businesses, working together on a common problem, and a common 
issue for their industry. And I think the same opportunity 
exists here. I think the agriculture industry, the heavy and 
the technical manufacturing industry, food and beverage 
industry, need to come together and be looking at, and 
collaborating, looking at their water uses and practices. There 
is a lot of new technology that is being developed. 
Agricultural industry should not be afraid of this. We all need 
their products, as we need other products.
    So, for us to take, have the sectors coming together, and 
realizing that this current federal policy we are discussing 
today works to coalesce and get collaboration across federal 
agencies. Somewhere out there, we need to begin to create this 
cross-industry sector collaboration and solution-solving forum. 
So, I am just kind of hearing--what we are talking about here 
today. These are the kind of things I think that we see need to 
happen, and certainly trying to do within the beverage 
industry.
    Chairman Lampson. Ms. Biggert, you are recognized for five 
minutes.
    Ms. Biggert. Thank you, Mr. Chairman, and thank you for 
holding this hearing. It has been very interesting. I was just 
sitting here looking at this bottle of water, and thinking that 
it wasn't too long ago that this bottle of water cost more than 
a gallon of gasoline.
    Now, it is no longer true, and unfortunately, it is not 
that the price of water has gone, but the price of gasoline has 
skyrocketed. So, we have a lot of challenges, I think, facing 
us, and hopefully, that we are, we can come up with some 
solutions quickly.
    And I would like to welcome Dr. Loftus here from the CMAP. 
I live in the metropolitan Chicago area, and so, certainly 
appreciate all that you do to provide us with drinking water. 
When I first moved to Hinsdale, we had well water, and it 
smelled like rotten eggs, and finally we did go off the well 
water and use Lake Michigan. That has been a wonderful 
resource, but it, you know, there are challenges there, too, in 
how much water we can use.

                     The Federal Government's Role

    But I just wanted to ask everybody, and then come back to 
another question, just so that we can be clear, do you envision 
a bureau to control water usage, or merely to monitor and 
predict it, and such as the bill that we are, the draft 
legislation that we are looking at now? Should it be to control 
water use, or to monitor and predict it? And start with you, 
Dr. Shannon.
    Dr. Shannon. I was envisioning this as a way to monitor and 
provide new ways of providing new waters, not as a control, but 
as a, providing opportunities to improve water management.
    Ms. Biggert. Mr. Christenson.
    Mr. Christenson. Same answer. I view this as a means of 
collecting some of the information and data, and technology 
development that will allow us to make the decisions we need to 
make, or have the impact, and put the controls in place. So, 
without some of the foundational research and technology 
development that this policy would create, we are not really in 
a position yet to make the appropriate decisions of control.
    Ms. Biggert. Dr. Loftus.
    Dr. Loftus. I don't see a present need for control. I think 
we have an opportunity to better orchestrate a lot of good 
pieces that are already in place.
    Ms. Biggert. Mr. Johnson.
    Mr. Johnson. Yes. I think I would agree that the need for 
control is certainly not there, and I think it would be a very, 
very difficult undertaking, and if we put that same level of 
energy into coordinating the research that is currently 
available, and the prospective research, and I think pulling 
together some of the NGOs along with the Federal Government, to 
make those things happen, then we see ourselves in a very 
different environment, and causing people to think differently 
about resources that we are utilizing.
    Ms. Biggert. And Mr. Johnson, I would like to thank you for 
tearing up the street in front of my house here in Washington, 
and getting rid of the lead pipes.
    Mr. Johnson. I have never seen a new street that I didn't 
want to cut.
    Ms. Biggert. Well, it is a very nice street now. And Mr. 
Spooner.
    Mr. Spooner. I agree with the other panel members. The 
research and information needs to precede any control 
mechanisms.
    Ms. Biggert. Okay, and Dr. Hatch.
    Dr. Hatch. I think we are all unanimous. It is a more a 
coordination, management, research, information, those areas. 
It is not control.
    Ms. Biggert. Thank you. Then, Dr. Loftus, you said in your 
testimony that overall, as elsewhere in the United States, our 
challenge in the Chicago region is not so much water scarcity, 
but water waste. Do you mean the treatment of water, or 
wasting, you know, or not conserving it?
    Dr. Loftus. The latter. More, you know, I hesitate to say 
this, but I kind of say that we are sort of spoiled in the 
Chicago region, and we have had abundant, you know, very 
generous supplies. We haven't really needed to conserve water. 
It has been priced quite low. So, naturally, it is hard to 
conserve something that is nearly free, or priced I 
inexpensively. So, I think there is just an opportunity to 
value water much more highly, and as a result, just simply 
become more efficient with its use without causing pain.
    Ms. Biggert. Do you think that, then, going to a national 
level, as far as, you know, the coordination with, on a 
national level with all of the states and the local 
governments, that this, that we can get a message out to people 
to conserve more? Is this----
    Dr. Loftus. Yes, ma'am. Absolutely. I think it is critical 
that the Federal Government become an active voice, and show 
leadership, and provide guidance to states who have programs 
that, like our own State of Illinois program, is interested in 
evolving, and becoming better at managing State supplies. But 
you know, again, guidance, incentives, direction from the 
Federal Government would be, and maybe I am an idealist, but I 
think it would be really useful.
    Ms. Biggert. Thank you. I yield back.
    Chairman Lampson. Thank you. And I recognize Ms. Giffords 
for five minutes.

                          Groundwater Research

    Ms. Giffords. Thank you, Mr. Chairman. Thank you, Ranking 
Member Inglis. This is a terrific hearing, and I am very 
pleased that so many of you could be here today to talk about 
an issue that is really going to drive our economy, and 
certainly, national security into the future.
    I think that wars of the future will be fought over water, 
not necessarily oil, and I don't think the American people 
really understand what we have got headed down the road towards 
us. I come from Southern Arizona. We have an interesting 
situation, where we have had delivery of the Central Arizona 
Project for many years. I come from a part of Arizona, though, 
that has been heavily reliant on groundwater for most of those 
years, where our larger city, Phoenix, has been reliant on 
surface water for most of its growth.
    So, there is an interesting relationship that we have. 
Southern Arizona conserves much, much more than Phoenix. When 
you go to Southern Arizona, you rarely see a lawn, rare to see 
larger swimming pools. I mean, you will see a lot more of that 
up in the Phoenix area.
    So, my first question is for Dr. Shannon, because you talk 
a lot about groundwater. I just had a town hall hearing a 
couple weeks ago in Sahuarita. It is a booming part of Southern 
Arizona, a lot of retirees, near Green Valley, just north of 
Nogales. And there is a shortage of about 35,000 to 40,000 acre 
feet per year that we are seeing in this area of drawdown, and 
I am concerned, because this area is going to continue to boom, 
and we are the second fastest growing state in the Nation, and 
this area is also sandwiched between large agricultural 
interests and mining interests as well. We all know that we 
have record drought in the West, and certainly, we see that 
with that record drought, that we are going to have more and 
more users on the Colorado, but less and less water supply.
    I was also surprised to read your testimony about how 
little actually is known about groundwater, how, we don't have 
a lot of information out there. So, could you specifically talk 
about some of the necessary research that we are going to need 
in the future towards groundwater?
    Dr. Shannon. Thank you very much for this question, because 
it is actually a crucial question, where I think the Federal 
Government can make a huge impact.
    Understanding groundwater is, we understand it fairly well, 
if you can actually drill wells, and you can actually look at 
how it flows. But water flows, if you draw down one, it 
actually will pull from another area, and will impact another 
area. Also, the depths at which you go to the water. Typically, 
as you go down deeper and deeper, it gets saltier, because 
heavier water drops, and when you are down in the oil regions, 
it is all very, very salty, typically, and the salts are 
different. There are some mostly hard salts, and so, as you are 
looking at how the water moves from the surface to the ground, 
and from the ground to the ground, it is a very difficult thing 
to be able to do, and there is certainly, USGS and others have, 
and oil companies have certainly looked a lot at this issue, 
but more research really needs to be done to understand this 
movement.
    And as you draw down, it actually changes the amount of 
water that is at the surface, and I was at a meeting at the 
Joint Services, because the Department of Defense is very 
interested in this issue, and they were talking about a base in 
Arizona, and I am trying to remember the name of the base.
    Ms. Giffords. Huachuca.
    Dr. Shannon. Yes. And they were--thank you. And they were 
looking at the water, and they have done most of the research 
there on the way it is flowing, and as they have drawn down the 
aquifer more, literally the river that flows on top of it gets 
pulled down, and so, there becomes less surface water, because 
it is starting to recharge that aquifer.
    So, understanding the whole water balance is absolutely 
crucial, and it is not, it needs a lot more research to be able 
to know what to do. Right now, we kind of guess, and a lot of 
it is just guessing, and if you sit there watching it drop, and 
you say well, maybe we should draw less, but it is not fully 
understood yet.
    And I know that sounds strange after all these hundreds of 
years of looking at it, but it still needs more research, and 
this is something where the Federal Government can really have 
an impact.
    Ms. Giffords. Well, I appreciate you mentioning Fort 
Huachuca. There is an interesting relationship between the San 
Pedro River----
    Dr. Shannon. Right.
    Ms. Giffords.--which is the second most diverse ecological 
area outside of Costa Rica in all of North America. It is a 
small river. It is known as the last free flowing river of the 
West. It is not very wide. Obviously, it is through the desert, 
but the amount of species that are there are fabulous. I mean, 
very incredible migratory area, of course, for birds, but 
because of the Endangered Species law, the Fort was required to 
reduce its water consumption.

                            Public Education

    So, I guess my next question is really aimed at Dr. Hatch 
but following up on Representative Biggert. What the Fort did 
in less than a couple of years, is the garrison commander came 
into Fort Huachuca knowing that it had to reduce the water 
consumption. Essentially, they put in low flow toilets, and 
they put in low flow water, you know, shower heads on the taps, 
and went through all those lawns. He said you know what, we 
can't have lawns here anymore. We are in the desert. We have 
got a drought. And, I mean, that is pretty heavily monitored. 
So, they cut their water consumption by about 50 percent, which 
is extraordinary.
    Now, he can do that because he is a garrison commander, and 
he can go around to all of these different houses, and tell 
people what they have to do. But you know Dr. Hatch, this whole 
concept of public education is phenomenal, but I want to know 
where it actually works. Because I think that we, as humans, we 
really like our creature comforts. We like having our nice hot 
showers. We like being able to turn on the tap and know that we 
are going to have direct delivery of water, and that is very 
much the quality and the standard of life we are accustomed to.
    But starting with Dr. Hatch, and the others can join in. 
Can we talk about how we are going to educate the public and 
get them to change some of their behaviors so that we don't 
just continue to think that just water comes out of bottles, 
that it is very inexpensive and ready to use, because we really 
do have some challenges ahead.
    Dr. Hatch. I guess there are several problems, that is a 
big question. One of the things I am working on is the 
effectiveness of conservation measures, and immediately, you 
hit up against the problem that the pricing, I mean, as I said 
earlier, it is so inexpensive, I joke that if I could get my 
son to stop text messaging, I would probably save more money 
than I would not drinking, not using water at all in my house.
    Obviously, there is, you can go to certain states, and I 
think this was mentioned earlier by the person from Chicago, 
that you can learn a lot from other states. I think Florida, 
for the Eastern states, Florida has done quite a bit with low 
flow showers, various types of appliances and this kind of 
thing. There is other places that are giving rebates for using 
water-conserving appliances. But once again, I think it is as 
much the issue of attitude. Just because it is inexpensive, it 
is just not on a lot of people's radar screens.
    And I think the, it seems like it takes a drought to get 
people's attention, and it has definitely gotten people's 
attention in Atlanta, North Carolina, Georgia area, with the 
recent drought, but you are always concerned that after a few 
years of adequate rainfall, maybe people are just going to 
become less interested. So, I think some research into the 
effectiveness of these management measures or methods would be 
very useful.

                   Municipal Water Utilities: DCWASA

    Chairman Lampson. Thank you. This has been fascinating. I 
do want to ask Mr. Johnson a quick question about your 
testimony. You discussed how DCWASA is different from most 
other U.S. municipal water utilities. What can you teach us, 
what can you tell us about better coordination, based on your 
experiences at DCWASA?
    Mr. Johnson. Well, I think that based on our experiences 
here, one, we are, I think, the District of Columbia and the 
State of Wyoming, I believe, are the only two entities that are 
not regulated by State organization, where primacy resides with 
the states. So, our interactions are primarily with the U.S. 
EPA, out of Region 3. That is one of the unique 
characteristics, and the fact that we are established as, both 
by local and federal law.
    I think that that kind of regulatory regime puts us a 
little closer to where a number of things are happening with, 
across the country, in terms of some of the research and other 
things that are occurring, certainly much closer to a stricter 
regulatory regime. And what we are finding here in the District 
that is kind of unique is that when we start talking about 
sharing these water bodies, and my view is that we have 
probably outlived the usefulness of the Clean Water Act in its 
present form, and need to start looking at things like 
watershed-based utilization of resources and water, because we 
can have, something to occur in the District of Columbia, and 
across Southern Avenue, and Prince George's County, with regard 
to water supply will be totally different, in terms of what we 
have to do for restrictions and other kinds of things.
    So, we ought to be managing these pieces on the worst-
problem-first basis, as opposed to those things that are first 
legislated for us to do. And I think that would give us a very 
different outcome, an experience both in the clean water side 
as well as the wastewater side.
    Chairman Lampson. Clean water versus wastewater.
    Mr. Johnson. Well, I think that they are, the two are tied 
very closely together. As an example, if we talk about 
pharmaceuticals, do you control the source and keep them from 
ever getting into the water body? Do you control it through 
treating the water on the, at the water purification plant? Or 
do you treat it at the wastewater plant, where it is coming out 
and being discharged into the waterway, which is probably the 
most expensive approach?
    So, that is why I say that we have to couple these things 
together, and look at them, look at this research kind of as 
one, both on wastewater and water, in order to get an effective 
approach for looking at how we manage water resources in 
totality. The use of graywater is an example. The reuse of 
water is something that people have been experimenting with on 
a very limited basis here in this country, but it has been very 
widely used in other countries.
    So, I think that those two things have to come together in 
order for us to have an effective and well coordinated plan. We 
have a situation now wherein some agencies of the Federal 
Government, the permit writers don't talk to the people who are 
the regulators, who don't talk to the people across the hall, 
who are the permit writers. And that is all dealing in one 
area, so I think if we started to cross pollinate all of those, 
and begin to pull them together, we see ourselves making some 
sense of a resource that is rapidly becoming a limited resource 
in this country. Things will change, with climate change and 
other factors, and will not always remain the same. We will not 
always be a water-rich community, as we currently are today, 
and we need to plan for that.
    Chairman Lampson. And I hope we, I certainly hope we do. 
And we were talking about a few minutes ago about this small 
quantity of water in this bottle, and the bottle itself took 
about three times the amount of water to make the bottle than 
what is contained with it.
    Is that pretty accurate, Mr. Christenson, and how much of 
that is recycled?
    Mr. Christenson. I am not in a position to comment or give 
you exact figures, and go on any kind of record with those 
numbers, but yeah, certainly, you have to, any product, there 
is the packaging component does consume water, as does the 
product itself. Food is the same way. So, you know, this is 100 
percent water inside the bottle. There is, obviously, a water 
consumption. To say it is three times, I am certainly not in 
any position to say that that is a fact.
    Mr. Johnson. Well, Mr. Chairman, I can certainly speak to 
the cost of delivering water. In this city, I can deliver water 
to you, to your tap, for 0.7 cents a gallon. That is less than 
a penny a gallon for water that has been tested, that meets all 
the federal regulations and standards that are established for 
water supplies.

                   The Draft Legislation's Potential

    Chairman Lampson. We had that conversation up here a few 
minutes ago as well. And we may be talking about some more of 
that. All of these things have been fascinating, and many of 
our colleagues have mentioned some things, the Ranking Member 
and I, Mr. Inglis, were talking, a couple of the things that 
have come up. One, the--refer to it as injection, but the--
restoring water, putting water back into aquifers. We talked 
about how, in so many of our areas along the coast--we have 
storms, and storm, we have significant quantities of rain that 
come, at times. We are spending huge amounts of money to 
channelize water routes, to get rid of that water. We are 
buying up houses, in places, so that we can stop having to pay 
so much money to rebuild those houses every time they flood.
    The list of the things that we have been doing seems to go 
on and on and on, and are we going to, this question, are we 
going to find ourselves at a point where we are wanting to go 
back and undo all those things that we have done? And I am not 
so sure that that is not something that we shouldn't be 
considering, and the sooner, the better.
    And I guess my question, if there is a question, is will, 
what our proposal is, create a committee to address these 
issues, assist in getting us to a point where we can address 
some of these kinds of things? Anybody have a thought on it? 
Are we going in the right direction?
    Mr. Christenson. We believe you are, because it is not just 
about conservation. It is not just about changing our habits. 
It is about looking at reuse applications. It is about 
recycling water. It is about directing water to beneficial 
reuse. It is about all of these things, and many of the 
outcomes that you laid out in this policy take us down that 
path, and again, starting with inventory of what we have, and 
beginning to look at needs, and beginning to, starting the 
process of cross-agency collaboration.
    And hopefully, we can build similar models, as we have in 
the beverage group, get cross sector collaborations going and 
exchange. And we are seeing that beginning to happen, but 
certainly not at the rate it may be necessary. But yes, you are 
going in the right direction.
    Chairman Lampson. Mr. Inglis.
    Dr. Loftus. Oh. If I may, I just wanted to say yes. I think 
the draft legislation holds a lot of promise. You can't expect 
one piece of legislation to be all things for all people, but 
this is a definite step in the right direction. I would just 
urge you to think hard about extending that coordination, so 
that it just isn't horizontal at the federal level, but 
somehow, makes tangible connections with states and the private 
sector, so that we can really make progress together.
    The other thing I would urge you to consider is to have 
that National Water Census address the issue of water use 
reporting. Again, we can't manage what we don't measure, so 
there is potential, in that census, to take a meaningful step 
in that direction.
    Chairman Lampson. Thank you.
    Dr. Shannon. If I could just say real quickly. The points 
that were being made here, I can sort of say it is stovepiping. 
Right now, everything is stovepiped, and we call it the 
stovepipe, but you know, we have drinking water, we have 
wastewater, we have storm sewer water. Everything gets divided 
up. Each agency divides everything up, and we really have to 
break down these stovepipes, and I think this type of 
legislation can go a huge way towards that. That is why I am 
very excited about it.

                            Retention Ponds

    Chairman Lampson. Now, Mr. Inglis.
    Mr. Inglis. Thank you. The Chairman and I were just talking 
about these retention ponds, and can somebody tell me whether 
those, do those replenish groundwater, or do they ultimately 
make their way into replenishing aquifers, or--does anybody 
know?
    Mr. Christenson. Excuse me, are you talking about the 
retention ponds next to new construction building? It is likely 
they are not having a great impact on our source aquifers. 
Shallow aquifers, yes, but it is probably feeding some of the 
surface water bodies, and much more shallow aquifers, which in 
the more immediate area, probably manifests itself into some 
surface discharge.
    Dr. Shannon. To actually do direct recharge of a deep water 
aquifer, you actually have to drill a pipe, and pump it up, and 
actually pressurize it, which costs money and energy. Or you 
can get the water very clean, and then, it can actually flow 
more readily. And it depends on the ground, but the typical 
retention pond is not a percolation pond. It may do something, 
it will affect it somewhat, but you know, you need a lot of 
pressure to really get it to go down. So, I mean, you may need 
a lot of area, and that costs land, or a smaller area and 
higher pressure, typically.
    Mr. Inglis. So, a retention pond is not a percolation pond, 
you are saying?
    Dr. Shannon. Not typically, no. Actually, many of them are 
lined with clay and the like, so that you don't cause 
contamination of shallow aquifers from a retention pond that is 
capturing runoff, because runoff has all sorts of things in it, 
distillates and oils, and all sorts of things from storm water. 
So, storm water retention ponds typically are not, they are to 
prevent flooding, but not for recharge. If one wants to use it, 
you can do it, and there are places that do do that, and--not 
as many in this country, but there are a lot of places that 
absolutely depend and rely on this runoff for their sources of 
water. But you have to do some cleaning to do it, typically.
    Mr. Inglis. A percolation pond, it does clean as it goes 
through, or----
    Dr. Shannon. Yeah, it is, usually, it is graded gravel, so 
you will start with, you know, some sands and gravel, and as 
you go down, the engineers will grade it so that it does some 
filtering as the water seeps down, and makes a more direct 
route to the aquifer.
    Mr. Johnson. I believe what the gentleman is saying is 
correct. One good example of where that has been utilized for 
recharging and for drinking water is Austin, Texas, which has 
done a tremendous job, but they have had to do several 
different things in order to make it work.
    One is change people's habits with regard to fertilizers 
and use of other pollutants that go into those retention ponds, 
and--but they attempt to recapture all of the water that comes 
across the land, and reuse it there. Very effective project.
    Mr. Inglis. Thank you.
    Chairman Lampson. I am curious to know where a project is 
where there is actual recharging or injecting water that has 
been held back, and trying to replenish. Any place in the 
United States where that is being done? Does anyone know?
    Dr. Loftus. Well, I think kind of what we are talking about 
here is conjunctive use, conjunctive management of water, and I 
think California, Colorado, and Arizona might be leaders in the 
complementarity that is available in managing surface and 
groundwater supplies, which in some cases, includes artificial 
recharge of aquifers during flood events, for example, where we 
are capturing that extra flow that would otherwise just make 
its way to the ocean, capture it to recharge an aquifer. Using 
the aquifers during dry times, rather than really wet times, 
when there is access to a surface water source.
    It is not available everywhere. It really does depend on, 
you know, the, yeah, the geology, the lithology of that 
particular spot on Earth, whether or not it is amenable to 
accommodating infiltration or not.
    Chairman Lampson. This has been fascinating. I could stay 
here for a long time, and could think of questions, just to try 
to learn this stuff. I think that we have got an awful lot of 
teaching to do across the country. How we build our 
communities, what we are going to be doing with land and water. 
We are starting to see planned communities come up, and 
particularly in our area, which is so low, along the coastline, 
and there has been so much flooding, now we are doing much 
better use of those retention ponds. Always too easy, it seemed 
like, to dredge a channel to get rid of the water that we know 
is going to ultimately flood, so we could go build some more 
houses over here in this pasture.
    And now, we are, you know, starting to realize the benefit 
of retention, and now, if we can figure out how to use the 
water that we capture, all that much better.
    Well, thank you all very much. We appreciate you appearing 
before the Committee this afternoon. Dr. Hatch, I apologize. I 
didn't look up as often as I looked at this level, and so, I 
hope we didn't exclude you from that.
    Dr. Hatch. No problem.
    Chairman Lampson. We appreciate you joining us in the 
manner in which you did.
    Under the rules of the Committee, the record will be held 
open for two weeks for Members to submit additional statements, 
and any additional questions that they might have for the 
witnesses.
    This hearing is now adjourned.
    [Whereupon, at 11:47 a.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                   

</pre></body></html>
